<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






         DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2019
_______________________________________________________________________
_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              SECOND SESSION

                                   ___________

                    SUBCOMMITTEE ON HOMELAND SECURITY

                     JOHN R. CARTER, Texas, Chairman

  JOHN ABNEY CULBERSON, Texas           LUCILLE ROYBAL-ALLARD, California  
  CHARLES J. FLEISCHMANN, Tennessee     HENRY CUELLAR, Texas
  ANDY HARRIS, Maryland                 DAVID E. PRICE, North Carolina
  STEVEN M. PALAZZO, Mississippi        C. A. DUTCH RUPPERSBERGER, Maryland
  DAN NEWHOUSE, Washington
  SCOTT TAYLOR, Virginia

NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

                Donna Shahbaz, Kris Mallard, Laura Cylke,
                    Christopher Romig, and  Dave Roth
                            Subcommitte Staff

                                  ___________

                                  PART 2
                     DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
United States Department of Homeland Security................         1
Immigration and Customs Enforcement and Border 
  Protection.................................................        57 
Federal Emergency Management Agency .........................       135 
United States Coast Guard....................................       169 
Members' Day.................................................       201 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  ___________

          Printed for the use of the Committee on Appropriations
                                  ___________

                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
30-212                    WASHINGTON : 2018                 























 
                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\              NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama              MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                       PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas              ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                    DAVID E. PRICE, North Carolina
  KEN CALVERT, California                  LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                       SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida               BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania            BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                      TIM RYAN, Ohio
  KEVIN YODER, Kansas                      C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                   DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska               HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee        MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington        DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                     MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California             GRACE MENG, New York
  ANDY HARRIS, Maryland                    MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                     KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                   PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  \1\ Chairman Emeritus

                     Nancy Fox, Clerk and Staff Director

                                   (ii)

 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2019

                              ----------                              

                                         Wednesday, April 11, 2018.

                    DEPARTMENT OF HOMELAND SECURITY

                                WITNESS

HON. KIRSTJEN NIELSEN, SECRETARY OF HOMELAND SECURITY
    Mr. Carter. I will call today's hearing to order.
    Welcome to the subcommittee's first hearing on the 
Department of Homeland Security's fiscal year 2019 budget.
    As we begin our oversight process to fund the Department 
for fiscal year 2019, I would like to welcome all of our 
subcommittee members back. Thank you all for being here and for 
all the hard work you did in 2018. I also extend a special 
welcome to today's witness, Secretary Kirstjen Nielsen.
    Secretary Nielsen, thank you for your time today; more 
importantly, for all that you and everyone at the Department 
does for this great country. I look forward to hearing your 
thoughts on the needs that need to be done to keep our homeland 
safe, our borders secure. And as we look forward to working 
with you on these challenges, we hope that you will know that 
we are working together.
    I am pleased to see continued investment in border 
security. The President's budget request proposes $1.6 billion 
for 65 miles of physical barrier. Additionally, the budget 
request also proposes funding for 52,000 detention beds so that 
we can continue to enforce our Nation's immigration laws.
    We will use this hearing process to learn more about these 
proposals and how things should be considered in the context of 
the final 2018 appropriations.
    Also noteworthy is the request for $1.5 billion to 
modernize our Coast Guard fleet of vessels, including $750 
million to construct a new polar icebreaker. This will be the 
first of several needed to address the security challenges and 
economic opportunities facing our Nation. I hope that this 
hearing process will help us to determine the Department's 
plans for continuing this effort and achieving the United 
States' strategic goals in the Arctic.
    Finally, I would like to welcome back my good friend, the 
ranking member, Lucille Roybal-Allard. While we don't always 
agree on policy, we do agree that, working together, we can get 
and produce a better product. For that, I want to thank her and 
recognize her for any remarks she would like to make.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Good morning, Madam Secretary, and welcome to your first 
appearance before our subcommittee.
    While still relatively new, the Department has made 
significant process in improving its operations and 
performance, which is something that DHS personnel, all 240,000 
of them, can be very proud.
    While there is broad bipartisan support for the 
Department's mission of protecting the homeland, there are 
differences of opinion on some of the policies the Department 
follows to achieve that mission.
    I wish that today we were convening under better 
circumstances. This would allow us to focus more on the 
positive things the Department is doing, including significant 
improvements over the last decade to our border security.
    It would help if our country's immigration debate was on a 
more constructive footing, one based on facts, our American 
values, and compromise that could lead to a comprehensive 
resolution to the immigration challenges we all face together.
    Unfortunately, the path to a compromise solution by this 
Congress and between the Congress and the President seems 
steeper today than ever. This not only makes your job more 
difficult, it also causes confusion, fear, and uncertainty 
within our American immigrant communities, among our educators, 
our business sector, and our nonprofit and social service 
organizations.
    Many have come to Washington to express their concerns and 
to highlight the valuable contributions immigrants are making 
to our national economy and American society as a whole.
    Unfortunately, these contributions and the dire 
circumstances that caused individuals to cross our border 
illegally or appear at a port of entry without admissibility 
documentation are too often ignored, and immigrants are broadly 
characterized as criminals or opportunists trying to take 
advantage of our American generosity.
    Regrettably, the administration's rhetoric and aggressive 
interior enforcement contribute to that perception and is 
wrongfully demonizing the immigrant community, tearing families 
apart, and upending the lives of millions of people.
    Madam Secretary, you have the authority to help alleviate 
some of this fear and confusion by using your discretion under 
the law to prioritize how the Department enforces immigration 
laws and carries out policies.
    The vast majority of immigrants are good, hardworking 
members of our community, with no criminal records. Many have 
lived among us for years or decades, raising their families, 
paying taxes, and contributing to our communities. Some came to 
escape violence, others to seek a better life for themselves 
and their family.
    The fact that they arrived without permission, most out of 
fear or desperation, does not mean we should systematically 
ignore their plight and contributions to our communities and 
automatically return them to the circumstances that brought 
them here in the first place. And we most certainly can treat 
them and their family humanely, with respect, understanding, 
and compassion.
    Another responsibility of USCIS is to conduct credible, 
fair interviews of individuals arriving at our borders seeking 
asylum. Under our laws, as well as under our international 
agreements, we have committed not to return someone to a 
country where their life or liberty would be threatened.
    While not everyone who applies for asylum will receive it, 
we have an obligation to make sure every asylum seeker gets the 
opportunity for their case to be heard. And while we do not 
have the capacity to help every deserving refugee, we can help 
more than we do now, and we can treat them all humanely and 
compassionately.
    In closing, Madam Secretary, let me be perfectly clear. My 
Democratic colleagues and I fully support securing our borders, 
and we understand the need and the importance of enforcing our 
immigration laws. Our objective is to ensure we accomplish 
those goals in a way that is just and humane, reflective of our 
American values and moral standing in the world. I look forward 
to working with you towards those goals.
    Thank you, Mr. Chairman.
    Mr. Carter. Thank you, Ms. Roybal-Allard.
    We are joined by the chairman of the full committee, Rodney 
Frelinghuysen. I yield to Mr. Frelinghuysen.
    Mr. Frelinghuysen. Well, thank you very much. Thank you, 
Mr. Chairman. It is good to get here under the wire.
    Let me say on behalf of my ranking member, Mrs. Lowey of 
New York, who I think will be joining us--we are running around 
from hearing to hearing--it is a pleasure to welcome you, Madam 
Secretary, and wish you, obviously, Godspeed in your endeavors. 
We look forward to your testimony and any frank comments you 
have.
    I often say at every committee we represent and look after 
and have the power of the purse. So while much time is spent 
with the authorizers, we actually are the bill payers. So it is 
important that you keep us posted. And as things accelerate and 
focus on border security, it is better to be briefed than read 
about in the newspaper some of the things that are happening.
    I know you have a large and diverse portfolio under you. So 
does the Department of Defense. But for Members of Congress, it 
is good for us to sort of be well informed, hopefully, before 
certain actions are taken so they are not misunderstood or 
misinterpreted.
    Just say on a personal note, I come from a 9/11 State. 
Seven hundred New Jerseyans died on that day in September, many 
of them my constituents. We continue to have a focus on what is 
called UASI, the Urban Area Security Grants. I know that the 
President may propose; we dispose. There is less money in that 
account.
    But for many of us in our neck of the woods, we take it 
pretty personally, since those dollars have been used to 
safeguard a lot of our infrastructure. They also have been used 
to protect a lot of nonprofits and faith-based groups that are 
subject to the type of terror that is all too common around the 
world and around the Nation.
    I want to wish you all the best in your efforts with the 
Department of Homeland Security. It is amazing, since we have 
watched your predecessors, how it all comes together, all these 
different authorities and programs and departments that are 
under your jurisdiction.
    So thank you, Mr. Chairman, for the time.
    Mr. Carter. Thank you.
    Madam Secretary, we are very happy to have you. We will now 
hear you summarize your testimony. We have your written 
testimony. At this time I yield the floor to you.

                 Opening Statement of Secretary Nielsen

    Secretary Nielsen. OK. Thank you.
    Chairman Carter, Ranking Member Roybal-Allard, it is my 
pleasure to be here.
    I just want to start by saying that you have my commitment 
to work with you all. I agree with many of the comments that 
you have made. It is very important for us to brief you and 
give you the information that you need to do your job as 
directed by the Constitution and the expectations of all of our 
constituents. So I look forward to doing that.
    I am honored to present the President's 2019 budget request 
for the Department of Homeland Security [DHS] and to discuss 
how that budget will keep us and the American people safe.
    Let me first take a moment again to thank the subcommittee, 
particularly for the $48.2 billion provided to the Department 
in the recently passed Consolidated Appropriations Act. The 
support of this subcommittee, as you know, is critical to 
advancing the many DHS missions, and I truly thank you for your 
continued support.
    The President's 2019 budget builds on the 2018 budget and 
requests $47.5 billion in net discretionary funding for the 
Department of Homeland Security. It also includes an additional 
$6.7 billion for the Disaster Relief Fund for response and 
discovery to major disasters.
    Today, I would like to outline several core missions 
empowered by this budget and quickly walk through how the 
budget matches our needs. First, securing and managing our 
borders, enforcing our immigrations laws. Two, protecting our 
Nation from terrorism and countering threats. Three, preserving 
and upholding the Nation's prosperity and economic security. 
Four, securing cyberspace and critical infrastructure. And 
five, strengthening homeland security preparedness and 
strengthening resilience.
    Within all of these missions, we are aiming to put our 
employees first and to empower our frontline defenders to do 
their jobs. This is of particular importance to me. We recently 
celebrated our 15th anniversary. It was a time to reflect and 
thank those who have worked every day to protect our country, 
but it is also a very sobering time because of why we were 
created.
    At this level and this need for the addition to mature our 
Department, it is very important that we empower those 
frontline men and women, and I know you share that goal, and I 
thank you.
    For border and immigration, first, we are focused on 
securing and managing our borders and enforcing our immigration 
laws. Although we have made vast improvements in border 
security over the last 15 months, we continue to see 
unacceptable levels of illegal drugs, dangerous gang and 
transnational criminal organization [TCO] activity, and illegal 
immigration flow across our southern border.
    I take the ranking member's opening comments to heart. I do 
not believe that there should be a choice. We should be able to 
protect those who need asylum, as well as prevent those who 
seek to do us harm from crossing our border.
    The current statistics from March 2018 tell a dangerous 
story. Overall, the number of illegal aliens encountered at the 
border increased more than 200 percent when compared to this 
same time last year.
    Perhaps more troubling, the number of unaccompanied alien 
children encountered has increased more than 800 percent and 
the number of families encountered increased more than 680 
percent. We also have seen a 37-percent increase in drug 
seizures at the border in March alone.
    Although these numbers are at times higher or lower than in 
years past, it makes little difference. They are unacceptable, 
and they must be addressed. We must do more to secure our 
borders against threats and illegal entry and close dangerous 
loopholes that are making our country vulnerable.
    We have been apprehending gangs, TCOs, and aliens at the 
border with historic efficiency, but illicit smuggling groups 
understand that our ability to remove those who come here 
illegally, unfortunately, does not keep pace. They have 
discovered and continue to exploit legal loopholes to avoid 
detention and removal and have shown no intention of stopping.
    These legal loopholes are strong pull factors that entice 
those looking to circumvent our laws, in particular, the 
smugglers. For border security to work, violation of the law 
must have consequences. As I have said many times, interdiction 
without the ability to promptly remove those without legitimate 
cause is not border security. It undermines our national 
security.
    This budget would invest in new border wall construction, 
technology, and infrastructure to stop illegal activity.
    I also would be remiss if I did not say that one of the 
greatest investments is in our people: recruiting, hiring, and 
training additional U.S. Border Patrol agents, additional U.S. 
Immigration and Customs Enforcement [ICE] officers, and, 
additionally, enabling personnel to help carry out these 
important missions.
    Second, we must protect our Nation from terrorism and 
decisively counter threats. This is the reason the Department 
was created, and it remains a cornerstone of our work.
    Terrorists are adapting. They are taking an all-of-the-
above, do-it-yourself, learn-it-on-the-internet approach to 
spreading violence. This includes promoting attacks on soft 
targets using homemade weapons, and it includes crowdsourcing 
their violence through online radicalization, inspiration, and 
recruitment.
    But they also remain focused on conducting sophisticated 
attack methods, including concealed weapons and weapons of mass 
destruction, and modifying new technologies, such as drones, 
into deadly weapons.
    This budget ensures that our defenses keep up with the 
innovation of our enemies. For instance, it allows TSA 
[Transportation Security Administration] to deploy advanced 
tools to detect threats, it funds new CBP [U.S. Customs and 
Border Protection] initiatives to identify high-risk travelers, 
it ramps up our defenses against weapons of mass destruction, 
and it provides vital funding to protect soft targets, from 
concert venues to schools, against attack.
    Third, we are focused on preserving and upholding the 
Nation's prosperity and economic security. On an average day, 
to put this in perspective, the Coast Guard facilitates the 
movement of $8.7 billion worth of goods and commodities through 
the Nation's maritime transportation system.
    At our Nation's 328 air, land, and sea ports of entry, U.S. 
Customs and Border Protection welcomes nearly 1 million 
visitors, screens more than 67,000 cargo containers, arrests 
more than 1,100 individuals, and seizes nearly 6 tons of 
illicit drugs.
    Annually, CBP facilitates an average of more than $3 
trillion in legitimate trade while enforcing U.S. trade laws 
and processing more than $2.4 trillion in international trade 
transactions each year.
    The President's budget helps to provide critical resources 
to these efforts to keep our country competitive and to advance 
the prosperity of our people. The budget also will help us to 
continue efforts to keep foreign adversaries from stealing our 
trade secrets, technology, and innovation.
    Fourth, we must secure cyberspace and critical 
infrastructure. This has much been in the news. It will 
continue to be in the news. It is a very important threat that 
we face.
    Our networks are under attack constantly from all corners 
of the physical world. That is why DHS is taking historic 
strides to address systemic cyber risks, secure dot-gov 
networks, and strengthen the security and resilience of 
critical infrastructure, in coordination with our partners.
    The budget would also enable DHS to support State and local 
election officials in defending the integrity of our election 
systems. As you know, the Department's mission is to provide 
assistance to election officials in the form of advice, 
intelligence, technical support, and instant response planning, 
with the ultimate goal of building a more resilient and secure 
election enterprise. We must do this.
    Through investing in hardware, software, intrusion 
detection, and analytical capabilities, we are better able to 
secure the digital ecosystem that makes our American way of 
life possible.
    Fifth, and finally, is a core mission of DHS to strengthen 
homeland security preparedness and achieve national resilience. 
I look forward to working with you on this. In some of the 
opening remarks, you mentioned some of our grant programs. We 
must ensure that the grant programs meet the purpose for which 
they were created and that they adequately support our State 
and local partners.
    Last year, our country experienced one of the most costly 
and damaging seasons from natural disasters in its history, 
with the cumulative cost exceeding $3 billion.\1\ Through the 
Federal Emergency Management Agency and in cooperation with our 
State, local, tribal, and territorial governments across the 
country, we will devote the resources and attention needed to 
ensure recovery. But we must also help communities across our 
Nation create a culture of preparedness to be more resilient to 
disasters.
---------------------------------------------------------------------------
    \1\ [Clerk's note: The correct amount is $300 billion.]
---------------------------------------------------------------------------
    A culture of preparedness is a national effort to be ready 
for the worst disasters at the Federal, State, local, Tribal, 
territorial, community, family, and individual levels. This 
budget helps us with these efforts and supports the Disaster 
Relief Fund, which, as we all know, is necessary to help State 
and local governments respond and recover from catastrophes.
    In short, we need to empower the men and women of the 
Department to carry out these missions by giving them the 
resources and authorities they need. We need a fully funded 
budget that matches our mission, and I look forward to working 
with you.
    In addition to the various mission areas mentioned today, I 
am also firmly committed to maturing the Department and putting 
our employees first. I ask the committee to support this 
budget, support our employees, support our missions, and help 
us make our country more secure.
    It is an honor to serve alongside the men and women of the 
Department of Homeland Security who work tirelessly to secure 
our country. They are often unrecognized. I would like to take 
this opportunity to thank them for their service.
    I thank you for your time, and I look forward to your 
questions. Thank you for the opportunity to appear before you.
    [The information follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
                DEPARTMENT OF HOMELAND SECURITY: VISION

    Mr. Carter. Thank you very much for your testimony. We are 
on timed questions, 5 minutes for each questioner.
    I am going to start out with a pretty simple question. You 
have been on the job for about 4 months. Been at the Department 
for far longer than that. On the subject matter, working on it 
longer than that.
    I want you to tell us, what is your vision for the 
Department of Homeland Security? What do you see as the 
Department's biggest challenges? And how does this budget 
request help meet those challenges?
    Secretary Nielsen. So the five mission areas--and I will 
add the sixth there, which is to support our employees and 
champion them--form the basis of my priorities.
    My vision for the Department is a department that is agile, 
that can respond to the threats we face tomorrow and the next 
day, not just the threats that we faced before.
    To do that, we need to relook at our programs and make sure 
that they are efficient. We need to leverage capabilities and 
capacities across the Department. We have a variety of ways in 
which we do that, as you know. Some of the task forces would be 
an example.
    Cyber is an area that I am particularly looking at. We have 
wonderful capabilities within the Secret Service, within ICE, 
NPPD [National Protection and Programs Directorate]. We must 
bring them all together, including the research and development 
angle, so that we can provide the best service to the American 
people.
    So in short what I would I say, sir, is I am looking at 
maturing the Department. How can we do this better, faster, 
smarter, and make sure that we stay ahead of the threats that 
continue to evolve?
    Mr. Carter. And in some instances you are going to have to 
challenge implanted ideas and you are going to have to make 
those ideas--because this is not an easy task. That is why I 
asked about the challenges, because a lot of the departments in 
our Federal Government are entrenched with, ``We have never 
done it that way before, therefore we can't do it that way.''
    And from the way you envision--and I commend you for your 
vision--I am going to suggest to you those are going to be your 
challenges. We will help you meet those challenges.
    Secretary Nielsen. Thank you.
    Mr. Carter. You have got to be willing to shake them up. 
And if you shake them up----
    Secretary Nielsen. Sir, we certainly are.
    Mr. Carter. You look like you might be able to do that.
    I will now yield to Ms. Roybal-Allard.

                       DETENTION: PREGNANT WOMEN

    Ms. Roybal-Allard. Let me begin by agreeing with the 
chairman that we will work together to help you meet those 
challenges.
    As you probably know, in October 2017 I sent a letter 
signed by 69 of my colleagues to then-Acting Homeland Security 
Secretary Elaine Duke regarding our concerns about pregnant 
women in detention facilities.
    Reports show that ICE detained nearly 68,000 women in 
fiscal year 2017, of whom 525 were pregnant. Our letter 
included confirmed stories of women who suffered miscarriages 
and received inadequate medical care while in detention.
    Additionally, our letter asked for statistics on the number 
of pregnant women in detention and asked about ICE and CBP 
policies regarding the treatment of pregnant women.
    We have yet to receive a response to our letter, but we 
continue to hear reports about pregnant women who have been 
transferred between facilities multiple times, with extremely 
restricted access to food and restrooms, and who are denied 
extra blankets, additional food, and adequate prenatal care.
    It is my belief that no pregnant woman should be forced to 
live in a facility that lacks adequate medical care or can 
endanger their unborn child, which is what these women are 
facing.
    On March 29, ICE released a new policy on detaining 
pregnant women. ICE's previous policy had a presumption of 
release and detained women only if their detention was required 
by law or due to extraordinary circumstances. However, ICE's 
new policy detains pregnant women on a case-by-case basis.
    Is any effort being made to look into alternatives to 
detention programs that provide dignity and adequate care for 
pregnant women and their unborn child?
    And also are there any reporting requirements in place to 
ensure that you are made aware of any rise in the incidence of 
negative outcomes for pregnant women and their unborn children, 
such as miscarriages, other pregnancy complications, or mental 
health challenges related to detention?
    Secretary Nielsen. First, let me just start by sharing your 
concerns. There is no room in any enforcement agency to treat 
anybody without the particular respect and care that they need. 
So this is a high priority for me.
    We have looked into the detention policies at CBP and ICE. 
You would be surprised to learn that some of them are very 
detailed. For example, CBP checks the temperature in all of its 
detention facilities per hour.
    So I suspect that some of these cases are outliers. It is 
not an excuse. We must address each one. But what I would like 
to offer is that my staff come and brief you comprehensively on 
this.
    When we get to ICE--let's start with ICE--we do screen any 
female detainee ages 18 to 56 to see if they are pregnant. We 
then offer them a variety of services, everything from 
counseling to remote access to specialists. We certainly offer 
them help with special needs that they might have, depending on 
how their pregnancy is.
    CBP, as you know, has them for a smaller amount of time, 
generally speaking, before they are transferred to ICE. CBP has 
similar standards.
    But these cases concern me. What I would like to ask in 
return is, if we could be provided specific examples, we would 
like to investigate them. Our OIG [Office of Inspector General] 
investigates any case that is brought to its attention, as does 
the Office of Professional Responsibility.
    But in short, I am committing to you that we will ensure 
that any pregnant woman in our care in detention receives 
adequate care.
    Ms. Roybal-Allard. Well, the fact is that there are 
numerous cases that have been documented that show that there 
has been either the mistreatment or the neglect of pregnant 
women and in those cases have suffered from miscarriages, as I 
said in my questioning statement.
    So I would like to work with you on that, because there may 
be policies in place that either are not being followed or that 
in some cases the agents or officials aren't aware of. And 
therefore it may be a matter of getting that information out.
    But I think that one thing that would be very helpful is 
if, in fact, there were reporting requirements that would keep 
you currently informed of any problems that were happening in 
the detention centers with regards to miscarriages or other 
health issues of pregnant women. And would you be willing to 
maybe put together that kind of a reporting requirement to keep 
you and the members of this committee informed about that?
    Secretary Nielsen. Yes, ma'am.
    Ms. Roybal-Allard. OK. Thank you. I appreciate that.
    Do you know when we can expect a response to that letter?
    Secretary Nielsen. Yes. Let me commit that we will get you 
a response to that letter by the end of this week.
    Ms. Roybal-Allard. OK.
    And also, Mr. Chairman, for the record, I would like to 
submit a letter that is being sent to Director Homan with about 
200 or more agencies who are concerned about the new detention 
standard.
    Mr. Carter. Without objection.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Roybal-Allard. Thank you.
    Mr. Carter. Mr. Fleischmann.

             COUNTERING WEAPONS OF MASS DESTRUCTION OFFICE

    Mr. Fleischmann. Thank you, Mr. Chairman.
    Madam Secretary, thank you for your service to this 
critically important Department. And as our colleagues on both 
sides of the dais have said, we look forward to working with 
you in this very important endeavor.
    As you might know, I represent a wonderful east Tennessee 
district. The city of Oak Ridge is there. And as part of our 
mission we do quite a bit of nuclear deterrence and the like. 
That is one of our key missions there.
    It is my understanding that last year, Madam Secretary, you 
set up the Countering Weapons of Mass Destruction Office. I 
want to thank you for that. I am wondering if you could kindly 
walk us through where the office currently stands, what major 
gaps in resources there might be, and what our greatest 
challenges are, please.
    Secretary Nielsen. I would be happy to.
    So as you know, sir, we have begun the process of 
integrating the various parts of DHS that will create that 
office. We have not, as you have noticed, requested any 
additional money in this budget to do so. We are pulling 
together resources from what we have. We would like to work 
with you on future requests.
    Nuclear deterrence is one of the particular concerns to the 
Department. We have done extensive exercising, modeling, and 
understanding of related effects, such as electromagnetic 
pulse.
    We are also very concerned about the increased use of 
chemical weapons by terrorists, whether they be in a particular 
transportation mode or in mass gatherings. We actually have 
piloted some detection devices out into communities to help 
them understand early signal or early warning if there has been 
any kind of chemical attack.
    On bio, we continue to model. As you know, biothreats 
change very, very quickly. So it is a constant concerted effort 
to stay on top of them and then make sure that we have the 
appropriate response.
    We have gone to great lengths to update all of the 
protective action guides for first responders to make sure that 
State and locals are trained, that they have what they need not 
only to understand the threat, but to have the equipment and to 
counter.
    My hope is, by creating this office, we can bring all of 
this expertise to bear in a way that is much more efficient.

                            OPIOID DETECTION

    Mr. Fleischmann. Thank you.
    Madam Secretary, we have seen a disturbing growth in 
opioid-related deaths. Of particular concern is fatal overdoses 
involving synthetic opioids such as fentanyl, which have grown 
over 84 percent every year between 2013 and 2016.
    DHS agencies are the front line for the battle to stem the 
tide of these deadly substances. I understand there are some 
major challenges that will require new tools and sizable 
investments.
    Can you explain those challenges and your long-term 
strategy for confronting this threat? Could you also go into 
some detail on how you plan to utilize the $224 million 
included in fiscal year 2018 for the opioid detection and 
nonintrusive inspection equipment?
    Thank you.
    Secretary Nielsen. Yes.
    The President has made clear that this is a very important 
initiative of the entire government. I am happy to say that we 
work very closely with my Cabinet colleagues. We all bring 
something to bear.
    Within DHS, almost every part of DHS is helping to fight 
this, everything from TSA at the airports, to CBP to the land 
borders, to the Coast Guard to the maritime borders, ICE and 
HSI [Homeland Security Investigations] in the interior, and 
then CBP also with the mail. So I appreciate Congress passing 
the INTERDICT Act last year, which, as you know, gave us 
additional authority to screen.
    But the border is a very important part here, because we do 
see the vast majority of drugs coming through our ports of 
entry. So the nonintrusive inspection equipment that you 
mentioned, the $244 million, will enable us to, hopefully, 
detect even smaller amounts.
    Fentanyl is, as you know, 50 percent more toxic than 
heroin, but it is very, very, very small. So the technology 
needs to be adjusted, the algorithms need to be adjusted to 
ensure that we can detect it.
    We are working with the international mail shippers, making 
sure that we can collect data. We are using targeting, whether 
it be in Mexico or China, to track packages and ensure that we 
can bring those to justice, in conjunction with the Department 
of Justice.
    This will be a continued effort. I look forward to working 
with you as we recognize any additional gaps that we might have 
in capabilities.
    Mr. Fleischmann. Thank you, Madam Secretary. I appreciate 
your responses.
    Mr. Chairman, I yield back.
    Mr. Carter. Mr. Cuellar.

       BORDER SECURITY: IMMIGRATION JUDGES, BORDER PATROL AGENTS

    Mr. Cuellar. Mr. Chairman, thank you, Ranking Member, thank 
you again, both of you, for your leadership.
    And it is also a pleasure talking to a fellow Hoya.
    First of all, I also want to thank the men and women that 
work for you all. I know it is a difficult job, but it is a 
very important job that they do.
    Two parts. One is, I am going to ask if you can help me 
applicate some ideas. And then the other one, I want to talk 
about hiring processes.
    First of all, catch and release. We are on the same page. I 
think we need to have some sort of deterrence. But if we do 
this, depending on what happens, that individual either goes to 
an immigration judge or could go to a magistrate or a district 
court, depending on the situation.
    If it goes to a district court, what we call zero 
tolerance, I would ask you that, as we provide more of those 
cases to those magistrates or district judges, I would ask you 
to advocate for making sure that--we understand you are a State 
of Texas bar attorney also--that the caseloads that we have for 
those district judges on the border are high.
    So if you add more of those cases in the first time, under 
the law it is a misdemeanor. If they are removed, they come 
back, it becomes a felony.
    So just to make sure that we advocate for either more 
magistrates or judges, district judges, to handle that, along 
with the U.S. marshals and the assistant U.S. attorneys, 
because everybody talks about adding more Border Patrol, but we 
have got to look at what the end of the judicial system. So I 
would ask you on that to advocate for that as you are in the 
Cabinet meetings.
    The other thing is immigration judges. Another fellow Hoya, 
James McHenry also, and I have sat down with him and Tom Homan 
on trying to get more of those immigration judges. I don't see 
John Culberson here, but we added 55 immigration judges. Then 
we added 25 immigration judges. We have got 100 immigration 
judges here.
    The problem is everybody wants to have a judge in Houston, 
and let's say in New York, Chicago, around the corner here in 
Virginia, also. But I am an advocate to have those judges at 
the border to make sure we give the people their day in court 
as close as possible at the border.
    One of the issues we are facing--this is what we talked 
about to your ICE director and to McHenry, also--is to have the 
office space for those judges. You might have those detentions, 
but you have got to have those office spaces to meet the 
requirement of the immigration judges.
    So I would ask you, if you don't mind, following up with 
them so we can have judges in McAllen, which is a high crossing 
area--Laredo is another one--on the border, instead of Houston, 
Dallas, New York, and the other places.
    I know we use video conferences, but I am a big believer in 
having those judges at the border. So I would ask you if you 
can advocate those two points.
    The other part I want to talk about is the hiring process. 
Border Patrol one time I think was authorized at 21,370. Right 
now, we are under 20,000. According to the Border Patrol chief, 
we are actually losing more Border Patrol than we are hiring 
Border Patrol.
    A problem with the polygraph, and we have tried to work on 
that. There is an issue with the polygraph exams. FBI, one-
third of them will pass. Border Patrol, two-thirds will fail. 
So we have got to look at the polygraph.
    But the issue that I want to bring up is if you look at the 
scope and the objectives for recruiting, coordinating on 
posting vacancies, applicant support care for hiring, there was 
a $297 million contract awarded. Nothing against the company. I 
know the company. They are a good company. But what do we need 
to do to get your folks to do a better job in hiring?
    I would rather use the $297 million in giving bonuses, 
retain them, because sometimes we have Border Patrol folks that 
might not like to be in Presidio, Texas, or some rural area. 
They will get a job with ICE and they can be in New York or 
Miami. I understand all that.
    But we have got to be able to recruit Border Patrol better, 
CBP better. And I would prefer to use the $297 million to give 
them bonuses, overtime, whatever the case.
    But the case is, they are here now. And I know ICE has put 
out an RFI, also. So I am sure there will be a couple million 
dollars also.
    What do we need to help you where your own agency can do a 
better job at recruiting and retaining those men and women, 
instead of putting that money out to contractors? And nothing 
against those companies, but I would rather give it to the men 
and women on that.
    Secretary Nielsen. Well, first, I just want to say I second 
your belief that it is much more effective to have the judges 
and IGs [inspectors general] at the border. I am working very 
closely with the Attorney General to make sure that we deploy 
sufficiently, if we interdict, but there is a backlog and if we 
don't have the ability to put them through the process, nobody 
wins.
    So, first of all, you have my commitment to continue to 
advocate on that.
    With respect to hiring, this is a problem that has been 
very difficult, as you know, for CBP, ICE, Secret Service, 
other parts of DHS. We really have looked at this quite 
carefully over the last year, the details of which, as many as 
you want, we are happy to come share.
    The short version is, what we need to do is decrease the 
time to hire without adjusting the standards. We still want the 
best and brightest and those who have the integrity that we 
expect of law enforcement officials, but we do need to speed it 
up.
    So at CBP we have looked at their physical exam. We have 
looked at streamlining their polygraph, as you noted. It was 
out of synch with many of the other polygraphs, the ways in 
which they are performed in other law enforcement agencies. We 
have also moved the polygraph up to the beginning of the 
process, which will be helpful. I thank you and others for 
supporting that.
    Mr. Cuellar. Something that Judge Carter and I have been 
talking about.
    Secretary Nielsen. I was going to say, I thank you for----
    Mr. Cuellar. You go through the whole process, 18 months, 
and then you fail the polygraph.
    Secretary Nielsen. It doesn't make any sense. That is 
right.
    Mr. Cuellar. Thank you so much for that.
    Secretary Nielsen. So we appreciate your support on that.
    And we also appreciate your support on the waiver 
authority. So there are certain people, veterans in particular, 
who have very high security clearances and who have served our 
country honorably. They would like then to serve honorably in 
CBP. It does not make sense to put them through a 100-day 
process. So we are working on that, as well.
    The intention of the contract specifically is to help us 
make our hiring practices match the needs in environments 
today. What we have found is we were not reaching all of the 
communities that would like to serve this country. We were 
reaching the communities that would like to serve our country 
10, 15 years ago, which are not the same.
    So the idea is to come up with a much more comprehensive, 
holistic approach for hiring, but that also includes that very 
important retention piece that you mentioned to get the 
attrition down.
    Part of that is a concern about mobility, which you also 
mentioned. So we have pilots working on that to make sure that 
the officers and agents have the ability to move around. We are 
seeing great success in that pilot, and we hope to expand that.
    But you are hitting on all of the things that I agree with. 
We just need to keep after it. It needs to be a concerted 
effort.
    Mr. Cuellar. Well, thank you. We want to be supportive of 
you.
    Secretary Nielsen. Thank you.
    Mr. Cuellar. Thank you, Chairman.
    Mr. Carter. Mr. Harris.

                  SANCTUARY STATES: FEDERAL PREEMPTION

    Mr. Harris. Thank you very much.
    Thank you, Madam Secretary, for coming before the 
committee. I have just two issues I want to talk about.
    The first one let me just dispense with fairly quickly. It 
surprised me that my State, Maryland, is second only to 
California in the number of--in MS-13 activity, which is just 
amazing. Maybe that is because Maryland has a reputation of 
also being a sanctuary State.
    I just want to get your assurance that your Department is 
going to assert Federal preemption on immigration enforcement 
issues. The fact of the matter is, these are not State issues. 
These are not local issues. The Constitution gives immigration 
enforcement authority to the Federal Government, uniquely to 
the Federal Government.
    Are you willing to assert Federal preemption over 
jurisdictions that claim to be sanctuaries?
    Secretary Nielsen. As you know, sir, this is a great 
concern to many of us in this administration. There are some 
lawsuits underway to make that point against some States that 
have chosen not to comply and that actually to provide 
penalties for those that try to assist us in doing our job. You 
do have my commitment that we will do everything to ensure we 
can enforce the laws.
    Mr. Harris. OK. Thank you very much.
    Secretary Nielsen. We would like to do it in partnership 
with State and locals. It works quite well when we are able to 
do that. But we do owe it to the people of this country to 
protect them from things such as MS-13.

               H-2B: NUMBER OF VISAS, APPLICATION PROCESS

    Mr. Harris. I agree with you, and I think we have to return 
to the rule of law. If we don't like the laws, let's change 
them, but the laws are pretty clear.
    Now, the other issue that is an issue very important to my 
district, I have the beautiful Eastern Shore of Maryland, is 
the H-2B visa issue.
    Over the weekend, I visited Smith Island, an island settled 
in the 17th century by folks from England. The population is 
240 now. It used to be 600, 700 people. It is down to 240 
descendants of the original English who settled there. It is a 
45-minute boat ride there. I mean, it is literally out kind of 
in the middle of the Chesapeake.
    And for the hard-working men and women on the island, the 
median family income is $26,000, and they make a lot of it by 
catching crabs. And they have to bring those crabs to be 
processed somewhere, they have to be picked, because when you 
eat a crab cake, believe me, you are not eating the whole crab. 
You have to pick it.
    The fact of the matter is that although in the past we had 
Americans who do it, that generation is not with us anymore and 
they depend upon H-2B visa workers. And as you know, the second 
half cap was reached very quickly. There were almost 100,000 
applications for 33,000.
    The men and women on the island who depend upon this 
industry, who take their work boats every day, they work all 
day, they take them to the processing plant, they have got to 
have people there to pick that crab. Otherwise, their income 
goes away, and that would be a shame.
    I also met with another person up in the northern end of 
the Eastern Shore who is the largest exporter of canned corn 
from the United States. Exports are an important industry. 
Agriculture is an important industry. They depend upon H-2B 
workers for only an 8-week period in the summer.
    And that is significant because their work period is July 
and August. So by the 90-day rule, they can't even apply until 
April 1, unless they want to pay for people for 3 months not 
doing work. So they just applied for their summer workers, but 
the cap is already exceeded.
    So the omnibus bill gave authority--the way we read it--the 
Labor Department has already certified 80,000 workers for the 
second half of the year, and now it rests, I think, on a 
decision of, I think, by your Department as to how many H-2B 
visas are going to be issued. And I think, clearly, the need 
has been demonstrated. Our unemployment is a historic low 4.1 
percent, modern historic low. We are just not going to find the 
American workers.
    And more importantly, whether it is Smith Island or whether 
it is that cannery or those farmers who grow the corn for that 
cannery, having temporary workers provides downstream jobs for 
a lot of Americans.
    So, Madam Secretary, what can we expect? I mean, it has 
already been a few weeks since this has passed. The summer is 
approaching very quickly. In the case of the crab industry, 
these men and women are going out on their boats in 2 weeks. As 
soon as the bay warms up, they have to begin catching crabs.
    And it is getting to the point where a lot of the houses, 
the processing houses, say: Look, if we don't get our visas, we 
just have to close. And, you know, once they close, they are 
gone. This is an industry that doesn't work on large margins. 
Once they close, they never reopen. An entire industry in my 
district is threatened.
    So, Madam Secretary, how quickly can we come to the 
decision of the number of visas? And then how quickly can we 
reopen the process of working on those Department of Labor 
certifications or processing new applications for the late 
summer?
    Secretary Nielsen. Thank you.
    First, let me just say the concept of limitations on H-2B 
originally was to protect American workers. If, however, we are 
in a situation where the way in which we administer the program 
legally actually puts American businesses out of business, that 
is clearly not the intent.
    So what I would ask is two things. First, in response to 
your first question, I will be consulting with Secretary Acosta 
in the next few days here, as required by the law. We would 
like to get some additional input from some other 
constituencies. I would be happy to discuss this with you 
further. But the intent is to make a decision soon so that 
those who can take advantage of the program are able to do 
that.
    But my request is that we work together this next year. 
Congress really, in my opinion, is best situated, given your 
constituencies and your understanding of the employers within 
your districts, to know the right number of H-2B. It is very 
difficult when the discretion gets kicked back to the Secretary 
of Homeland Security, it just is.
    So I would like to work in this next cycle in a way where 
Congress decides the number. We will implement the number that 
you provide. But it is very difficult for us to get all of the 
information that we need to do that.
    The third thing--I know I said there are only two, but let 
me add one more--the seasonal way in which we split up these 
visas doesn't work, and that is what you are describing. So as 
we look at this program again, we need to make sure that it is 
meeting the intent of the program, which is to allow employers 
to provide
H-2B. If the timelines are such that it is past the season, if 
it is past [employers'] ability to utilize them, we are not 
meeting the purpose. So I would also ask you to work with me on 
that.
    Mr. Harris. Thank you. I couldn't agree more.
    Mr. Carter. Mr. Ruppersberger.
    Mr. Ruppersberger. The first thing is I agree with Andy 
Harris. I don't represent the Eastern Shore. I have spent a lot 
of time there and I have worked with the seafood industry. It 
is a unique industry, and we need that priority.
    I also might want to point out that Congressman Taylor was 
homegrown and grew up on the Eastern Shore of Maryland.
    I know you represent Virginia. So you understand the 
situation.
    If you have had a Maryland backfin crab cake, you will know 
what I mean.
    Secretary Nielsen. Yes, sir.

        CYBERSECURITY: WORKING WITH STATE AND LOCAL GOVERNMENTS

    Mr. Ruppersberger. OK.
    First thing, your Department was stood up after 9/11. In my 
opinion, you have got a lot of challenges. You have too many 
missions, but you are doing the best you can.
    When you sit here and watch these department heads come and 
go, I really am impressed with your resume, your experience, 
the fact that you worked with Kelly. I think you are the right 
person at the right time.
    So with that said, I have long been involved with 
advocating for all Federal agencies and departments to have the 
resources they need to succeed in their role securing our 
Federal networks and working closely with the private sector.
    I was the former ranking member of the Intelligence 
Committee and I have actually represented NSA for 15 years. So 
I deal with them, I work on their budget, and I think they are 
probably one of the best in the world. We have more 
mathematicians there than anyplace in the world.
    But as far as Homeland is concerned, we need more. We have 
threats and attacks on a regular basis, both major attacks but 
also unsophisticated attacks. And our country is being attacked 
every day, as you know, and we are not where we need to be.
    Part of the reason I joined this subcommittee was to focus 
on the cybersecurity mission at the Department of Homeland 
Security and help you and your people succeed where in the past 
we have really fallen short, and not because of their fault. We 
have been underfunded. We don't have the manpower to do what we 
need to do, is my opinion.
    I am going to be providing you a copy of a report I have 
been working on for about the last 6 months for this committee 
in maybe the next couple weeks, and this report summarizes 
meetings and roundtables that I have had over the last 6 months 
to get a better understanding of the state of the homeland 
cyber mission.
    These roundtables have been people formerly in your job, 
people who I respect in this field, because there are not 
really a lot of people, including on the Hill, that really 
focus. We talk a lot about cybersecurity but not a lot of 
people know about it or really deal with it.
    Now, these recommendations include holding a cyber-specific 
hearing before this committee focusing more on the Department's 
efforts to protect against leaked cyber tools, getting a better 
foothold on the threat landscape to industrial control systems, 
and improving information sharing and other issues that are out 
there. Even though it is GSA's budget, we have a long way to go 
in our gov network, too. It is just not where we need to be. We 
have spent $2 billion dollars. We have a long way to go there, 
too.
    Now, two questions, basically. The first thing, I would 
like your commitment to work with me and with members of this 
committee. I have talked to the chairman and ranking member 
about having a hearing specifically on cybersecurity. I would 
hope that you would work with us. I will get you my report on 
the issues that we need to deal with, which also include 
funding. If you could give us that commitment. I am sure you 
will.
    Secretary Nielsen. Yes. I look forward to the report and 
absolutely look forward to any opportunity to explain our needs 
and gaps.
    Mr. Ruppersberger. When I was Gang of Eight on the 
Intelligence Committee, people would say: What keeps you up at 
night, because you have got the most sensitive? And I would 
say: Well, the Russia, China nuclear threat. I would say: Spicy 
Mexican food. Levity. The issues of terrorism and that. But 
really, more importantly, the cyber threat, in space, in 
homeland, wherever we need to be.
    So we really need to roll up our sleeves and focus in this 
area and get the funding and the manpower necessary to do what 
we need to do in your field. NSA is another issue, but we can 
learn from NSA and use their help to gear up where we need to 
be.
    Secondly, we recently approved over $380 million for the 
Election Assistance Commission in the omnibus to be used by the 
States to bolster their election systems and process. Can you 
expand on how the Department is working with the States to 
ensure that they are leveraging the Department's expertise and 
that these funds are being effectively used and will produce 
real security gains? How confident do you feel with your 
current level of engagement with the States and local 
governments? What more needs to be done? And are the tasks 
properly resourced there?
    Secretary Nielsen. Well, thank you very much, and thank for 
your focus on this issue. This is also an issue that keeps me 
up at night. It changes quite quickly. It is prolific. It is 
nonstop. And it is from many, many, many sectors. 
Unfortunately, once a vulnerability is found, as you know, 
anybody can exploit it. So you can't really match an adversary 
to a particular vulnerability.
    With respect to the election, I truly cannot underscore 
enough the importance of us working with States and locals to 
secure our election structure. This is the heart of our 
democracy. Every American has the right to know that his or her 
vote is counted and counted correctly. And we need to all work 
together to ensure that that trust is there.
    What we have offered is everything from penetration testing 
to vulnerability assessments, exercises, and training. We are 
working very hard to provide additional threat information with 
partners such as NSA [National Security Agency] and the intel 
community to quickly declassify, tailor, and then provide that 
information to those network defenders who can best utilize it.
    The States themselves have taken, in my opinion, a lot of 
good steps over the last few months to organize themselves from 
a governance perspective. This is not a traditional homeland 
security interaction, as you know. We have not in the past, at 
least at DHS, worked, for example, with State election 
officials. We normally work with owners and operators of 
critical infrastructure.
    So bringing them into the fold, helping them understand how 
to work with their own homeland security advisers, with the 
governors, with others in the States, has been an important 
part.
    What I ask all States to do is take us up on our offers of 
assistance. They are free. We can help you build capacity. We 
can help you build capability. We can check your systems. We 
can help you with realtime response. We can, very importantly, 
monitor and help flag any nefarious activity. And we can give 
you the coordination mechanisms to work with other States to 
find the patterns of attacks.
    So I do feel that we are doing a tremendous amount. Can we 
do more? I hope that we can. We have a huge focus on it. As you 
know, we are pulling resources from security of other sectors 
to make sure that we are doing and offering all that we can. 
But this is a partnership. So we continue to reach out to those 
at the States and localities weekly, if not daily, to ask them 
to work with us.
    Mr. Ruppersberger. Thank you. I look forward to meeting 
with you and your staff to go over the report.
    Secretary Nielsen. Thank you.
    Mr. Carter. Mr. Newhouse.
    Mr. Newhouse. Thank you, Chairman Carter, Madam Ranking 
Member.
    Secretary Nielsen, welcome.
    Secretary Nielsen. Thank you.

                 DEFERRED ACTION FOR CHILDHOOD ARRIVALS

    Mr. Newhouse. Thank you for being here. I appreciate your 
thorough update and also your service. It is my humble opinion 
in the short time you have been on the job that you have done a 
great job, and I appreciate that hard work.
    I just want to ask you about a couple of areas. First is 
the DACA program. I have been an advocate in this Congress, as 
have many of my colleagues, to find a solution. I appreciate 
the administration's help there and the President's 
determination to do this as well. It impacts a lot of 
individuals in my district, and not only those individuals, but 
my communities and our Nation. I think it is a very important 
issue that we need to solve.
    Secondly, I wanted to discuss the work your Department 
engages with the Department of Energy and the national 
laboratories, of which I am very proud to have one in my 
district, the Pacific Northwest National Laboratory.
    So as far as DACA is concerned, interestingly, the State of 
Washington, we have got about 18,000 of these individuals. 
About a third of them are in my district.
    One of those lives in the northern part of the Fourth 
District in Okanogan County. He was brought to the United 
States at a very, very young age by a single mother who was a 
victim of domestic abuse.
    As he grew up in our communities, he became a part of the 
community. He developed a deep appreciation for the 
opportunities provided to him and wanted to give back. So he 
did that by fulfilling his dream of becoming a firefighter. And 
as you mentioned, the catastrophic incidents around the Nation 
have been growing. In my district, we have had two record-
setting forest fires in just the last couple of years.
    Unfortunately, for this individual, his work permit 
expired. So simple question: Is this the type of person, this 
young man the type of person that your agency will be listing 
as an enforcement priority for deportation?
    Secretary Nielsen. Thank you for the question. I know there 
has been a lot of confusion on DACA [Deferred Action for 
Childhood Arrivals], so I appreciate that.
    Let me just start by saying you continue to have my 
commitment both personally and as the Secretary of Homeland 
Security, to help find a permanent solution to the registered 
DACA population. We are continuing, restarting conversations 
with leadership in both Houses. We would like to get this done. 
We should get this done. We need to get this done.
    In terms of enforcement, what I have decided is, given the 
court cases and the questions that remain while we are waiting 
to work with Congress on a permanent solution, anybody who is 
currently registered, is legally registered and has a legal 
status within the system.
    I have also taken the step, though, that anybody who has 
submitted an application also will not be an enforcement 
priority. They will not be deported. So if this young gentleman 
were to reapply for status, assuming there isn't any derogatory 
information or he hasn't become a felon at some point here, he 
would be protected, as long as we are in this phase while we 
are working through the court case and waiting for Congress to 
act.
    But I think it is important to be clear that those who are 
registered have legal status. Those who are attempting to renew 
their status will be treated as such, as well.
    Mr. Newhouse. That is very helpful. This question, after 
your response, may not be quite so important, but that 
information, the personal information of individuals like this 
young man, would that be shared with other agencies to target 
for deportation enforcement?
    Secretary Nielsen. The only time that we would share that 
information is if there is a question of public safety, 
national security, or if the person has committed a serious 
crime. At that point, the person is no longer a DACA recipient 
by virtue of the program.
    But those are the instances in which we would share 
information. But, again, they are not an enforcement priority. 
They have legal status. So there would be no need to share the 
information.

               DEPARTMENT OF ENERGY NATIONAL LABORATORIES

    Mr. Newhouse. I appreciate that clarification, and I know 
the fine line that you have to maintain.
    Secondly, as far as the national laboratories, since 
Homeland Security was created Congress has made sure that the 
Department has equal access to that world class Department of 
Energy asset.
    In recent years, the Science and Technology Directorate 
cybersecurity program enabled multiple technical solutions 
developed by the Pacific Northwest National Laboratory to be 
transferred to the private sector, which directly improved the 
security of our Nation and economy.
    I am curious to know how your Department views the DOE 
national labs and how you intend to leverage the unique 
capabilities that they have to fulfill your mission, the 
Department's mission, especially when those capabilities don't 
exist in the private sector.
    Secretary Nielsen. Yes. Thank you.
    I myself am a fan of leveraging what DOE [Department of 
Energy] and DOE labs have learned. We have active agreements 
with 13 of them, as you know. I have had the opportunity to 
visit some of them: Sandia, Los Alamos, Pacific National Lab, 
and Idaho. They all provide very important, scientifically 
driven data, but they are able, as you know, to test different 
defensive measures, protective measures within controlled 
areas, which is very important.
    It is not necessarily, as you say, capabilities that have 
been developed by the private sector or, in some cases, they 
are available to the government in a way that they wouldn't be 
in terms of what the private sector offers. So it would be my 
intention to continue that.
    The S&T R&D [Science and Technology Directorate's research 
and development] money within the Department, we have moved to 
NPPD, and the reason for that is to ensure that it is directly 
requirement-driven. So the network defenders and my folks at 
NPPD day-to-day are fighting this battle and are very aware of 
what they need. Putting some of the R&D money there enables 
them to quickly translate that into requirements to make that 
process more efficient.
    Mr. Newhouse. OK. Thank you very much.
    My time has run out, but hopefully we will have a second 
round.
    Thank you, Mr. Chairman.
    Mr. Carter. Mr. Price.

                                REFUGEES

    Mr. Price. Thank you, Mr. Chairman.
    Welcome, Madam Secretary. Glad to have you before the 
committee.
    I want to talk to you about refugees. As you know, the 
administration announced a historically low refugee admission 
ceiling of 45,000 for fiscal year 2018 last September, and this 
was a few months after an executive order that had totally 
halted the refugee program for 120 days.
    This is a shockingly low ceiling for our country, what we 
have done in the past, what we have stood for. But there is 
more alarming news, because as of March, that is the halfway 
point for fiscal year 2018, we have only admitted 10,548 
refugees. That puts us on track to admit a total of 21,100 
refugees in fiscal year 2018. That would be less than half of 
that historically low ceiling that we pledged to admit.
    Now, I have heard, I expect we have all heard reports of 
countless administrative obstacles, a lack of adequate 
staffing, bureaucratic rerouting of paperwork, drastic 
reductions to the overseas interviews, and enhanced vetting, 
enhanced security measures that together seem designed, I must 
say, to prevent our Nation from accepting any more than just a 
trickle of refugees. And we are doing this at a time when 
deadly wars and persecutions continue all over the world and 
they are producing a flow of desperate people.
    In my district, there are organizations that do the Lord's 
work, as far as I am concerned. They participate in these 
refugee resettlement programs. They desperately want to fulfill 
their promise. And yet, now in North Carolina, they are going 
weeks without even seeing a refugee.
    I mean, what is going on?
    We have got to protect American citizens at home and 
abroad, but shutting our borders violates our Nation's values, 
undermines our national security, I would say, by diminishing 
our standing in the world and making it more difficult for us 
to confront violent extremism wherever it exists.
    Conflating, as the President's rhetoric does, conflating 
refugees, or immigrants in general, with terrorists doesn't 
make us safer. It merely perpetrates an environment of 
suspicion, anxiety, and it risks lending credibility to 
terrorist propaganda.
    So we have been a safe haven for refugees historically. 
Regardless of a refugee's origin, they share a deep desire to 
become a member of our communities. They are thoroughly vetted.
    So I have to ask, what is happening? What on Earth can 
explain the fact that we are over halfway through the fiscal 
year and have only admitted a quarter of the refugees we 
pledged to take in during one of the worst refugee crises in 
world history?
    Are you slow walking this program? Are there various bans 
and administrative obstacles and duplicate waiting requirements 
reflective of some increasing danger that these refugees 
represent? Is there some history I have missed that refugees 
are committing terrorist acts in this country?
    Is there any indication that the procedures we have had in 
place for years have been inadequate, have let in dangerous 
people?
    If these refugees are dangerous, why can't we--which I 
don't think there is any evidence for--but if they are, or if 
you fear they are, why are we unable to determine that danger? 
Why don't we have an appropriate vetting system to deal with 
this supposed danger and keep the commitment we have made to 
the international community?
    Secretary Nielsen. Thank you. There are a few things here, 
so bear with me and let me try to answer the question.
    First of all, in the United States, we have a very unique 
situation in that we differentiate between refugees and 
asylees. As you know, unfortunately, we have an unprecedented 
but also unacceptable backlog in asylee cases. Those are men, 
women, and children who are already present in our country and 
are waiting to find out if they will be granted final asylum.
    I think that the bureaucratic issues you mentioned at the 
front end, unfortunately, apply here, which is that we have 
made a decision to process those who are already here seeking 
asylum as quickly as we can with limited resources. Not to say 
we are not processing refugees, but the backlog of asylees, I 
believe, let me get back to you on the record, but I believe it 
is around 300,000. It is substantial.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Secretary Nielsen. On the question of vetting, we are doing 
exactly what you are describing, which is we are trying to find 
a better, faster way to vet those who are seeking refuge in our 
country. Unfortunately, because of some of the areas in which 
they are originating, the country itself is not able to provide 
us any information on the refugee.
    Further complicating the problem is that the refugee is a 
refugee. In many cases, he or she does not have the paperwork 
or other documentation to prove his or her identity.
    The short answer to your question is, I agree, we must do 
better. We must do it faster. We are looking at ways to get 
additional information, to share it, and to work with the 
countries.
    The last point I would make, sir, is that we as an 
international community, whether it is through the G7 or the 
Five Eyes, have attempted to take care of refugees closer to 
where they are leaving. The idea there is that when conditions 
are safe, they can more easily return. We also are working with 
international partners to ensure that together we are taking 
care of them in the best way possible.
    But I would be more than happy to come myself or have my 
staff give you a more extensive brief on some of the 
challenges. But we do need to process them faster, I agree.
    Mr. Price. My time has expired. I will probably return to 
this in the next round.
    Thank you, Mr. Chairman.
    Mr. Carter. Mr. Palazzo.

                    BORDER SECURITY: NATIONAL GUARD

    Mr. Palazzo. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here today.
    Last week, when President Trump announced the good news 
that he is going to deploy the National Guard to the border, as 
a National Guardsman myself, I was elated. Since I have been in 
Congress, I have been calling for similar actions, take the 
National Guard, use them as a multiplying force, and help 
secure our border, because border security is absolutely in 
correlation with national security. It is extremely important.
    If you could, could you take a few moments and expand on 
what you see the administration's role of utilizing the 
National Guard on the border?
    Secretary Nielsen. Yes, I would be happy to.
    First and foremost, it is to work in conjunction with the 
governors and the TAGs [Adjutants General] within the different 
States. At the moment, we have the National Guard deployed from 
Texas, Arizona, and New Mexico. California already had some 
National Guard guardsmen deployed. We continue to work with the 
Governor there to see what else might be needed or available to 
supplement.
    What we are looking to do is to supplement what the Border 
Patrol does so that the Border Patrol can be on the border and 
do what they do best. We are looking at everything such as 
support for aviation, vehicle maintenance, and surveillance 
monitoring; intel sharing; and things that the National Guard 
is particularly trained to do. We would like to utilize their 
expertise to help get more of our men and women back on the 
front lines to protect the border.
    Mr. Palazzo. Does the status of the guardsmen make a 
difference in their mission? Say, for example, if the Guard was 
activated under Title 10 versus Title 32, does that limit what 
roles they can have on the border?
    Secretary Nielsen. It does. Title 10, obviously, does limit 
it. There are other things that come into play there, such as 
posse comitatus.
    What I would say about Title 32 is that it is very 
important from a Department of Homeland Security perspective to 
do this in conjunction with the governors. The governors are 
there. They know what they need. They know what works. They 
know what their constituents need. We are really approaching 
this at this time as a partnership in every way possible.
    Mr. Palazzo. Is there going to be an opportunity for other 
States to allow their guardsmen to basically be called up and 
work with the border State guardsmen and their governors or are 
you just limiting the guard personnel to the States on the 
border?
    Secretary Nielsen. We have had some offers and calls from 
other governors who are not on the southwest border that are 
willing to deploy their guardsmen.
    There are a couple of different things in play here. As you 
know, unfortunately, we are heading into hurricane season. For 
some of these States, particularly Texas, we are very aware 
that if we get into a natural disaster, where the guardsmen 
otherwise would be needed, we would look to supplement them 
through other governors who are willing to supply guardsmen.
    Mr. Palazzo. And I guess we have seen that in Hurricane 
Katrina. We had guardsmen from all across the United States, 
including the territories, come and participate in that massive 
mission. And I know if Mississippi's Governor hasn't already 
volunteered them, he would, but a majority of our National 
Guardsmen are currently training for an overseas deployment. 
But I am sure there are a lot of people back home that didn't 
deploy who would love to be a part of that mission.
    Now, because the Guard has a huge domestic role as well in 
natural disasters, they can almost be used plug-and-play in any 
environment. And we have seen what they have been able to do 
overseas in the combat role. They were instrumental in the 
surge and turning the tide in Iraq and Afghanistan.
    Recently, I guess in their role as first responders in 
natural disasters, Hurricanes Harvey, Irma, and Maria they 
participated, but they haven't yet been--I guess the funding 
hasn't been given back to the States or they haven't been 
reimbursed for the cost. So with us activating 4,000 guardsmen 
to the border, what is your expectation, and are the States 
going to be reimbursed for that cost, and when?
    Secretary Nielsen. The current approach is that the States 
will be reimbursed. We recently, maybe about a month ago, had a 
meeting with the Council of Governors, the Department of 
Homeland Security, and the Department of Defense and other 
partners, and this precise issue was raised.
    I know the Department of Defense [DOD] is looking at ways 
to make that reimbursement process much more efficient. I am 
happy to provide you additional information for the record. But 
I would also defer to DOD because DOD is the one that regulates 
that process in terms of reimbursement.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Palazzo. One last, basically a statement. DHS has a UAV 
research facility at Camp Shelby in Mississippi. It is the 
largest National Guard training site in the Nation. Hopefully, 
you will find a way to utilized that facility and the great 
resources that you have there in support of our border.
    With that, thank you for your responses.
    Secretary Nielsen. Thank you for that offer.
    Mr. Palazzo. I yield back.
    Mr. Carter. Thank you, Mr. Palazzo.
    I would now like recognize the fact that we have been 
joined by the ranking member of the full committee, Mrs. Lowey, 
my friend. At this time I recognize her for any statement or 
questions she may have.
    Mrs. Lowey. Thank you, Mr. Chairman. I will get right to 
the questions.
    And I want to welcome you, Madam Secretary. I am very 
impressed with your response to all of the questions. This is 
an enormous responsibility, and I look forward to working 
closely with you.
    Secretary Nielsen. Thank you.

                          ANTITERRORISM GRANTS

    Mrs. Lowey. Thank you.
    In the most recent omnibus bill we provided for the first 
time funding for grants to nonprofits located outside of areas 
designated for the Urban Area Security Initiative. This is $10 
million in funding which will help those organizations improve 
security, which is so important at a time that hate groups are 
on the rise.
    A recent report by the Southern Poverty Law Center reported 
that neo-Nazi groups grew by more than 20 percent in the past 
year, anti-Muslim groups grew by nearly 15 percent after 
tripling the previous year, and, according to the ADL, anti-
Semitic incidents rose by more than 90 percent in New York in 
2017.
    Could you possibly let us know when you expect the grant 
notice to be released and when you think the funding will go 
out?
    Secretary Nielsen. Yes. As I understand it, most of the 
grants--and I will get back to you on this in particular--most 
of the grants are to be obligated 60 days after the 
appropriation goes through. But let me get back to you on this 
one.
    I do want to just echo your thoughts. Within DHS, we have 
consolidated some of our offices into an Office of Terrorism 
Prevention. It is certainly my intention to focus on all types 
of terrorism, not just Islamic jihadism, but hate groups, white 
supremacy. We must do more across the country. We are seeing 
instances of all types of hate.
    [The information follows:]

    Response: The Notices of Funding Opportunity (NOFO) for the 
various preparedness grant programs were released on May 21, 
2018. These included the NOFO for the Nonprofit Security Grant 
Program, which includes the $10 million for support of 
nonprofit organizations beyond designated Urban Area Security 
Initiative (USSI) sites, as well as the $50 million to support 
nonprofit organizations within designated UASI sites. Further, 
as required by the Fiscal Year (FY) 2018 appropriations act, 
the House and Senate Committees on Appropriations were briefed 
on the details of these programs on May 14, 2018, prior to the 
public release. All FY 2018 awards will be made by September 
30, 2018.

                  TEMPORARY PROTECTED STATUS: HAITIANS

    Mrs. Lowey. Thank you.
    Also, Secretary Nielsen, last November the Department 
announced that temporary protected status, or TPS, for 
individuals from Haiti would end on July 22, 2019. 
Approximately 59,000 Haitians have been living in this country 
since at least 2010 under TPS, working, paying taxes, becoming 
established in their communities, marrying, and having 
children.
    You may also be aware that the Department of State has a 
Level 3 travel advisory for Haiti, meaning that people should 
reconsider any plans to travel there because of the conditions 
on the ground.
    Specifically, the State Department cites political 
violence, civil unrest. It says that violent crime is common, 
including robberies, assaults, vehicle break-ins, and home 
invasions. It also says the local police may not be able to 
respond effectively to crime or emergency.
    Haiti is the poorest country in the Western Hemisphere, 
with well over half of the population living under the poverty 
line.
    Secretary Nielsen, how can we possible rationalize sending 
59,000 people back to those kinds of conditions? And do you 
believe that we should find a way to allow this group of 
people, who in almost every respect are now Americans, to 
continue living in the United States? And will the 
administration support efforts to do so?
    Secretary Nielsen. Thank you. As you know, there are about 
400,000 people here currently under TPS [temporary protected 
status], a large chunk from Haiti; and a much bigger chunk, I 
think around 250,000, from El Salvador. I have testified before 
that I am committed to helping to find a permanent status for 
these TPS recipients.
    I would say, ma'am, though, that the law really restricts 
my ability to extend TPS. The law says that if the effects of 
the originating event--so it is a causation issue--do not 
continue to exist, then the Secretary of Homeland Security must 
terminate.
    The difficulty there is what you are describing. If the 
underlying conditions in a country are themselves dangerous, 
unfortunately, that is not something that I can consider in the 
termination. I can consider that in the drawdown, the 
additional time in which to work with the government.
    I have pledged and will continue to pledge to work with all 
the governments to try to help them repatriate. We are having a 
variety of discussions with Haiti as well on how to do that. 
But this is a very unfortunate situation, and so I would be 
happy to work with you to find a better solution.
    Mrs. Lowey. I thank you very much, because I think that a 
better solution has to be the response, and I appreciate you 
are willing to work together. Thank you very much.
    And thank you, Mr. Chairman.
    Mr. Palazzo [presiding]. The chair recognizes Mr. Taylor 
for 5 minutes.

                   H-2B: TIMELINE FOR CERTIFICATIONS

    Mr. Taylor. Thank you, Mr. Chairman.
    And, Madam Secretary, thank you for being here today, 
answering great questions, and having great answers. Thanks for 
your service. I know you are in a tough job and wearing a lot 
of hats. And certainly give our best and thanks to the many men 
and women who serve under you for everything they do.
    I would like to just touch really briefly, I want to foot 
stomp on what Congressman Ruppersberger said and Mr. Harris. 
Yes, I grew up in his district, but now I am in Virginia. And 
in Virginia, of course, which I have been in many years, but a 
third of the seafood plants won't be open for processing, and 
they should already be at work. So ultimately this hurts income 
and economic impact and ultimately American jobs, and not just 
the seafood industry, but in tourism and many other areas 
around the country.
    So I guess I want to pin you down a little bit more on it. 
I know that you guys are working on it. Have you spoken to 
Secretary Acosta about it? Obviously, it was passed and signed 
into law 3 weeks ago. You mentioned additional constituencies 
that you need to speak to. Who are they and are they people who 
are not in support of raising the cap?
    I want to kind of pin you down on that, because we are 
already behind the curve and we knew we had this problem last 
year.
    Secretary Nielsen.
    The other constituencies are--two things. Trying to 
understand as we do this that we do it in a way where we are 
providing it to those who truly are seasonal.
    As you remember, last year we did a rulemaking that 
required a variety of certifications for the companies, first 
of all, to say that they did in fact need foreign workers and 
that they couldn't fill them with American workers, but also 
moving toward what the program was meant to be, which is for 
seasonal workers, not a worker who works all year round in a 
certain industry.
    Having taken all of that into consideration, I am 
continuing discussions with Secretary Acosta. Yes, of course, 
there are two sides of this, as you know. But as I said in 
response to Congressman Harris, the intent here is not to put 
American businesses out of business. That can't possibly be the 
goal.
    Mr. Taylor. If I may.
    Secretary Nielsen. Please.
    Mr. Taylor. But, again, this is something that it was last 
year that we had this same conversation with then-Secretary 
Kelly.
    Secretary Nielsen. Yes.
    Mr. Taylor. So this is not a new thing. And it is hurting 
economic impact. It is actually hurting American jobs. 
Understanding that we want to make sure that the process deals 
with folks that shouldn't be here and all that stuff and make 
sure it is responsible, but it was over a year ago we had the 
same problem. It has been signed for 3 weeks. We want to get a 
timeline on this, because it is hurting our businesses. So can 
you speak to that, that timeline?
    Secretary Nielsen. I believe it is Wednesday, I think, 
Wednesday. So how about I get back to you on Friday with a 
timeline? I just need to touch base with Secretary Acosta.

               CYBERSECURITY: WORKING WITH PRIVATE SECTOR

    Mr. Taylor. Perfect. And I would love to be a part of any 
discussions.
    Switching topics really quickly, sorry, because I don't 
have a lot of time, to one that you like better, probably: 
cybersecurity, which is a huge issue. And I echo what 
Congressman Ruppersberger said about coming together. I want to 
see your report, of course.
    Ninety percent of cyberspace, of course, is in private 
hands. And I know that we are working with the private sector 
more, which, of course, we have to, now that targets aren't 
necessarily military and civilian anymore. That is all gone. 
Those days are gone.
    How are we working with the private sector in a more 
efficient way? And can you provide specific examples of sort of 
how we are doing that? That is, obviously, that you can speak 
about.
    And then you mentioned maturing the Department, which is 
great in some areas, not necessarily in cyberspace, of course. 
We want to disrupt it, right, because that is what is happening 
with the increasing amount in computing power, of course, with 
individuals, with terrorist organizations, with transnational 
actors, and, of course, nation-states.
    So, again, how are we working with the private sector to 
better protect the homeland? And then also how are you and the 
Department disrupting yourselves to figure out ways to be able 
to be more effective and efficient and not have silos, which 
has obviously been a problem that I have seen with 
cybersecurity, not just in Homeland, but in DOD and other 
places?
    Secretary Nielsen. Yes. Thank you. The jokes about hacking 
never cease. So, yes, we are trying to hack ourselves to make 
ourselves more efficient.
    On the critical infrastructure side, as you know, we have 
an extensive partnership that is very efficient. We are really 
focused on getting more threat information into their hands 
much more quickly and in a tailored way.
    At the beginning of all of this, we were able to tell 
sectors, all 16 at the same time, there is a heightened threat 
of X. But that is not very useful. The energy sector is very 
different than the water sector, which is different than the 
financial sector.
    The ISACs, the Information Sharing and Analysis Centers, 
are a very important role here. We can take in information in 
an anonymized way, do the pattern analysis, and push it back 
out. That is another way that we have matured our interaction.
    We also are working with other partners, the intel 
community and FBI [Federal Bureau of Investigation]. As you 
know, we just put out a guidance memo recently about hacking 
into industrial control systems, everything from energy to 
water and which is completely cross-sector, to give them more 
not only understanding of the threat, but protective measures, 
what they need to do to protect against this.
    We also have been working to expand our Automated Indicator 
Sharing program. This is one that works best as sort of a 
Costco model. The more people who join this program, the better 
information that we can give out.
    We have asked companies who might not necessarily need it 
because they themselves are very mature to join anyway so that 
we can use them to help raise the level of the weakest link of 
everybody else.
    What I would say is that it is a constant communication. 
When we see anything suspicious, we have the ability now, we 
have the points of contact. Sometimes it is almost that easy, 
as you know, and that hard to make the phone calls, to work in 
a collaborative way. We have the private sector represented in 
our ops center. It is a true partnership. We also have brought, 
of course, in the FBI and the IC [Intelligence Community].
    Mr. Taylor. Thank you, Madam Secretary. I look forward to 
working with you.
    Thank you, Mr. Chairman.

                       BORDER WALL DETENTION BEDS

    Mr. Carter [presiding]. Thank you.
    We have completed one round here. You are planning on 
leaving about 12:30. I would like to ask one more question--it 
will actually be two but I will put them together--and then I 
will let Ms. Roybal-Allard take one, and then we won't have 
time to do anymore. I promised to get her out at 12:30. It will 
be a little after that. Not much.
    Mine is real simple. Historically in this subcommittee you 
have had two issues that have been at odds and they have been 
difficult to deal with. We deal with them because, as Ms. 
Roybal-Allard said, we work well together. The issues are on 
the front page of every newspaper. The border wall is one issue 
and detention beds is the other.
    I would like to know your thoughts on border walls or 
border barriers as a necessity on the border and your thoughts 
on the number right now proposed, it is 2,000 beds, and what 
you see that to be as it helps to solve our problem.
    Secretary Nielsen. Thank you.
    As a person who myself has not been part of CBP, that is 
not a part of the Department where I have ever worked, I 
suppose I have a particular understanding of recognizing that 
those on the front lines are uniquely positioned to tell us 
what they need.
    And those on the front lines in CBP, whether they be the 
Office of Field Operations or the Border Patrol, have 
consistently said that from an impedance and denial 
perspective, it is very important to have physical 
infrastructure as part of a broader layered system of border 
control.
    We have seen this work. We have seen this work in Yuma. We 
have seen this work in San Diego. Instances of illegal entry in 
both cases went down 95 percent. That is a very difficult 
number to argue with that is factual.
    Do I believe that we need to do border infrastructure at 
every place on the border? Absolutely not. Do I believe that 
the border is the same in every place? Absolutely not.
    What I think we need to do is to listen to the operators 
who are there. They understand the threat. They understand the 
trends. They understand the environment. In some places, as you 
know, we have walls that move with the sand. I mean, we have 
some very unique requirements on some parts of the border.
    Pulling all of that together in the great analysis that 
they have done through the Border Security Improvement Plan 
really lays out a very technical and tactical way forward with 
respect to a toolkit and having the wall system.
    I also would say quickly that the wall system is not just 
the infrastructure. That is very important. It is also the 
technology and it is also the personnel. CBP will tell you 
about four core capabilities. It is the impedance and denial, 
it is the surveillance, it is the access roads, and it is the 
personnel. Together, that gives us what we need and the right 
mix to prevent illegal entries.
    There is, if I could, a lot of talk about why a wall 
between ports of entry, why not just focus at ports of entry. I 
don't think it is an either/or. We have talked about 
nonintrusive detection equipment. We need to be better at the 
borders to detect drugs and other nefarious activity.
    Between the borders, what we see is this great increase in 
traffic. The problem with that is once smugglers have developed 
a network, they can smuggle anything through that network. It 
could be drugs, it could be guns, it could be terror. It is not 
just illegal immigrants.
    There is a possibility now for the numbers to increase 
more. About two-thirds of people whom we interdict are between 
the points of entry, not at the points of entry.
    This one last thing I will say about drugs is, although we 
continue to have more drugs or see more instances of drugs at 
the ports, there are two very important caveats with that. One, 
we don't know what we don't know between the ports of entry. 
And two, what we see are those who facilitate the drug trade, 
the drug traffickers and the smugglers. They are going between 
the ports of entry.
    So if you want to fight the drug problem, you have to fight 
it both ways. There is the product and then there are those who 
sell it and who enable the illegal activity.
    With respect to the beds, as you know, we base that on a 
modeling tool that ICE uses on daily population, on trends. We 
do it 2 years out. We refine it as we go. We then multiply the 
cost out by the daily direct cost, which is everything from 
medical care to food and clothing for those who are detained.
    The numbers can change a bit. So sometimes there is room, 
when we have an amount appropriated, to work within that 
appropriation on the number of beds we need. But the current 
ask is based on solid modeling, solid increases in numbers of 
both enforcement and those we interdict and what we see coming.
    Certainly, at any time, I am happy to come give you an in-
depth brief on why we believe we need 52,000 beds.
    Mr. Carter. Thank you very much.
    Ms. Roybal-Allard.

                         UNACCOMPANIED CHILDREN

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    It has been very difficult to decide which one question I 
am going to be asking because I have several concerns about 
unaccompanied children, about TPS, as well as sanctuary cities. 
Because I do believe there is some kind of misunderstanding, at 
least as it pertains to California, about what it means to be a 
sanctuary city, and maybe we can follow up later.
    Very quickly, I just want to add to an issue that Mr. 
Cuellar brought up. I agree that we need more judges, but I 
also believe that we need to find a way for those who 
particularly are seeking asylum to have more access to counsel, 
to attorneys, and to advocates.
    Also, with Dr. Harris, the concerns that he raised. I just 
think it is another example of the need and the value of 
immigrants to sectors of our American economy.
    And then finally, when it comes to DACA, I just want to 
point out that while DACA recipients are protected, the fact is 
there are probably about 100,000 Dreamers who currently are 
barred from applying for DACA who are vulnerable to 
deportation. And I hope that we can work together to address 
that issue.
    Lately there have been several stories in the press about 
the separation of families by CBP and ICE. Given the traumatic 
and truly irreparable harm, as many experts have told us, that 
this separation has on children, what are the justification and 
the circumstances under which departmental components can 
separate minor children from their parent or their guardian? 
And if the Department has concerns about the validity of a 
claimed familial relationship, what is the process for 
verifying or debunking that claim?
    Secretary Nielsen. Thank you.
    The current standard at CBP--and as you know, often if we 
are talking about the border, CBP, the Border Patrol, are the 
first to encounter a family unit--the standard is, in every 
case, to keep that family together as long as operationally 
possible, first of all. That is the presumption going in.
    When we separate, we separate because the law tells us to, 
and that is in the interest of the child. If we cannot confirm 
that the adult who is accompanying them is either a legal 
guardian or parent, we do seek, as you say, to verify that, and 
I will talk about that in a second.
    Under the Trafficking Victims Protection Act, it tells us 
that we need to prevent trafficking. Unfortunately, we have 
seen instances where traffickers have used children to cross 
the border and gain illegal entry. So when we do separate, we 
do it to protect the child. The child [Department of Health and 
Human Services] as you know, or unaccompanied alien, then goes 
over to the care of HHS as we determine what to do with the 
adult.
    I have talked a lot with Commissioner McAleenan about this 
and Director Homan. What they do, in general, is that they 
reach out to the consulates. They look for paperwork. 
Unfortunately, in an increasing number of cases, we encounter 
migrants who do not have paperwork, for whatever reason. We, of 
course, look to see if they have paperwork to validate that.
    We work with the consulates. So we do interviews. In some 
cases, HHS, as I understand, it will do a DNA check, voluntary, 
of course, to try to prove that there is a relationship there.
    This is an area where I think a lot more clarity would be 
very important. I also have asked those to our south, partners 
that we have worked with at the consulate level, to make it 
very clear that the paperwork is very important to prevent 
these type of issues. We really are trying to protect the 
children when we do this.
    Ms. Roybal-Allard. Now there are stories that have been 
validated about a mother, for example, the Congolese mother 
being separated from her 7-year-old child and was not given an 
opportunity to either have a DNA test or anything for months, 
and was separated for months. And then finally those tests were 
given and it determined that she was actually the mother of 
this child. And I am just wondering if anything is being 
considered or being put in place to avoid those kinds of things 
from happening.
    And secondly, if any thought has been given to perhaps 
maybe do some of what under the previous administration was to 
work with the United Nations High Commissioner on Refugees to 
identify refugees in the Northern Triangle region so that they 
would not have to make that dangerous journey to the United 
States to claim asylum. Instead, they could travel to refugee 
processing centers in the regions where they could live safely 
during the vetting process before being settled in the United 
States or in another country.
    I am just wondering if any consideration has been given to 
looking into that as a way of protecting the children and those 
seeking refuge, as well as it would alleviate a lot of the 
challenges that we have at our border currently.
    Secretary Nielsen. In the Congolese case that you 
mentioned, it took too long. We are working through that. As 
you know, it is a case of ongoing litigation, so, 
unfortunately, I am prohibited from giving you additional 
detail at this time. It took too long. So we are looking at 
that particular case and learning from it.
    I actually have planned an additional conversation with the 
UNHCR [United Nations High Commissioner for Refugees] in 
upcoming weeks. That is an important partnership.
    What I have asked of the office as well as those to whom we 
speak at the embassies and my counterparts is exactly what you 
are describing. Could we better educate the public in these 
countries so that they can go to the consulate, they can go to 
the embassy? There are other ways to find safe haven without 
taking this dangerous journey and then putting themselves at 
further risk by coming here illegally.
    So, yes, I think we need to do more education to help them 
understand their options.
    Ms. Roybal-Allard. But also have to make sure that they 
would be safe in their country----
    Secretary Nielsen. Understand.
    Ms. Roybal-Allard [continuing]. And the reason why they are 
leaving while they are going through the process.
    Secretary Nielsen. Yes, ma'am.
    Ms. Roybal-Allard. OK. Thank you.
    Mr. Carter. Secretary Nielsen, thank you for your 
testimony. I commend you for being very well prepared. We have 
learned a lot from you today.
    As I have told you when I talked to you on the phone--Ms. 
Roybal-Allard feels the same way--we are part of the team here 
to help you. Keep us informed. If you need our assistance, let 
us know. This committee and every member of it is pledged to 
try to do the mission you are trying to do: make this country 
safe.
    Thank you for being here. We missed our time by 6 minutes.
    Secretary Nielsen. Well, sir, thank you so much.
    And thank you to all of you. I look forward to working with 
you.
    Mr. Carter. And we are in recess. Thank you.

    [Clerk's note: The Department of Homeland Security did not 
supply answers to submitted questions in time for inclusion in 
the record.]

                                          Thursday, April 12, 2018.

 U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT AND U.S. CUSTOMS AND BORDER 
                               PROTECTION

                               WITNESSES

HON. KEVIN K. MCALEENAN, COMMISSIONER, CUSTOMS AND BORDER PROTECTION
MATTHEW T. ALBENCE, EXECUTIVE ASSOCIATE DIRECTOR FOR ENFORCEMENT AND 
    REMOVAL OPERATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT
DEREK N. BENNER, DEPUTY EXECUTIVE ASSOCIATE DIRECTOR, HOMELAND SECURITY 
    INVESTIGATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT
    Mr. Carter. Good morning. We have one more coming in right 
now and we are going to get started.
    I want to welcome our panel of witnesses. Today we have 
Kevin McAleenan, the Commissioner of the CBP. We have Matthew 
Albence and Derek Benner, Executive Directors for ICE 
Enforcement and Removal Operations and ICE Homeland Security 
investigations.
    Commissioner, we visited yesterday. It was a good visit. 
And while we have known each other for a while, today is the 
first time that you have appeared, I believe, as the confirmed 
Commissioner of CBP. Congratulations on your confirmation.
    The subcommittee is holding a hearing on the budget request 
for two DHS components, ICE and CBP, for a couple of reasons.
    First, it is practical. Given the late start for the fiscal 
year 2019 budget hearing cycle, we are operating on a 
compressed schedule in order to meet this committee's objective 
of completing the Homeland Security appropriations bill in 
July.
    Second, having ICE and CBP testify together provides an 
opportunity to hear how they operate jointly and how those 
operations informed the budget request.
    The fiscal year 2019 budget request for CBP is $14.2 
billion, an increase of $218 million above the amount provided 
for fiscal year 2018. This includes $1.6 billion for new 
physical barriers.
    There are legitimate questions about the request that 
require answers. For example, spending is proposed for various 
types of barriers, but it is unclear where they will be located 
or if they can be executed in fiscal year 2019. Likewise, we 
need to understand how this budget request supports security at 
the ports of entry.
    The fiscal year 2019 budget request for ICE is $8.8 billion 
in discretionary spending, an increase of $1.4 billion over 
fiscal year 2018. The largest share of the increase supports 
the hiring of 2,000 ICE agents and 52,000 detention beds.
    The subcommittee needs to understand how fiscal year 2018 
appropriations may be impacted by these requests. We want to 
work with you and make sure that the fiscal year 2019 funding 
builds on the work we will accomplish this year.
    Before I turn to our witnesses for their statements, the 
text of which is included in the record, I would like to 
recognize my distinguished ranking member, Ms. Roybal-Allard, 
for any remarks she may wish to make.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    And welcome, Commissioner McAleenan, Associate Director 
Albence, and Associate Director Benner.
    I will make my opening statements very brief so that we can 
maximize the time for questions.
    Commissioner McAleenan, congratulations on your recent 
confirmation. We have spoken about the significant challenges 
you and CBP face, and I want to reaffirm my commitment to 
helping you address those challenges.
    As you know, I disagree with the approach of the current 
administration in some areas. But there is no disagreement on 
the need to continue building on the significant progress made 
over the last decade in border security, both between the ports 
of entry and at the ports. And there is a broad consensus on 
continuing to invest in improvements at the ports that will 
better facilitate the flow of commerce.
    Mr. Albence and Mr. Benner, I regret that Mr. Homan was 
unable to join us this morning, but I am glad to have you both 
here to answer our questions. Director Homan and I have had 
frank, respectful discussions about our disagreements on ICE 
policies and priorities. And while we won't resolve those 
disagreements this morning, I appreciate his willingness to 
maintain open lines of communication.
    A high priority for me is ensuring that individuals in the 
custody of your agencies are treated fairly and humanely and 
according to appropriate standards. No matter the policy 
disagreements we have, I hope we can work constructively 
together in that area.
    Thank you, Mr. Chairman, and I look forward to our 
discussion this morning.
    Mr. Carter. Thank you, Ms. Roybal-Allard.
    We are joined by the ranking member of the full committee, 
Mrs. Lowey. Mrs. Lowey is recognized for any statement she 
wishes to make.
    Mrs. Lowey. Thank you, Mr. Chairman.
    And I would like to thank Chairman Carter and Ranking 
Member Roybal-Allard for holding this important hearing.
    And thank you to each of the witnesses for being here this 
morning.
    I want to be very clear. Your agencies are critically 
important to the security of this country. Ensuring the 
integrity of our borders and enforcing immigration laws are 
difficult but necessary jobs, and we appreciate the hard work 
and dedication of the thousands of personnel at both CBP and 
ICE. Congress must carefully prioritize efficient use of 
taxpayer dollars to protect our security, grow the economy and 
facilitate trade and safe travels.
    Democrats fundamentally disagree with this administration's 
politicization of border security and its often heartless 
decisions and priorities on immigration enforcement. 
Longstanding practice has been to prioritize removal efforts on 
those convicted of serious crimes, not our neighbors who have 
lived here for decades, working hard, contributing to our 
economy, and raising families. Yet, for CBP the budget request 
includes $1.6 billion for 65 miles of border wall and $164 
million to hire 750 new Border Patrol agents and 153 support 
personnel.
    CBP has not yet explained why these funds are needed at a 
time when apprehensions at the border are still historically 
low and many of those apprehended are surrendering themselves 
to Border Patrol. The President's obsession with fulfilling his 
campaign promise for a border wall remains deeply concerning.
    The deployment of the National Guard is yet another 
misguided and impulsive decision that the Department is being 
forced to justify while other national security priorities are 
being stretched thin.
    For ICE, the budget requests an increase of 11,500 beds and 
the hiring of 3,300 new personnel, including 2,000 new law 
enforcement positions. Those increases are clearly included to 
support the administration's overly aggressive and unacceptable 
interior enforcement policies.
    Finally, the administration proposes to change the law to 
tie the hands of State and local law enforcement on how best to 
police their communities and to authorize DHS and DOJ to 
condition certain grants on a jurisdiction's cooperation with 
ICE. This runs contrary to Federal court precedent, could 
result in victims of crimes staying in the shadows, reduces 
trust between law enforcement and the public. Quite simply, it 
will make our communities less safe.
    President Trump continues to speak and tweet extensively 
and inappropriately, often outlining his draconian plans to 
detain and deport as many people as possible. The most 
prominent increases in this budget are rooted in that ugly 
sentiment. It is unconscionable and unacceptable.
    This budget request does not reflect the serious nature of 
the threats we face. Well over a year after the 2016 election, 
it is time we move on from empty campaign threats and start 
focusing on what is needed to keep American families safe.
    Thank you, Mr. Chairman. And thank you again.
    Mr. Carter. Well, thank you.
    I think that concludes our opening statements. We will 
allow to hear your testimony at this time.
    Commissioner.

                   Opening Statement of Mr. McAleenan

    Mr. McAleenan. Good morning. And thank you, Chairman 
Carter, Ranking Member Roybal-Allard, full committee Ranking 
Member Nita Lowey, and members of the subcommittee. I really 
appreciate the opportunity to appear before you today.
    I have had the chance to engage with this subcommittee many 
times in many different capacities over the years, and I have 
always appreciated the deep expertise and commitment to support 
our critical mission from both members and staff.
    As you noted, Mr. Chairman, this is my first chance to 
appear as the Commissioner of CBP, and it is a sincere honor to 
represent the 60,000-strong men and women of U.S. Customs and 
Border Protection in that role.
    CBP carries out three core missions critical to our 
national security and economic prosperity: counterterrorism, 
border security, and securing and facilitating international 
trade and travel.
    The President's fiscal year 2019 includes a total of $16.7 
billion to enable CBP to achieve our complex mission with the 
right combination of dedicated personnel, risk-based 
strategies, collaborative partnerships, advanced technology, 
and tactical infrastructure.
    Before discussing the fiscal year 2019 budget, I would like 
to briefly address the recently passed Consolidated 
Appropriations Act of 2018. I would like to thank the 
subcommittee for your support of CBP's mission, including the 
largest investment in border wall in more than a decade. We are 
already putting this funding to work on behalf of the American 
people.
    CBP has worked closely with this committee in recent years 
to continually improve our ability to support our budget 
request with operator-derived, data-supported, and rigorously 
analyzed requirements. I look forward to continue working with 
you to ensure that the funding we request supports our highest 
priority needs.

                         BORDER SECURITY: WALL

    The fiscal year 2019 budget request includes continued 
investments in key mission areas. With regard to border 
security, the President's budget requests $1.6 billion to be 
applied toward the construction of 65 miles of border wall 
system, a need identified by the field and supported by CBP's 
full-spectrum requirements analysis process.
    In conjunction with the border wall system, technology is a 
force multiplier in the border environment that increases 
situational awareness and decreases risk to the safety of our 
frontline personnel.
    The budget request proposes investing $220 million in the 
sustainment and continued deployment of technology to 
strengthen border security operations between the ports of 
entry and the land, air, and maritime environments.

                              CBP: HIRING

    The budget also recognizes--and this is, obviously, a 
critical topic for our hearing today--that the men and women of 
CBP are our greatest assets. I am very proud of their 
dedication, integrity, and commitment.
    But CBP has faced challenges in meeting our hiring goals in 
the past several years. However, due to 40 individual 
enhancements to CBP's hiring process, we have seen improved 
results, despite record low unemployment around the United 
States and intense competition for highly qualified, mission-
inspired people.
    Several key indicators are moving in a positive direction. 
CBP's hiring totals last year surpassed the prior year by 14 
percent, and we estimate that we will increase the number of 
Border Patrol agents and CBP officers hired in fiscal year 2018 
as well. The total number of frontline applicants has 
increased, and we intend to make progress with targeted digital 
recruiting.
    Further, attrition dropped last year. Our applicant-to-
successful-hire ratio has improved significantly and we are 
making improvements to our polygraph process. I am keenly aware 
that we are not where we need to be in this area, and hiring 
and sustaining a world class law enforcement workforce will 
continue to be my highest mission support priority for U.S. 
Customs and Border Protection. There is simply no area where we 
are working harder.
    We want to build on this momentum in 2019 by requesting $46 
million for recruitment and applicant processing 
transformation. This will support the requested increase of 
$164 million to hire, train, and equip an additional 750 Border 
Patrol agents from the fiscal year 2018 requested levels.
    Importantly, this budget also includes an additional $45 
million to continue to support the operational mobility program 
that helps reduce Border Patrol agent attrition and staff hard-
to-fill locations.

                            CBP: FACILITIES

    The 2019 budget request also supports critical investments 
in facilities that our agents operate in every day, including 
$33 million to construct a new Border Patrol station in Freer, 
Texas.
    At our Nation's ports of entry, the men and women of CBP 
present dangerous people, contraband, and plant, pest, and 
animal diseases from entering the United States while 
facilitating the flow of lawful trade and travel.

                  NON-INTRUSIVE INSPECTION TECHNOLOGY

    The budget request includes $44 million to build upon and 
recapitalize CBP's Non-Intrusive Inspection technology. NII 
helps CBP interdict illicit narcotics, including opioids and 
synthetics like fentanyl, at our ports of entry and our 
international mail and express consignment facilities.

                       NATIONAL TARGETING CENTER

    Additionally, the budget proposes an increase of $27 
million for improved intelligence and targeting capabilities at 
CBP's National Targeting Center. The NTC works to effectively 
identify and interdict travelers and cargo that may pose a 
threat to the United States.

                     TRADE FACILITATION/ENFORCEMENT

    CBP's trade facilitation and trade enforcement role is 
critical to our Nation's economic security. The budget request 
includes $2 million for 26 positions to support CBP's ongoing 
implementation of the Trade Facilitation and Trade Enforcement 
Act. The request also includes an increase of $5.5 million to 
develop and deploy additional functionality in our Automated 
Commercial Environment, or ACE, the single window for 
submission of trade data to the U.S. Government.
    With the ongoing support of Congress, CBP will continue to 
secure our Nation's borders while facilitating international 
trade and travel.
    Thank you again, Mr. Chairman, for the opportunity to 
appear before you today. I look forward to your questions.
    [The information follows:] 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                    Opening Statement of Mr. Albence


                ICE: ENFORCEMENT AND REMOVAL OPERATIONS

    Mr. Albence. Good morning. Chairman Carter, Ranking Member 
Roybal-Allard, Ranking Member Lowey, and distinguished members 
of the subcommittee, thank you for the opportunity to appear 
before you today to present the overall President's fiscal year 
2019 budget for U.S. Immigration and Customs Enforcement, and 
specifically to discuss Enforcement and Removal Operations and 
my role as the executive associate director of ERO.
    ICE's mission is to protect America from the cross-border 
crime and illegal immigration that threaten national security 
and public safety. To protect the security of the American 
people and the homeland, ICE vigilantly enforces the Nation's 
immigration and customs laws by focusing on immigration 
enforcement, preventing terrorism, and combating transnational 
organized crime.
    In the face of heightened scrutiny, I am extremely proud 
that our men and women continue to operate with professionalism 
and honor and do so at the risk of their own safety and 
security.
    The President's fiscal year 2019 budget request for ICE 
includes $8.3 billion to meet our diverse mission requirements 
and to make much-needed investments in immigration enforcement, 
criminal investigations, workforce expansion, and training.
    These requested enhancements continue our fiscal year 2018 
efforts to control illegal immigration, enhance interior 
enforcement, particularly against criminal aliens and habitual 
immigration offenders, combat the growing national opioid and 
other dangerous drug epidemic, and increase our ability to 
detect, disrupt, and deter human smuggling and child 
exploitation operations so often associated with transnational 
criminal organizations.
    ICE appreciates the continued support of Congress in 
building a stronger ICE, one that can meet the myriad critical 
operational responsibilities necessary for the safety and 
security of our country.

                             ICE: WORKFORCE

    To accomplish this, it is imperative that ICE is properly 
resourced to support these diverse mission requirements, making 
the need for additional funding and personnel more crucial than 
ever.
    That is why our fiscal year 2019 budget makes a significant 
downpayment on ICE's workforce, requesting $571 million for an 
additional 2,000 law enforcement officers and vital support 
personnel impacting all aspects of our mission space.

                      ICE: ENFORCEMENT OPERATIONS

    In particular, ERO operates in an incredibly challenging 
environment. What ERO, and ICE in general, does not do is 
conduct indiscriminate raids or sweeps. We conduct targeted 
enforcement operations across the country every day that are 
based on intelligence-driven leads and detailed investigations, 
prioritizing our resources on identifying and removing public 
safety and national security threats.
    We also prioritize fugitives and aliens who have illegally 
entered the United States after having previously been removed, 
a Federal felony, and one that ERO prosecuted over 4,200 times 
last year.
    But to be clear, entering the United States illegally is a 
crime in and of itself, and ICE's congressionally mandated 
mission is to enforce immigration law as enacted by Congress.
    To that end, last fiscal year ERO made substantial progress 
in focusing its limited enforcement resources on arresting and 
removing public safety threats from our communities and 
restoring fidelity to the immigration system, especially for 
those aliens with orders of removal issued by an immigration 
judge.
    In fiscal year 2017, 89 percent of the aliens arrested by 
ERO in the interior of the United States had a prior 
interaction with the criminal justice system, with 74 percent 
of them being convicted criminals. In real terms, this means 
that nearly 11,000 more criminal aliens were removed from the 
street last fiscal year than in fiscal year 2016. These 
positive trends have continued into fiscal year 2018 with 
criminal alien arrests up over 8 percent and overall arrests up 
nearly 30 percent.
    Also, despite the challenges faced in some jurisdictions, 
ERO has continued to strengthen its relationship with the State 
and local law enforcement community. For example, the 287(g) 
program has increased from 32 to 76 partnerships, with 
continued interest from other jurisdictions.
    Further, working cooperatively with our tremendous partners 
at the National Sheriffs' Association and Major County Sheriffs 
of America, we have established a new process that affords our 
local partners an additional legal basis to defend themselves 
when they faithfully execute their public safety duties by 
detaining aliens at ICE's request.

                             ICE: WORKFORCE

    To continue to build on this significant progress, ERO 
needs the resources requested in the fiscal year 2019 budget. 
Recent statistics and our own staffing model indicate that a 
substantial increase in deportation officers is required to 
respond to manage the more than 2.5 million aliens on the 
detained and nondetained dockets, manage an increased detainee 
population, and address the over 540,000 immigration fugitives, 
aliens who have had their day in court and have failed to 
comply with a judge's removal order.
    Further, due to the challenges facing some of our law 
enforcement partners inhibiting their ability to honor ICE 
detainers or even share information, it is necessary to place 
more ICE officers within State and local jails, as well as 
augment our fugitive operations teams, in order to ensure that 
dangerous criminals are not reintroduced into American 
communities where they can further victimize our law-abiding 
citizens.
    Additionally, more attorneys are needed to support an ever-
increasing caseload and to meet the Department of Justice's 
planned national expansion within EOIR.

                          ICE: DETENTION BEDS

    The increased immigration enforcement workforce requests 
also necessitates a commensurate increase in detention beds to 
process the identified illegal immigration population and 
detain CBP apprehensions of illegal border crossers. While the 
fiscal year 2018 Consolidated Appropriations Act provided ICE 
with funding for 40,520 detention beds, the requirement remains 
almost 11,000 beds higher in fiscal year 2019.
    Through the use of the ICE statistical bed model and 
associated operational factors, ICE estimates the need for 
detention beds at 52,000 for fiscal year 2019. This is a 
sophisticated model that has previously been shared with your 
staffs and has proven to be highly accurate at forecasting 
detention needs.

                    ICE: TRANSPORTATION AND REMOVAL

    The fiscal year 2019 budget also includes an increase in 
funding for expanded transportation costs related to both 
domestic and international movement of aliens. ERO has worked 
diligently to obtain greater cooperation from foreign 
governments to accept their citizens, with the number of 
recalcitrant countries dropping from 20 to 9, and those at risk 
of noncompliance dropping from 55 to 36.
    However, the cost of removing these aliens is extensive, 
and ERO requires additional funds to ensure that these and 
other illegal aliens, many violent criminals, are removed from 
our country.
    Overall, the resultant fiscal year 2019 ERO budget request 
is $5.1 billion to identify, arrest, detain, and remove illegal 
aliens.
    Since its inception 15 years ago, ICE continues to be a 
preeminent Federal law enforcement agency with a unique and 
critical role in the national security and public safety of the 
United States, as well as an invaluable partner among the 
international law enforcement community. With a diverse and 
dedicated workforce and a wealth of experience throughout our 
ranks and on the front lines, we are 20,000 American patriots 
in proud service to our country.
    Many of our personnel put their lives on the line every day 
to protect our Nation, despite the innumerable challenges they 
face, and I could not be more honored to represent them here 
today.
    With your support, I believe ICE is well-positioned to have 
an even greater impact on the safety and security of this 
country, and we will continue to execute our sworn duties with 
integrity, courage, and excellence.
    Thank you again for the opportunity to testify today and 
for your continued support of ICE. I look forward to answering 
any questions you may have at this time.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0212A.034
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                 ICE: HOMELAND SECURITY INVESTIGATIONS

    Mr. Carter. Thank you.
    Mr. Benner.

                    Opening Statement of Mr. Benner

    Mr. Benner. Chairman Carter, Ranking Member Roybal-Allard, 
full committee Ranking Member Lowey, and distinguished members 
of the subcommittee, I want to thank you for the opportunity to 
appear before you today to present the President's fiscal year 
2019 budget for U.S. Immigration and Customs Enforcement, but 
specifically for Homeland Security Investigations' portion of 
the request.
    The ICE Homeland Security Investigations, or HSI, 
directorate is a critical asset in the ICE mission, responsible 
for investigating a wide range of domestic and international 
activities arising from the illegal movement of people and 
goods into, within, and out of the United States.
    HSI uses its legal authority to investigate issues such as 
smuggling of narcotics, the smuggling of weapons, financial 
crimes, cybercrime, trade enforcement crimes, export 
enforcement, human rights violations, and human smuggling. HSI 
special agents also conduct investigations aimed at protecting 
critical infrastructure industries that are vulnerable to 
sabotage, attack, or exploitation.
    In my limited time today, I want to highlight several 
priorities within HSI's broad mission set that we believe are 
relevant to our discussion of the fiscal year 2019 budget and 
HSI's contribution to the administration's and Congress' 
priorities.

                           COMBATING OPIOIDS

    First and foremost, HSI's strategy to address the smuggling 
of fentanyl and other illicit opioids focuses on working at 
every level of the illicit supply chain. HSI's investigations 
focus on the point of foreign manufacture, the dark net and 
illicit marketplaces, and the payment mechanisms used by buyers 
and sellers throughout the smuggling pipeline, and, most 
importantly, with our State and local partners, tying overdose 
deaths to smuggling networks that supply the illicit substance.
    HSI has seen a rapid growth in our fentanyl-related 
investigations and seizures in just the last 2 years. For 
instance, between fiscal year 2015 and fiscal year 2017 
fentanyl seizures and investigations have increased from 69 
pounds of fentanyl in fiscal year 2015 to 2,400 pounds in 
fiscal year 2017. We anticipate this increase in seizures and 
investigations will continue in fiscal year 2018.
    The Border Enforcement Security Task Forces, or BESTs, are 
ICE's primary platform to investigate opioid smuggling 
domestically. ICE currently operates BESTs in 62 locations 
throughout the United States, an increase of 30 percent in 
fiscal year 2017 in response to the President's executive order 
on transnational criminal organizations.
    BESTs leverage the participation of more than 1,000 
Federal, State, local, and foreign law enforcement agents and 
officers representing over 100 law enforcement agencies that 
target opioid smuggling.
    Similarly, HSI's cyber investigations related to fentanyl 
and other illicit opioids have increased by 400 percent between 
those two fiscal years, 2015 and 2017.
    In response to the executive order and to improve our 
ability to tie overdose deaths here in the United States to the 
smuggling networks, HSI has developed a dark web and 
cryptocurrency training program for State and local law 
enforcement, training for those investigators and officers that 
are involved in drug and suspicious death investigations.
    So far in 2018, HSI has delivered training to more than 
1,200 investigators from State, local, Tribal, and Federal 
agencies.

                     COMBATING MS-13 GANG ACTIVITY

    Secondly, combating MS-13. In addition to protecting the 
homeland from illicit opioids, HSI further enhances public 
safety by targeting transnational criminal organizations and 
criminal street gangs that operate in the United States.
    HSI has been laser-focused on MS-13 for more than a decade 
and through Operation Community Shield, the primary platform 
through which HSI executes its anti-gang initiatives. In 
October of 2012, for example, HSI worked with the U.S. 
Department of Treasury's Office of Foreign Assets Control to 
designate MS-13 as the first transnational criminal street gang 
identified as a TCO.
    As a result of this designation, any property or property 
interests in the United States, or in the possession or control 
of a U.S. person in which MS-13 has an interest, are blocked.
    One of our most important partners in our fight against MS-
13 is the Government of El Salvador, who we partner with daily. 
And I just returned from El Salvador last Friday, and I look 
forward to discussing that later in my testimony.
    HSI has established a Transnational Criminal Investigative 
Unit with the Government of El Salvador and National Police, 
which makes it possible to extend the reach and impact of our 
domestic investigations into El Salvador, ensuring that gang 
leadership in El Salvador is also held accountable for the 
gang's criminal conduct in the United States.
    From fiscal year 2005 to present, HSI has effected over 
57,000 criminal arrests of gang members, including over 7,300 
MS-13 members.
    The DHS efforts to secure our border will not be effective 
unless we simultaneously focus on the magnets and the pull 
factors that are drawing people to cross our borders illegally 
at the same time that we focus on physical border security.

                          WORKSITE ENFORCEMENT

    Acting ICE Director Homan has set a high bar for HSI's 
worksite enforcement efforts in 2018 and going forward. 
Consistent with his public statements that ICE will no longer 
exempt any industry or business sector from worksite 
enforcement, HSI focuses on the entire economy and geographic 
area of the United States.
    Our strategy incorporates a multiprong approach to utilize 
enforcement, criminal arrests of employers and administrative 
arrest of employees, compliance, employment verification 
inspections, civil fines and debarment, and outreach, the ICE 
mutual agreement between government and employers, to instill a 
culture of compliance and accountability.
    In support of our efforts to instill a culture of 
compliance among employers, HSI has developed a plan to expand 
the Employee Compliance Inspection Center. The new center would 
allow for the centralization of worksite audits at one location 
that would ensure a standardized audit process and uniform 
application of the civil fine matrix.
    We believe that it would also represent an orderly and 
efficient way to build a culture of compliance with employers, 
and at the same time, identify the egregious violators on a 
national level for referral to the HSI field offices for 
criminal investigation.
    Without the proper resources dedicated to these criminal 
investigations, the ramifications of illegal activity will 
continue. To ensure enforcement efforts increase, ICE requests 
over $1.9 billion in discretionary fee funding to support 
illicit trade, travel, and financial investigations.

                             ICE: WORKFORCE

    As my partners have pointed out, our diverse workforce 
remains our priority to ensure that the mission is executed 
properly. HSI consists of more than 10,000 employees, of which 
6,700 are special agents assigned to more than 200 cities 
throughout the United States and 50 countries around the world.
    Funding for additional special agents and support personnel 
is critical for global deployment to ensure the safety of our 
Nation.

                          ICE: INFRASTRUCTURE

    We are extremely appreciative of the additional support 
that the subcommittee provided in the fiscal year 2018 
appropriation to invest in the ICE infrastructure. Critical 
investment in infrastructure and information technology 
continues to be necessary to sustain ICE operations and to 
ensure that we can provide our workforce with the necessary 
tools to complete the mission.
    HSI also continues to support the executive orders laying 
the ground work for ICE to carry out the critical work of 
ensuring our national security and public safety.
    HSI welcomes the additional resources requested in the 
President's fiscal year 2019 budget request, including 300 
special agents and supported mission support personnel, 
allowing us to better fulfill our mission.
    Thank you again for the opportunity to appear today and 
testify and for your continued support of Homeland Security 
Investigations. I look forward to answering any questions you 
may have at this time.
    Thank you.
    Mr. Carter. All right. We are going to have a 5-minute 
rule.

                   BORDER SECURITY: BARRIER PROTOTYPE

    I am going to start off with something that is a very hot 
topic: border security and physical barriers. In fiscal year 
2017, Congress provided $20 million to begin planning and 
design for a new barrier, to include funds for prototypes, 
which were built in southern California last year. We all saw 
them on television.
    What have you learned from the prototype process? How will 
it inform you of what to construct in the fiscal year 2019 
funds?
    Congress provided funds for 40 miles of replacement fencing 
in 2017, over 95 miles of wall in fencing in 2018. Where and 
when will you begin construction with these funds?
    If the fiscal year 2019 budget includes $1.6 billion for 
planning, design, and construction of 65 miles of various-type 
barriers, then tell us what your plans are for border 
infrastructure, what type of structures do you propose with 
these funds, and where will they be located.
    From the time you get funds, how long before you can start 
putting steel in the ground with the funds from fiscal year 
2019.
    Something of very big interest to me as a Texan, the wall 
goes through the land acquisition process associated with the 
timeline. What are the obstacles of obtaining land?
    Can the entire $1.6 billion be put on contract by September 
30, 2019? Please be specific to those projects that will be put 
on contract and address the situation in Texas where most land 
is owned by landowners, private landowners.
    A lot of issues there, but we have got to get a clear 
picture because we have a short-spinning process here in this 
2018 budget, and we are still not doing 2017 yet. So we want to 
find out how we are going to get this thing moving.
    Mr. McAleenan. Thank you, Mr. Chairman. Important set of 
questions.
    First, let me just acknowledge our appreciation for the 
reprogramming approval in 2017 to get started to learn some 
additional lessons with this prototyping process that will put 
us in good position for execution in 2019, as you suggest.
    Very quickly, a summary of that effort. We had some 
important lessons learned. We built four concrete prototypes 
and four prototypes with other materials in a section of border 
in San Diego where we have a lot of crossings in that secondary 
area.
    After construction, we performed a test and valuation, both 
for issues like countering breach of the barrier itself, 
anticlimb features, antidig features, as well as the 
construction techniques and space required. And so we learned 
several key things.
    One, we validated the notion that see-through fencing is 
the most important factor on primary for our agents' safety. So 
if we are going to have a fence or wall right on the border, 
our agents need to be able to see through it for security.
    Secondly, concrete has some valuable attributes that could 
be used in other areas, including potentially in a secondary 
context.
    So in terms of the key lessons from these eight prototypes, 
one, we learned important things about the best combination of 
materials for antibreach, both for the bollard wall format as 
well as the concrete.
    We applied anticlimb features in different configurations 
at the top of those barriers. You mentioned seeing some of them 
on TV. Both a flat face and the tube structure showed 
significant anticlimb capability for us.
    We learned a lot about the constructability and speed on 
the techniques, including the footing of concrete barrier and 
how much space is required, and the ability to add sensors.
    So we want to add these to our current border barrier 
toolkit, right? We have 654 miles out there already. We have a 
lot of experience, over 25 years, building barriers on the 
border. These features are going to be added to that design 
toolkit and then applied to specific geographic areas of the 
border with different terrain in packages by segment.
    In terms, of your questions on 2017, 2018, and 2019, we are 
building replacement wall as funded in 2017 today. In El Centro 
Sector we started in February. That 2-plus miles of replacement 
wall is going up in southern California.

                   BORDER SECURITY: WALL REPLACEMENT

    We also kicked off Monday of this week our El Paso Sector 
project with 20 miles of replacement vehicle barrier in terms 
of the construction. The notice to proceed was back in 
February. It required a significant mobilization given the 
extent of that project.
    We will be continuing that replacement wall with 40 miles 
that were funded in 2017 in El Paso with another 4-mile 
segment, and Rio Grande Valley, importantly, with gates that 
will close gaps in the existing barrier and wall in Rio Grande 
Valley, and then a replacement project in the San Diego Sector 
of 14 miles.
    All of that will begin by summer into early fall. So that 
funding has been obligated and will be applied effectively to 
start construction.

                       BORDER WALL: CONSTRUCTION

    For the 2018 border wall program, we have jumped into that 
fully for the approximately 95 miles that we will be building. 
That will cover multiple sectors. First of all, our highest 
priority sector in Rio Grande Valley in south Texas.
    That is where the last several years we have seen 50 
percent of traffic crossing our border. As alluded to in the 
opening statements, both an increase of family units and 
children. But also hard narcotics, a 25 percent increase in 
smuggling of hard narcotics, and also a significant increase in 
criminals and hardened smugglers that we are encountering. So 
it is a dual traffic there.
    So we will building 25 miles of new levee wall system and 8 
miles of border wall system in Rio Grande Valley. And then we 
have a separate San Diego project of 14 miles of replacement 
wall and secondary, and then we have identified four or five 
sectors for replacement wall with the funding that was granted 
in the 2018 budget.
    We expect to do awards starting again this summer, August 
23 for the San Diego Sector project, Rio Grande Valley in the 
August-September timeframe. So we will be moving out smartly on 
those projects. We were preparing for that in anticipation of 
funding in 2018.
    For 2019, you asked specifically would we be able to 
obligate those funds within the fiscal year if appropriated by 
Congress. And, yes, we would. Our efforts with the Army Corps 
of Engineers to identify property acquisition in south Texas 
are well underway.

                 BORDER SECURITY: PROPERTY PROCUREMENT

    The key thing, as you noted, is how do you work through 
that process of obtaining that property, private property in 
Texas on the border. In other States it is a little bit 
different. That is a multistage process of real estate 
planning.
    You mentioned that we do have to go, unfortunately, to 
court proceedings in some cases. Often that is just to 
determine clear title. It is not necessarily that we are having 
trouble agreeing with a landowner on a fair price for that 
property. So it is often just to find out who owns it. Some of 
these deeds go back to Spanish land grants and are very complex 
to really figure out who owns the land.
    So that is a multistage process. We try to do it in a 
collaborative and open, consultative manner. We are able to 
reach an appropriate price with most landowners. And then we do 
have to go through courts just to clear title in some other 
cases. But that is going to be underway with the $38 million 
authorized in 2018 to do real estate planning in advance as 
well.
    So we will be pursuing this effort. We have got a great 
partnership with the Army Corps of Engineers, great support 
from our leadership in the Department of Homeland Security, 
including in management and their procurement expertise. And we 
intend to do it right and expeditiously.

                         BORDER SECURITY: GATES

    Mr. Carter. OK. A couple of questions.
    Those gates. We had an existing border wall, fairly 
substantial, but there were no gates. Have we got those gates 
in place now or are there still gaps?
    Mr. McAleenan. There are still gaps today. They are going 
to start going in place on October 5, 2018. It is not a 
challenge of actually buying and installing the gates. Again, 
that is the property acquisition challenge, because once you 
have those gates in, you have to fully acquire all the land 
south of the levee wall to the border. But that is underway 
now. We are going to be beginning installation in October of 
this year.
    Mr. Carter. Well, one of our sales pitches we made to the 
landowners is the levee is going to protect your other property 
from flood. And with those holes in it, it is not. And we could 
have a lot of egg on our face, since those have been up now for 
about 3 years and we still have gigantic holes in it.
    Fortunately, we haven't--at least I am not aware of the 
fact--that we have had any major flooding down there in that 
period of time. But we are in a hurricane alley. When those 
things come we will be asking, you did all this construction, 
we all cooperated, why did our land flood? We don't want to be 
in that business.
    I have been warning people since day one, you are dealing 
with a different world in Texas than you are dealing with the 
rest of the world. It is all private property except the Big 
Bend.
    And some of it, you are right, goes back to the Spanish 
land grants. And I have had to pull those titles apart. Even in 
my part of the world, I used to try these dang things, and I 
hated them, by the way. But I did. And they can be really time 
consuming.
    You are going to have to really get, high demand, get a lot 
of lawyers working, or you are going to be forever on doing the 
Rio Grande Valley. Just a friendly warning, because I tried way 
more than those than I ever want to try and there are problems.
    All right. Well, I have used up my time.
    Ms. Roybal-Allard.

                         ICE: PARENTAL INTEREST

    Ms. Roybal-Allard. Associate Director Albence, it currently 
came to my attention that on August 29, 2017, ICE finalized a 
new directive on detention and removal of alien parents or 
legal guardians. This supersedes the August 23, 2013, directive 
on facilitating parental interests in the course of civil 
immigration enforcement activities.
    Just a month earlier, the House Appropriations Committee 
reported the fiscal year 2018 DHS Appropriations Act to the 
House, along with House Report 115-239, which included the 
following language: ``ICE should ensure that field officers are 
appropriately trained on the requirements of ICE's parental 
interest directive and on mechanisms to reunite family units. 
ICE shall not rescind or change the policies contained in this 
directive.''
    While it is true that the House report language was not 
legally binding, can you explain to this committee the 
following? And I have three questions here.
    Why would ICE take this action just over a month after the 
committee made clear its interest in the parental interests 
directive?
    Second, why would ICE take this step without any kind of 
notification to the committee?
    And finally, can you describe the parts of the parental 
interest directive that were eliminated in the new directive 
and explain why they were not included?
    Mr. Albence. Thank you for your question.
    A lot of policies, obviously, when the executive orders 
were passed, required revision in order to align themselves 
with the requirements of the executive orders from the 
President. So we looked at all of our policies on a wholesale 
basis to determine which ones were in conflict with the 
executive orders and needed to be rewritten, which ones just 
needed some revisions, and other ones which needed to be done 
away with altogether.
    With regard to the parental interest directive, what we 
found during the review was that there was a lot of information 
in there that was duplicative of information that was in other 
policies that could cause confusion among our officers out in 
the field that actually have to apply those policies.
    So what we were doing, in addition to looking at the 
policies and making sure they are consistent with the executive 
orders, is to also ensure that the guidance that we are able to 
give our employees is clear, concise, and is able to be 
followed without confusion or conflict with other existing 
policies.
    So with regard to the policies, let me say what is the same 
in those policies. Both policies address the initial detention 
and placement of transfers. Both policies address visitation 
requirements and the processes for that. Both address 
coordinating the care of the minor children pending the removal 
of the alien parent, and as well as the recordkeeping 
requirements that are through this process.
    As always, the primary focus will be the safety and well-
being of that child. One thing that we added in this policy, 
which was not there previously, which we think is important, is 
how do we handle children and others that we come across during 
enforcement actions on the interior of the United States when 
we arrest a parent, taking enforcement action, how do we handle 
those children that may not have an appropriate parent or 
guardian that is able to be remaining at that residence to take 
care of this child.
    So we work very closely, and it lays out in that policy the 
directions that their officers must take to establish alternate 
accommodations for that child, generally with family members, 
friends, somebody that the parent--and the parent is involved 
in that process, is telling the officers who they want their 
children to go with.
    Only as a last resort would we have to go to something 
like, you know, a Department of Children and Family Services 
when there is no adult that the parent is comfortable with and 
that we are comfortable with from a safety perspective to place 
that child.
    Again, the Immigration and Nationality Act clearly 
recognize the heightened role of the parent and the 
responsibilities and sensitivities surrounding that, which is 
why the INA provides provisions for relief from removal for 
individuals that are parents. So an immigration judge can find 
and issue a cancellation of removal on an alien parent in 
removal proceedings, even if that individual has been found 
removable, to be in violation of the immigration laws.
    So we certainly throughout the immigration enforcement 
continuum understand and respect the parental rights. We have 
policies, and this policy in particular. We allow parents that 
have been removed, if they need to be paroled back into the 
United States, to attend a court hearing with regard to custody 
or other child welfare issues.
    Our parole policy already covers how that is done. So that 
was in the old policy. It specifically laid out what was done. 
It was duplicative of what is in our existing parole policy. So 
in order to streamline things and make it more user friendly 
for our officers, that part was taken out.
    It didn't take away their right to have parole or their 
ability to have parole to come in for one of these hearings. It 
is just covered by another policy, so it is duplicative in this 
policy.
    Ms. Roybal-Allard. Let me just suggest that perhaps in the 
future when a decision is being made, even if it is a directive 
from the President, and it is not consistent with language and 
directives from the committee, that I would recommend that you 
at least contact the chairman of the committee and inform them 
of decisions that are being made that do not reflect what has 
been put into report language.

                            CHILD SEPARATION

    And just very quickly, as a follow-up to what you were 
mentioning with regards to the children, there have been 
several stories in the press lately about the separation of 
families by both CBP and ICE. And I asked Secretary Nielsen 
about this during yesterday's hearing, and I want to raise it 
again here today.
    I understand that one of the reasons for separating minor 
children from a parent or guardian is the concern about the 
validity of a claimed familial relationship that traffickers 
may use to enter this country.
    What I would like to know a bit more about is the process 
for verifying familial relations or debunking these concerns, 
and what are the weaknesses in the process that have caused 
unjustified separations of parents from their children, as was 
the case with the Congolese mother that was separated from her 
7-year-old child for 4 months. I believe the mother was sent to 
San Diego, and the 7-year-old child was sent to Chicago.
    And it would be both for you, Commissioner, and for Mr. 
Albence.
    Mr. McAleenan. I can start, Matt.
    Thank you, Ranking Member.
    First of all, for CBP, the separation of a group that 
presents as a family unit is right now a very rare event. It is 
about 1.4 percent of all of these groups that show up at our 
border.
    And the first question you ask is, how do you determine 
family relationship? So this is done very carefully based on an 
interview of the individuals, based on processing with 
fingerprints, looking at records in our system, coordination 
with the consulate, coordination with other authorities in the 
United States.
    So when we make a determination to separate family based on 
the fact that we don't believe there is a familial 
relationship, it is generally based on admitted or clear fraud, 
from a CBP perspective.
    The other cases where there is separation when it is a 
family unit is if there is a criminal issue with the adult 
parent that needs to go through the DOJ process for 
prosecution. And that is, again, a very rare circumstance.
    So we have careful policies, supervisory approval, and it 
doesn't happen very often.
    Ms. Roybal-Allard. I know I have run out of time, so I am 
really more interested in understanding better what are the 
weaknesses in the process that would cause cases--because this 
isn't the only case we have heard of, of this Congolese mother 
being separated, where in fact at the end she was finally given 
a DNA test, 4 months later. What can be done to better ensure 
that these things do not happen?
    Because one of the big concerns is that psychiatrists and 
psychologists tell us and experts in this field tell us that 
the trauma that is caused to the child is very often not 
reversible. And so that is my concern. What can be done to help 
ensure that these things don't happen at the onset?
    Mr. Albence. Thank you.
    We obviously share your concerns. Our concern always is the 
health and well-being of that child, especially when they are 
in a position where they, themselves, did not choose to make 
that journey.
    One of the difficulties that we experience, and the 
Commissioner's officers experience it, but also comes on us, is 
that individuals don't have any documentation. They have 
managed to travel around the world with documentation, but by 
the time they come to us, that documentation has disappeared or 
has been thrown away or not used.
    So there is always concerns that somebody is trying to 
obfuscate their relationship or their identity when they appear 
without any sort of identification documents, which is why we 
work very, very closely with the consular officers.
    Without getting into any one case in particular, a lot of 
that hinges upon the cooperation with the consular officers. If 
we have an individual that presents themselves as a parent and 
there is questions with regard to that relationship and they 
refuse to speak to a consular officer from their home country 
for an extended period of time, it makes things difficult for 
us.
    Not only that, it raises a red flag. If this individual is 
generally this individual's parent, why would they not be 
taking every affirmative step to make sure that they could be 
reunited with that individual.
    So, unfortunately, it is a balancing act sometimes where we 
have to err on the side of the safety of that child. God 
forbid, we put them in the hands of a trafficker or somebody 
that is not their parent and they become victimized from that.
    That said, we are always looking at our policies and our 
procedures to ensure that they are as efficient and effective 
as possible.
    You mentioned DNA. That is something that we are looking at 
from a DHS-wide perspective as to how we can better utilize DNA 
in this process as well as our other enforcement processes that 
we have. And we would be glad to come back and give you a full 
briefing on that at another time.
    Ms. Roybal-Allard. Thank you.
    Mr. Albence. Absolutely. Great. Thank you.
    Mr. Carter. Dr. Harris.
    Mr. Harris. Thank you very much, Mr. Chairman.
    And I want to thank all of you for the job you do in 
enforcing the law.

                      ICE: IMMIGRATION ENFORCEMENT

    My first question, to the Commissioner and to Mr. Albence.
    Your agents are sworn law enforcement agents, is that 
right?
    Mr. Albence. Yes, they are.
    Mr. Harris. They are. So they believe, as every law 
enforcement officer I have ever talked with, they do believe 
they are actually--they exist to make America safe, to make 
communities safe. I imagine that is the way they feel.
    So I am going to apologize for the left-wing attacks that 
your officers had today on them. You know, you heard today that 
somehow their law enforcement effort is to make communities 
less safe.
    And I have got to tell you, those kinds of attacks on 
American law enforcement agents and officers has to stop 
because it doesn't lead to good things, as we are experiencing 
in Maryland where, of course, some of our police officers have 
come under attack and where we now have record murder rates in 
one of our cities, because, honestly, law enforcement officers 
get discouraged when that is what they hear from public 
officials. So I am going to apologize for that.
    Because what is really heartless would be letting MS-13 
terrorize Maryland communities. To my surprise, Maryland is the 
second most common active place for MS-13. Literally within 30 
miles of where we sit today, MS-13 runs rampant because we have 
not enforced our immigration laws in the past.

                         CBP: BORDER CROSSINGS

    Now, Commissioner, we heard there is no need for increased 
border funding because border crossings are down. But in fact--
are historic lows, I think that is what we heard today, are 
historic lows. But actually I think the border crossing in the 
past, in February and March, actually were higher than in two 
of the last 6 years. I think that we are actually seeing an 
increase in border crossings above levels that we have seen in 
the past decade. Is that correct?
    Mr. McAleenan. Yes, that is correct.
    Mr. Harris. OK. So, in fact, we are not at historic low 
border crossings. We are actually seeing a resurgence in border 
crossings, which I believe is because we are talking about 
amnesty once again. And believe me, look, I understand the 
economics of it. If America has open borders, you freely cross, 
you come here, you get citizenship, why wouldn't you cross our 
borders?
    So I personally feel that we not only need the $1.6 billion 
in that budget, we need far more to do it, including a wall.

                      ICE: IMMIGRATION ENFORCEMENT

    Now, Mr. Albence, your agents don't remove people who are 
here illegally, do they, unless they have committed a crime? Is 
that right? I mean, you don't go find people here illegally and 
remove them? I mean, my family is here illegally. I don't think 
you come knocking on our doors to remove us, do you?
    Mr. Albence. Correct. Our officers----
    Mr. Harris. OK. That is what I thought. I mean, look, these 
are simple questions. The fact of the matter is your law 
enforcement officers enforce the law.
    Now, people may disagree on what the law ought to be. That 
is fine. We live in a democracy. We disagree, we just go ahead 
and we make changes to the law if we need to. But we have to 
trust our law enforcement officers and support them when they 
enforce the law.
    Now, we heard about an impulsive decision on calling out 
the National Guard. The last President also called them out, 
but I don't recall the word ``impulsive'' being used then. 
Because ``impulsive,'' honestly, is a personal attack on our 
President. I get it. I fully get it. It doesn't belong in the 
national conversation. It doesn't do anything for us.

                         ICE: SANCTUARY POLICY

    Mr. Albence, do sanctuary policies which let local 
jurisdictions release prisoners knowing there are detainers--I 
have read that that could threaten the safety of your agents. 
Now, your agents have to go out, and instead of taking them 
into custody in a jail, which is a safe environment, they have 
to go into the community. Is that correct? Is that the 
impression of your officers?
    Mr. Albence. Yes, it endangers the safety of our officers 
and it especially endangers the safety of the community that 
they are being released back into.
    Mr. Harris. Absolutely.
    So talk about trauma, I mean, you know, and talk about 
trauma and who elicits trauma. I mean, my understanding is 
there is a Dreamer called Ivan Castaneda in Colorado last month 
killed a 57-year old. Now, that is real trauma. Then gets held 
in a Denver prison, and they don't contact ICE, and they 
release him into the community. That is the potential for 
trauma.

                              ICE: OPIOIDS

    Mr. Benner, did I hear you right that you have seized 2,000 
pounds of fentanyl last year?
    Mr. Benner. Yes, that is correct.
    Mr. Harris. 2,000 pounds.
    Now, I am an anesthesiologist. I know what fentanyl is. And 
I used it in the operating room last week. Most people don't 
realize that one-quarter of a milligram can kill you if it is 
injected IV, a miniscule amount. And I just did the 
calculation.
    I want to thank your agency for doing this because that 
amount of fentanyl, given as an intravenous bolus incorrectly, 
can kill 4 billion people. That is the amount of fentanyl we 
are talking about, that potentially crosses our borders. And 
you are the thin blue line that helps separate us from that. 
Literally, you have seized enough to kill 4 billion.
    This has got to end. And one of the ways it ends is through 
law enforcement.
    I just want to end by saying, look, thank you all for 
enforcing the law, and in the instance of seizing dangerous 
drugs like fentanyl, finding where they are coming from, saving 
potentially thousands of American lives. So thank you very 
much.
    I yield back, Mr. Chairman.
    Mr. Carter. The chair recognizes Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    One good thing about this committee, we do have different 
perspectives. I think we are all trying to reach the same 
thing, but we do look at things a little differently.

                          CBP: BORDER SECURITY

    For example, when we talk about crime, everybody points out 
to the border. But I think if you look at the latest FBI 
statistics, the crime level at the border is lower than the 
national crime rate. I don't have the exact number of Mr. 
Harris, but I can bet you that my city of Laredo has less 
murders per hundred thousand, less rapes per hundred thousand, 
less assaults per hundred thousand.
    In fact, if you look at Laredo compared to Washington, DC, 
the murder rate is much higher here than we have. And I think, 
lately, we have had more people jump the White House fence than 
some of the other fences that we have down there.
    So we do have different perspectives, and I appreciate that 
we are looking at it, but you just can't blame the whole fault 
on the border itself. And this is the point that we want to 
make sure that we understand.
    And I appreciate everything that you all do. I have been 
very supportive of the work that ICE does. And please say hello 
to Tom for me. And, Commissioner, again, congratulations on 
your appointment.
    But we do disagree on a couple things. I am happy that we 
got another, I think, 326, 328 CBP officers, and hopefully, you 
put them in the areas that we need them, the high traffic areas 
that we need them.
    When you are trying to stop drugs, understand that 
according to DEA most of the drugs come through ports of entry. 
So the moneys that we added for technology will be good for 
ports. The new CBP officers will be good. So we can stop the 
drugs coming in.
    They don't come in through--in between the ports of entry. 
I mean, the majority of them will come through the ports of 
entry. And we need to make sure we stop them other places.
    If we want to stop people from coming in, keep in mind that 
over 40 percent of the people that came in came through legal 
visas. So even if you put the highest wall or fence, they are 
either going to drive through a port, they are going to fly on 
the airplane, or they are going to come in by ship.
    So, again, we have to look at this comprehensively and not 
think that the wall, which is a 14th century solution, is the 
solution, the magical bullet, to everything that we are looking 
at.
    The reason I am against the wall is, one, the cost. It is 
expensive. One mile of technology compared to 1 mile of fencing 
is a big difference, maybe a million to one. It used to be $6.5 
million per mile of fencing. Now it is a lot more, depending on 
what prototype you want to follow.
    Private property rights. I am amazed how some of our 
friends have fought for private property rights, but it comes 
to the border, it is a different double standard itself. So I 
am a big believer on standard rights, on the private property 
rights.
    If you look at the terrain, we know--and I think all of you 
have been down to the border--it is hard. And sometimes you 
have to put a fence or a wall a mile away from the bank because 
of the terrain, the International Boundary and Water Commission 
standards, so you give away that.
    People have talked about the gates. What are you going to 
do about cattle and wildlife? Are you going to give them an 
automatic gate opener so they can go ahead and open the gate 
themselves?
    So there are a lot of issues we have to look at. But I 
think one of the most important things that we have to look at 
is what the Border Patrol chief has said, Bush, different 
chiefs under him, Obama, and even under the current one, under 
Trump. How much time does the fence actually buy you? The 
Border Patrol chief under Trump said, quote, ``A few minutes or 
a few seconds,'' unquote.
    And, again, I would rather have an awareness where you can 
have aerostats, cameras, sensors, enough Border Patrol.
    And as you know, Commissioner, we are actually losing more 
Border Patrol than we are hiring Border Patrol. We just put out 
a $296 million contract. I wish we would have used that to give 
our men and women a bonus or retention instead of losing our 
men and women that we are losing right now.
    So, again, we are all trying to do the right thing. We just 
have different perspectives. And, again, I don't want to get 
political, but November, we might have a different perspective 
after the November elections. We just don't know. So I just 
want you all to be flexible.
    And when you talk about those 8 miles in Starr County, my 
district, or you talk about the levee wall--and the levee wall 
is one of the issues that Senator Cornyn and myself and the 
county judge, we came up with that compromise under the Bush 
administration.
    The only thing I would ask you is take local input in 
consideration. I know we did the wildlife exemption. There is 
still a Bentsen Park that we like to look at. And, I mean, I am 
just saying, let's just take the local input, because the last 
time Washington came down marching through a wall back under 
the Bush Administration they were looking at cutting the UT 
Brownsville University in half. My joke was, are you going to 
take English and Spanish or English depending on where your 
classroom was at?
    So we just have to be a little bit considerate of the local 
population input as we put some of this security.
    Again, I have always said, I support security. I have got a 
border sheriff who is my brother down in Webb County. I 
appreciate the Hector Garzas and the Cabreras and David 
Higgerson, Jason, Mr. Owens down there, Manny Padilla. You have 
got a lot of good people. Janice, Eliza. You have a lot of good 
people.
    All I am saying is you have got to take some of our 
communities into consideration as you do this. We just can't 
have Washington, big government, come down and say: We know 
Starr County better than you do. We know this better than you 
do. Just take the local communities in consideration.
    I will come back on the second line of rounding so I can 
hear your answer.
    Mr. Carter. I would have given you more time, Mr. Cuellar, 
but you never asked a question.
    Mr. Cuellar. Well, Mr. Harris got----
    Mr. Carter. But you preached a good sermon while you are at 
it.
    Mr. Cuellar. Harris has a way of getting people excited.
    Mr. Carter. He is a good guy.
    Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman. And I will try not 
to make that mistake. Thank you for having this hearing, both 
you and the ranking member.
    Gentlemen, thank you for being here with us this morning. I 
have got to say that you are tasked with one of the most 
difficult and most important jobs that we have in this country, 
keeping our homeland safe. And I just appreciate very much all 
of the efforts that you and the people that you represent that 
stand behind you make on our behalf. So thank you from the 
American people.
    Director Albence, I represent the State of Washington, part 
of the State of Washington, in the central part of the state, 
which is a rich agricultural region. Agriculture is the biggest 
economic driver in my district. We pride ourselves on the 
number of different crops we raise and the variety of different 
things that we raise.

                  ICE: WORKFORCE COMPLIANCE TARGETING

    Just in the last couple weeks, I held a farm bill listening 
tour, tried to touch base with as many of my producers as I 
could in every single county. And the conversation quickly went 
to probably one of the issues that are at the top of their 
mind, it has to do with our labor force and the severe crisis 
that it is in.
    One of the solutions that has been is to utilize the H-2A 
program, the agricultural guest worker program. And just the 
last couple years H-2A workers, not just in my State, but 
throughout the country, are record numbers. I think that the 
numbers have nearly quadrupled. I think we are bringing in 
something this year over 30,000 just in the State of Washington 
alone. But it is still, interesting, not enough to meet the 
needs of the agricultural economy.
    So let me just relate to you some of the things that my 
producers are telling me. Because of the broadening enforcement 
efforts by ICE, ``targeting'' is the word used many times, even 
legal workers and legal farmers, people are in a place where 
they think they are being targeted.
    And I have continued to work with my colleagues in the 
House of Representatives and the Senate to try to find 
solutions to our immigration issues. That is on us. And we 
fully accept that responsibility and we continue to work with 
the administration and others to fix that.
    But, like I said, growers in my district, as well as around 
the country, have said that even with a legal work force they 
are feeling that they are being unfairly targeted and become 
ground zero for ICE raids because of their workforce, which 
makes it tougher to grow the food and fiber that we need.
    So with that premise, the continued targeting of 
agriculture, it is not going to fix a system that is broken, 
which has truly become a bureaucratic nightmare. It is not 
going to address the needs in farm country. If you added 
enforcement actions to existing delays in the H-2A program, 
which is outdated and bureaucratic, along with food and labor 
shortages already, just more problems are added on to an 
already dire situation.
    Many in AG see that ICE is looking for a pretext by 
targeting agriculture. And true or not, I wanted to express 
that to you. We can't see another year of crops going unpicked. 
It is costing agriculture millions and millions of dollars 
around the country.
    Now, I fully appreciate the work that you do, and I 
listened intently to the comments that you made as far as your 
mission, in fact, and I read with great interest the mission 
statement that is in your biography, too: ``Identify arrest, 
remove aliens who present a danger to national security or a 
risk to public safety.'' And I applaud that. And we want to 
give you every single resource that we can to make sure that 
you can fulfill your duty and your mission. But we have scarce 
resources.
    Could you explain to us what your priority is? And help me 
understand the dynamic here, the feeling in AG country versus 
your stated mission of finding those that are a threat to 
national security and a risk to public safety. Could you talk 
to me about that, and maybe your view, is the administration's 
enforcement policies, are we fighting against ourselves when we 
don't have a comprehensive immigration reform system?
    Mr. Albence. I will briefly answer your question, then I am 
going to pass it over to Mr. Benner here, because he controls 
worksite enforcement. And I think that is kind of where you 
were going with that.
    I will tell you from the ERO perspective, we do do targeted 
enforcement operations. We don't do raids. When we go out to 
make an arrest, we know who we are going to arrest, we know 
where we expect them to be, and we also, when we have the 
available intelligence, also know who else might be there with 
them.
    So we exercise all due diligence to ensure that if we are 
going after an aggravated felon, somebody who has a weapons 
violations or an aggravated assault with a deadly weapon or is 
a pedophile, that we make sure that the other individuals that 
might be present in that residence are not also posing a risk 
for the safety of our officers as well as the community.
    So we don't engage in raids. We do targeted enforcement 
operations, as I mentioned the statistics in my opening. And we 
can certainly provide you more.
    Mr. Newhouse. Yes, 74 percent have criminal records.
    Mr. Albence. No, 89 percent have criminal records; 74 
percent are actually convicted.
    Mr. Newhouse. Oh, very good.
    Mr. Albence. And then, absent those that are criminals, the 
other largest bucket of the individuals that we arrest are 
individuals that are fugitives, meaning they have been through 
the immigration court process, have had their day in court, 
have availed themselves of any appellate process they may 
choose to do so, but at the end of that process, they have been 
ordered removed by an immigration judge. We are going have to 
execute that removal order.
    And then those who have actually been removed and then 
illegally reenter the country, which, again, is a Federal 
felony, one that we prosecute significantly. And Commissioner 
McAleenan's people prosecute that case heavily along the border 
as well.
    So I will leave at that, and I will pass it over to Mr. 
Benner to talk about worksite.
    Mr. Newhouse. OK. Thank you.
    Mr. Benner. Thank you, sir, for the question.
    I want to be kind of clear in terms of the fiscal year 2018 
priorities and the worksite efforts that we have had this year. 
And we have said clearly that no industry is off the table by 
itself.
    And as a matter of fact, the surge operations that we have 
done in 2018 have not included the agriculture industry at all. 
We have actually been looking at, in Operation Backtrack, we 
have been looking at previous audits where we had some 
significant findings at that time. So we are looking to make 
sure that there is not a kind of a culture of illicit 
employment occurring again.

                         ICE: COMPLIANCE CENTER

    We have looked at, in particular, some of the building and 
trade industry at the smaller level in communities.
    One of our goals in talking about this compliance center, 
this centralized center, is to bring a sense of orderliness and 
efficiency to the audit process and centralize it for the whole 
country, so that we are actually able to create more of a 
culture of compliance through audits and fines as opposed to 
enforcement action.
    And what we want to do is have a regularized, reasonable 
expectation, similar to the IRS, that people, business owners 
could feel that we are going to look at their I-9 eligibility 
documents and we are going to audit them.
    And then from that, at the national level, we will be able 
to distill the actual most egregious violators on the national 
level and not on a town-by-town or county-by-county or 
industry-by-industry. We can actually look at the national 
level, like who are the worst. Because one of the top 
priorities for us when it comes to criminal investigations is 
the exploitation of unauthorized workers.
    Mr. Newhouse. So you are talking about worst employers 
versus employees, right?
    Mr. Benner. The worst employers, that have built a business 
model on unauthorized workers.
    And, typically, I will tell you my experience, is in many 
criminal investigations with these types of employers, the 
unauthorized workers are exploited in terrible ways. Wage 
earnings. Safety. Improper training. Improper equipment. They 
are treated completely differently than the authorized workers 
in all of those areas. And many of them will not come forward 
to report unsafe working conditions or injuries because there 
would be the fear of being let go and terminated.
    So that is one of the top priorities for HSI, the 
exploitation.
    I also want to remind, we have to remind ourselves, I 
think, too, is when we talk about worksite, is the collateral 
crimes that occur around an illicit employment scheme. Tax 
fraud. Identity theft. Bank fraud. The exploitation crimes that 
I just mentioned. The OSHA violations in terms of unsafe 
working conditions for employees. And the illicit payment 
methods that the most egregious employers use to pay the 
unauthorized workforce in cash.
    So our goal is to, having 10 years of experience kind of in 
the worksite realm, our goal is to take that work out of the 
field offices, create a centralized process that uses smart 
automation and uses auditors to execute that audit function on 
a national level and a risk-based model.
    Mr. Newhouse. All right. Thank you very much.
    I have gone way over my time. I apologize for that, Mr. 
Chairman.
    But thank you for your answers.
    Mr. Carter. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    And let me add my welcome to all of you. Thank you for 
appearing before the subcommittee.
    I want to pick up on Mr. Newhouse's line of questioning, 
actually, and maybe put it in a broader context.
    I have been on this subcommittee a long time. I have worked 
with Mr. McAleenan and other career employees for many years, 
been chairman, been ranking member. And so I am very familiar 
with this debate about enforcement priorities.

                ICE: REMOVAL ENFORCEMENT PRIORITIZATION

    So I am going to turn to you, Mr. Albence, and ask you to 
hopefully help me understand what is going on. I have supported 
efforts like the Priority Enforcement Program in the last 
administration, the idea being to prioritize the enforcement 
efforts on dangerous people. It is very straightforward and 
very simple. The best way to utilize limited law enforcement 
resources is to prioritize those who truly provide a threat to 
public safety and national security.
    Now, this isn't providing anybody a free pass, but it does 
assume that discretion must be exercised, will be exercised by 
enforcement authorities.
    Now, President Trump has claimed that he focuses on 
dangerous criminals. In fact, sometimes he seems to regard most 
immigrants as dangerous criminals. But he has made that claim. 
But it seems to me his enforcement efforts have been unfocused 
and sometimes arbitrary. And I will just give you a quick 
example.
    Inexplicable decisions regarding constituents that have 
little to do with any understandable exercise of discretion. I 
just have to say, in January, for example, during a regularly 
scheduled check-in with ICE officials in Atlanta, one of my 
constituents was arrested. He had been in the U.S. for 14 
years, had built a life in North Carolina, a prominent member 
of a local church, living with HIV, chronic kidney failure and 
diabetes. His only crime was overstaying his visa because he 
had a credible fear of political retaliation in returning to 
his home country.
    He checked in regularly with ICE for over 8 years under his 
order of supervision, was still fighting to receive asylum, but 
when he went to his appointment in January, he was arrested, 
and now he has been shipped out. He was an upstanding member of 
the community. Now he has been deported.
    The specific combination of medicine that he needs to fight 
his HIV, his diabetes, his chronic kidney disease, is not 
available, I promise you, in his country of birth.
    I contacted the Department and talked to someone, 
supposedly, in a position to do something about this. I fear 
ICE gave him a death sentence. And that was very clear at the 
time, I assure you. It is not something I am saying in 
retrospect.
    This is just one example. I can promise you that nearly all 
of my 534 colleagues could give you similar stories.

                      ICE: ENFORCEMENT DISCRETION

    Now, let's talk about discretion. Even at an accelerated 
rate, deportations are only a fraction of millions of 
immigrants here illegally. There will always be that situation.
    Therefore, there is always going to be discretion required 
in terms of immigration priorities. The President has said 
there will be priorities. Yet, sometimes Director Homan talks 
as though there is no alternative, no discretion. He once said 
he is simply following the law.
    We have all been around long enough to know that that is 
simply not the situation. There must be discretion. You are 
always going to be shipping out only a fraction of those who 
are here illegally.
    So the question is, what kind of discretion are we using? 
On what principle, on what basis are we doing this? I want to 
know that. I think we are entitled to know it. Isn't it true 
that discretion is inevitable? And what can you tell us about 
your current granting criteria in the administrative exercise 
of discretion? What is your order of removal strategy?
    Mr. Albence. Thank you for your question. And I appreciate 
the opportunity to get some facts out there about how we 
actually do our business, because I think there is a lot of 
misconception, especially in the press. There is a lot of 
sensationalization about what we do and how we do it.
    Mr. Price. Let me just assure you, I am not relying on 
press accounts. I am relying on firsthand experience. I am 
relying on an attempt to work with your agency in getting facts 
brought to attention that I thought warranted attention. So 
press accounts, whatever they may be, that is not what we are 
talking about here.
    Mr. Albence. With regard to how we conduct our operations, 
as I have mentioned, we do targeted enforcement operations. 
That does not mean that those individuals that are here 
unlawfully in the country that are either encountered during 
the course of those operations or at some point in the past 
were encountered at the border and placed into removal 
proceedings are not going to have the law enforced equitably 
against them. In order to establish fidelity to the immigration 
system, there has to be a consequence at the end.
    When an individual goes through the immigration court 
process, and if the individual claims credible fear, that is 
just the first step. They go in front of an immigration judge 
to make a determination as to whether or not an asylum is going 
to be granted.
    If the judge grants that asylum, that individual goes and 
gets their benefit and is never bothered by ICE again unless 
they commit some sort of criminal activity because they are 
here lawfully.
    We respect the decision of the judge in those cases. If 
that individual is denied asylum and ordered removed by an 
immigration judge, we also respect that decision. We have to be 
equitable in the way we do our business.
    So if we are going to respect the decision when an 
immigration judge finds in favor of the alien, we also have to 
respect the decision when the immigration finds in favor of the 
government when we prosecute that case. And if we don't execute 
that order at the end of that process, then we don't have a 
process.
    Mr. Price. All right. There are 11 million people who are 
vulnerable in the respect you are describing. Are you or are 
you not exercising discretion in choosing whom to detain, whom 
to deport in that large universe of people? Are you in fact 
prioritizing dangerous people? You claim to be doing that, but 
then turn around and also claim that you have no discretion.
    Mr. Albence. We are certainly prioritizing individuals that 
are national security and public safety threats, repeat 
immigration violators and immigration fugitives. But we are not 
doing so at the sole exclusion of other immigration violators. 
We are not going to turn a blind eye to somebody that we end up 
in contact with that has violated the immigration laws.
    Again, most of these individuals in these cases that have 
been here for a long time were arrested entering the country 
illegally in the first place. That is how they ended up in the 
immigration continuum.
    So we are just merely following through on the processes 
that have been established. And when the process is that an 
individual receives a removal order and we are required to 
execute it, we will do so.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Good morning, gentleman.

                           COMBATING OPIOIDS

    I have a two-part question. Yesterday, I asked Secretary 
Nielsen about the challenges fentanyl and other synthetic 
opioids are presenting to this country.
    First off, I would like to ask you, Commissioner McAleenan, 
how you are planning to utilize the $224 million for opioid and 
Non-Intrusive Inspection equipment. Specifically, what 
investments and technology are you wanting to prioritize?
    For Director Benner, I know Homeland Security 
Investigations has played an integral role in current 
interagency efforts for disrupting and dismantling TCOs. Our 
intelligence and situational awareness for cocaine is 
impressive. Are our efforts as mature when it comes to the 
organizations involved in opioid smuggling? And where do 
further investments need to be made?
    And, gentleman, I will ask for the most concise answers 
because I have two other questions.
    Mr. McAleenan. We have a robust, multifaceted effort 
against fentanyl, but I will focus on your question given the 
time.
    We really appreciate the boost in funding for Non-Intrusive 
Inspection technology. Fentanyl is coming through ports of 
entry on our land border, as well as through international mail 
and express consignment facilities. So we will be applying this 
funding on two types of technology.
    One, increasing our ability to detect it, especially in 
vehicles or in small packages. We want to increase the amount 
of vehicles that we are sending through inspection and increase 
the fidelity with which we can detect concealed narcotics in 
those vehicles, as well as small packages.
    The second side is the testing. The good doctor alluded to 
the high potency and risk of fentanyl. We want to be able to 
test it carefully to protect our officers, but also, as soon as 
we find out what it is, prioritizing those for controlled 
delivery with our investigative partners at HSI, U.S. Postal 
Inspection Service, and State and local, so that we can arrest 
the people on the U.S. side receiving those dangerous drugs and 
take effective criminal arrest and prosecution action.
    Mr. Fleischmann. Thank you, sir.
    Director Benner.
    Mr. Benner. Thank you for the question, sir.
    So we are grateful for the resources, the special agent 
resources that we got in fiscal year 2018 as an addition. And I 
can tell you that those resources are going directly towards 
the fight in fentanyl.
    For example, in certain parts of the country where we have 
the Border Enforcement Security Task Force, in partnership with 
the Commissioner's team, Ohio Border Enforcement Security Task 
Force and the one in Memphis at the mail hub, we are in 
lockstep with CBP in terms of the interdiction piece and then 
taking that next step, the investigation piece, to identify the 
illicit supply chain, and actually the other bad actors that 
are out there.
    Some of the investigative techniques we use lead us to 
additional criminal activity, and in certain cases, I am 
thinking of a case in Pennsylvania, one of the largest pill 
mill manufacturing operations in the State's history of 
synthetic drugs, of which the very high purity levels of 
fentanyl coming from China is an ingredient. And I can assure 
you, these aren't chemists that are making these pills there.
    The scariest part about this is, so we fight it on the 
border front, but we also fight it on the dark web and the 
illicit marketplaces.
    And the scariest part about this issue is, you don't need 
to know a drug dealer anymore. You can sit in your home, at a 
computer, download the onion router, get on the illicit 
marketplace, order these substances, pay for it using 
cryptocurrency or other forms of money service businesses and 
transfers, have it shipped to a PO box or an address, and wait 
for it to show up.
    The days of knowing a drug dealer on the street and 
conducting hand-to-hand deals, unfortunately, that is not 
prevalent in fentanyl. So we have to be laser focused on the 
cyber aspect as much as we do the border aspect.
    And I can tell you that, based on our resource 
prioritization model, for fiscal year 2019 we plan on 
dedicating, if the committee sees fit, a substantial number of 
those 300 special agents to the fentanyl fight and the MS-13 
fight.
    Mr. Fleischmann. Thank you.
    Well, it looks like, Mr. Chairman, my time is about up. I 
had a couple other questions, but I will pass. Thank you.
    Mr. Carter. Mr. Ruppersberger.
    Mr. Ruppersberger. Are we having a second round, Mr. 
Chairman?
    Mr. Carter. I hope to.
    Mr. Ruppersberger. OK.

                    BORDER SECURITY: NATIONAL GUARD

    Well, first thing, I want to make a statement first. This 
is not going to be a question. And I think it is relevant 
because it is an issue now, that the President has ordered a 
certain amount of National Guards to go to the border.
    I have been working on national security now in Congress 
for the last 15 years, and in my opinion, it is a waste of 
money for the National Guard to go to the border. And they are 
going to be just backup. That is not really where the issues 
are. Of course, we need enforcement, we need Border Patrol.
    And I believe very strongly that securing our borders 
should be a top priority. As a matter of national security, we 
should know who is coming in our country and who is not. But 
just as important as who, we need to know what is coming into 
our country.

                           COMBATING OPIOIDS

    As you know, Customs and Border Protection plays the lead 
role in stopping the importation of contraband, such as 
prescription painkillers, opiate analogs. These drugs are 
pervasive in all of our districts.
    I want to share with everyone on the committee and to you 
all, and you know these numbers, I am sure, how much worse the 
problem is getting.
    In 2013, Customs and Border Patrol seized 2.4 pounds of 
fentanyl. That is--4 pounds, whatever. In contrast, just last 
year, CBP diverted over 71,000 pounds throughout the country 
from the black market. And for this reason, our priorities in 
this budget should be stemming the flow of illegal narcotics, 
especially fentanyl.
    Dr. Harris stated how serious it is. As we know, it can 
touch your skin and affect you. Very serious. And especially, 
as it relates to our agents. It is 10 times more potent than 
heroin. So it is something we have to deal with.
    My question, and I will get to more specifics the second 
round, if we have it, Mr. McAleenan--and by the way, you have 
had a great future so far, and I am glad you are in your 
position. And you all have tough jobs.
    When you make the comment about you have to follow the 
order of the judge, that is very important and relevant, but we 
have a lot of issues here with 11 million people. And what 
Congressman Price was saying was very important.
    But you have certain jobs and we understand that. But we 
also ask for discretion and training to deal with the issue.
    First, my question is simple in this one, and then I will 
get to the facts later. What steps is DHS taking to stop the 
importation of highly potent, highly concentrated fentanyl?
    Mr. McAleenan. Thank you, Congressman, for an opportunity 
to elaborate on our strategy.
    At CBP, I commissioned a counter-opioid strategy early last 
year to really make our efforts more comprehensive and 
integrated across the agency. And so we are pursuing this along 
multiple lines. The first, I mentioned the two vectors for 
fentanyl, the land border ports of entry and the international 
mail and express consignment facilities.

                        COMBATING OPIOIDS: MAIL

    On the mail side, that growth has been explosive with e-
commerce, five-fold increase in the last 6 years in 
international mail facilities. That means at JFK, we can get a 
million parcels a day coming in through that mail facility.
    So the first thing we need to start with, as we do all of 
our enforcement and risk management at CBP, is good data, good 
information on what is in those shipments. So we have been 
partnering with the U.S. Postal Service to increase the amount 
of information on mail parcels coming into the U.S. And I am 
talking from under 10 percent a year-and-a-half ago to 65-plus 
percent now, thanks to U.S. Postal Service engagement with 
China, in particular, which is the primary source of fentanyl.
    And we are putting that to good use. We have already 
tripled our fentanyl seizures in the mail environment in this 
fiscal year from last year and that is based primarily on these 
targeted efforts with good data coming in.
    I mentioned in the response to the last question, the 
technology, being able to inspect it and test it better, and 
then partner with our investigative partners to actually do 
that controlled delivery to understand who is receiving it and 
then target the network and see what else they are trying to 
order from abroad.
    So we are trying to hit it from all of those angles--the 
information up front, the analysis of what is coming in, good 
technology to inspect an increased number of vehicles and 
shipments, and then good partnership with investigators.

                    BORDER SECURITY: NATIONAL GUARD

    Mr. Ruppersberger. We know the President has made it a 
campaign promise of securing the wall. But we also, and I think 
Congress understood it, he didn't get the money he needed, that 
it is more important to have technology working with the wall 
and the manpower to deal with it.
    Now, I only have like 20 seconds, so I am not going to get 
too far into this. But I started out by talking about having 
the National Guard, for whatever reason, and all the support, 
that they are just going to be support.
    Would it be better to have more DEA agents, since really 
drugs and fentanyl now and the problem of opioids is where we 
are, than it would be to have more National Guard? Or would you 
rather not comment on that?
    Mr. McAleenan. I think both investigative partners and 
extending our capability with increased surveillance by the 
National Guard is important. HSI is our primary partner for 
drug investigations on seizures at the border. DEA is a 
tremendous partner for us as well.
    But what the National Guard is going to do is bring in 
significant aviation assets that can close our gap for that 
surveillance piece at the immediate border. It is supportive, 
but it also tells us what is crossing so that we can interdict 
it more effectively.
    Mr. Ruppersberger. I just came from another hearing where 
we had the head of the National Guard and asked what the duties 
were going to be. It seemed to me that they are more 
administrative or support than anything.
    Is my time up or do I have 30 seconds?
    Mr. Carter. You are over.
    Mr. Ruppersberger. I am over. All right. I yield back. I 
will get into more detail on the second round.
    Mr. Carter. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today.
    Border security is absolutely national security. Thank you 
for protecting America, trying to keep our communities safe, 
trying to stop the flow of the drugs, the human trafficking, 
the gun trafficking, the foreign nationals from coming into our 
country.
    And so thank you. Thank you for doing your duty. The 
majority of the American people appreciate you following the 
rule of law and trying to protect our communities, States, and 
our Nation.
    I had another question, I hope I get to it. I am a member 
of the Mississippi National Guard. I am chairman of the 
National Guard Caucus. And I think the National Guard, as you 
mentioned, is going to be a huge multiplying force for your 
agency and for securing the border. Our national defense, our 
Active-Duty military could not do anything without our Guard 
and Reserves. I mean, they can, but to sustain operations.
    And so they are great for plug and play. So be creative on 
how you use them. Don't just have them guarding fences, doing 
fire watch, and things of that nature.
    I participated in joint task force missions on the border 
in the 1990s, doing just surveillance, communications, using 
our eyes and our ears and our brains and reporting back, and so 
feeding you the data to hopefully make intel out of it.

                        CBP: WORKFORCE STAFFING

    So with that, I would like to jump into some quick 
questions. CBP has two key missions: securing the border and 
facilitating cross-border commerce that powers the Nation's 
economic growth. And U.S. CBP officers are the most important 
border security and trade facilitation resources we have.
    However, to accomplish their mission, CBP needs enough 
agents and officers to be able to screen cargo, interdict 
illegal drugs and contraband, and make arrests, while moving 
legitimate commerce and passengers through our air, land, rail, 
and sea ports of entry.
    We have sat through many of these hearings together, and we 
know for a variety of reasons that the CBP officers are in 
short supply these days, which has created a national security 
and economic vulnerability that this Congress must address. CBP 
is critically understaffed and remains well below its 
congressionally mandated staffing levels by about a thousand 
CBP officers and nearly 2,000 Border Patrol agents.
    So I am curious if you have given any thought to 
potentially leveraging the private sector to alleviate some of 
the manpower shortages by allowing qualified private sector 
security screening experts to carry out day-to-day scanning and 
screening functions and image analysis, which would free up 
your officers to concentrate on their law enforcement and 
oversight missions. And I will leave that open to whoever wants 
to answer.
    Mr. McAleenan. I will specifically answer that question. 
And, obviously, happy to talk about many aspects of our hiring 
effort to get the right workforce out there.
    We have made progress. Last year, we hired almost 200 
additional CBP officers, and we expect to increase our 
performance this year through a number of efforts.

                  NON-INTRUSIVE INSPECTION TECHNOLOGY

    But in terms of your specific question, how are we 
leveraging private sector assets for functions like effectively 
reviewing scans from Non-Intrusive Inspection technology, we 
are actually leveraging the private sector heavily in this 
area, both to provide an ability to do an automated analysis of 
the vast majority of scans, that capability is increasing due 
to artificial intelligence techniques, but we have also been 
able to partner with industry.
    And we are currently rolling out an integrated viewer that 
can combine images from a variety of different technologies, 
produced by different manufacturers, and present a consistent 
picture for our officers and analysts. You are right. It 
doesn't have to be an officer or an agent to review that 
technology. It could be an expert hired for that specific 
purpose or contracted out, in some cases, to do a good analysis 
of that image.
    That is absolutely something we are pursuing. And we are 
going to have, if we have the appropriate specialties in our 
National Guard partners, we have requested support in some of 
those areas to help extend our capabilities as well.
    Mr. Palazzo. I mentioned to the Secretary of Homeland 
Security yesterday that DHS actually has a research, an 
experimental UAV facility at Camp Shelby, which is our Nation's 
largest National Guard training site in America.
    And so, this is one fight. Multiple agencies are going to 
be participating. You all are obviously the lead agency, but we 
have got the Coast Guard in South and Central America trying to 
interdict drugs and bad actors before they make it into Mexico, 
into the drug and whatever, the highway. Because if it is still 
correct, I mean, if it makes into Mexico, it is going to make 
into America. I mean, the resources that they have are huge.
    And I am just glad this President and this Congress and the 
American people are supporting us in investing in your agency, 
investing in your resources, which are your people and the 
equipment that you need to do your job and to be successful. 
The American people are with you.
    Good luck. And just let us know how we can continue to help 
you do your job.
    Thank you.
    Mr. Carter. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.

                      COMBATING OPIOIDS: DARK WEB

    And thank the three of you. I appreciate you being here. I 
appreciate what you are doing for the Nation. And please give 
our best to the men and women who work under you that are out 
there every single day for us. So thank you.
    I want to focus in on the dark web really quickly, you 
know, with Tor servers and things like that, of that nature, of 
course. How are you in terms of resources and personnel and 
technology and training to be able to combat illicit sales on 
the dark web? Are you hiring graduates through the HERO program 
to supplement the cyber workforce? And are you piggybacking and 
partnering with other agencies that may have better expertise 
in that regard?
    Mr. Benner. Absolutely. We are very proud of the HERO 
program. We have offered positions to over 100 of the graduates 
of the HERO program. We have two classes that we will be 
executing on in 2018, and we thank the committee for the 10 
positions, additional positions that we receive to place the 
HEROs into full-time positions.
    Here is the challenge. These are some of our best and most 
passionate mission executors that we have in HSI. And it is my 
belief that working in the child exploitation field is not 
something that we should expect them to do for a long period of 
time. We need to develop a career path for them to serve in 
that cyber world in another function.
    So what we would propose, and what we would like to work 
with the committee on, is positions such as a cyber 
investigator or a cyber intelligence analyst to continue to use 
the training that they have, which is up here, I mean they are 
certified forensic agents at that point, and to give them the 
career path to continue to serve in areas of high priority, 
which there is really no other higher priority than fentanyl in 
terms of the dark web. So that cyber investigator position, I 
think, would be a great career path for the HERO program.
    In addition, because of the direct hiring authority that 
ICE has and that HSI has, we would look to expand our cyber 
portfolio in terms of the cyber investigator position that is a 
non-law enforcement, non-6C position, but a full-time dedicated 
support kind of investigator that could add capacity and value 
to the ongoing investigations in the field.
    The second part, sir, which I am glad you mentioned, was 
the face of mission support to special agents and criminal 
investigators has changed. Obviously, we have gone well beyond 
the kind of clerk typist, data entry, technical enforcement 
officer to some degree. Now our agents actually need computer 
scientists and data scientists to work side-by-side with them 
when they are doing these dark web, cryptocurrency 
investigations, because of the sheer amount of data.
    So that would be another area where we would like to come 
back and talk to you about what that looks like for our cyber 
program.
    Mr. Taylor. Two things. And I am time constrained. But on 
that note, are there partnerships with other agencies that may 
have an expertise already that you can piggyback on?
    Mr. Benner. So we are continually--we had a great meeting 
yesterday with NPPD. Obviously, part of DHS, very engaged in 
the cybersecurity and the cyber intrusion work. They have a lot 
to offer our cyber program as well.
    So we are continually working with assets within the 
Department. You talk about working together. We have launched a 
training program to take the dark web and cryptocurrency cyber 
training on the road to our State and local partners.
    So we have trained over 1,200 State and local officers 
since the President announced the executive order on the opioid 
crisis back in October, I believe. That is going to continue 
throughout the year. We are going to move across the country 
and keep working with our partners.
    The goal there is to build capacity and share expertise in 
cyber investigations and dark net investigations.
    Mr. Taylor. One other quick thing, I think, on a note on 
that. Thank you. And I would love to work with you guys, if at 
all possible, if there are necessary authorities or the need to 
be able to help deal with any silos that might be there in our 
whole apparatus.

                  COMBATING OPIOIDS: CHINA PARTNERSHIP

    Last thing. You guys do a great job in places like Latin 
America and going past the border, of course, where the start 
of some of this stuff is coming, as opposed to just trying to 
get it when it is here, which you do that as well.
    On the fentanyl and on the opioid--and, of course, like you 
said, the partnership that you have with the U.S. Postal 
Service, and what is it, three times the increase of seizures, 
if you will--are you talking and having partnerships or is it 
happening at all in China with their authorities as well to be 
able to deal with the fentanyl where it is coming from, in 
China, like we do in Latin America?
    Mr. McAleenan. I can comment. And if Derek, to the attache 
there, wants to add a point.
    I have talked to Ambassador Branstad about this issue. He 
is obviously on board with the President's focus on countering 
fentanyl. It is one of his top three priorities in engaging the 
Chinese Government.
    We have seen at our level the customs-to-customs 
collaboration increase given the growth of e-commerce. We are 
sharing information, where appropriate, on illicit fentanyl 
distributors so that we can address that with the Chinese 
Government.
    Mr. Taylor. So they have been cooperative?
    Mr. McAleenan. Increasingly. That data increase, that 65 
percent, that is coming from China post and increased 
electronic information sharing.
    Mr. Taylor. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. OK. We are going to start a second round. We 
are going to be on a pretty tight rein on this, although I am 
going to give everybody a chance to go one more time.

                  ICE: TARGETED ENFORCEMENT OPERATIONS

    I have just a personal comment. I was sitting here thinking 
about the comments about when you run across somebody in a raid 
that has violated the law or failed to appear for a hearing. 
Every criminal day I ever held over a 20-year period of time, I 
forfeited bonds and issued alias capias warrants, pick up 
people who had failed to appear. And if I had ever had heard 
that one of my officers that answered to our court had failed 
to, when he stumbled across one of those people, to arrest 
them, I would have been extremely unhappy with them.
    You can't expect people to make a choice as to which laws 
they are going to obey and not obey. And I think it is not even 
an argument that the highest no-show rate of any courts in 
America today are at our immigration courts. It clearly wins 
the world championship for no-shows. So I think it is 
appropriate when you run across those people who have been a 
no-show for officers to do their duty.

                          ICE: DETENTION BEDS

    I want to talk about ICE detention beds. We have been 
trying to keep up with ICE detention beds. I totally support 
ICE on detention beds. I think it is a deterrent. I think it 
serves a lot of purposes besides deterrence.
    But we look at it, right now this would be an increase, 
what you propose is an 11,480-bed increase of adult detention 
beds. And I support your mission. And I had a number higher 
than we came up with in the 2018 election, but through 
negotiations that changed.
    Now, you have developed, I think, a pretty good model. You 
have told us about it. Does your model indicate 52,000 beds is 
still a correct number? Because we had that number last time as 
a suggested number. Why are you confident that the associated 
costs are accurate for the fiscal year 2019 budget? That is 
important. And we need to know how much this is going to cost 
us.
    Please explain the assumptions used to develop the 
apprehension numbers and whether they are still valid today. 
And please explain the policy changes you have or will put in 
place and the assumptions used to develop this number and are 
they still valid today.
    Mr. Albence. Thank you, Chairman. I appreciate the 
opportunity to explain our forecasting model.
    We have worked very hard over the past couple of years with 
this committee, and especially your staffers, to help develop a 
very consistent, logical, transparent model to help project 
detention space requirements.
    That is something that your committee made loud and clear 
to us over the past several years that we need to do a better 
job of, and our new model, I think, does that. It was used 
extensively during the fiscal year 2018 budget negotiation 
process, where there was a lot of requests from us for 
additional data.
    This model is--obviously not getting into the science of 
it, because that is over my head--but it considers all sorts of 
variables, to include averages, trends, seasonality effects, 
looking at historical data, as well as what is happening today.
    So a lot of these models--and, obviously, we built this 
several years ago, which is why your question is so pertinent--
is that the models and what we forecast back then still holds 
true today, the impact of both ICE arrests, CBP arrests, the 
requirements that we have in order to detain these individuals 
before the hearing so we don't have another 50,000 fugitives 
added to our 540,000 backlog.
    But the best part about the model is it allows us to factor 
in operational changes, things like migratory patterns and 
surges, jurisdictional cooperation, increased enforcement. So, 
for example, when we forecast this model 2 years ago, we had 3 
287(g) partnerships. Right now we have 76. We will have 79 by 
the end of this year.
    And not all those are even operational yet. Right now, only 
40 of those are operational because they have been recently 
approved for partnership. They have to get trained, they have 
to do the background investigation on the officers.
    But that is going to lead to a significant increase in 
arrests coming out of the Criminal Alien Program because those 
individuals are going to be able to screen 100 percent of the 
people that get arrested in those jurisdictions.
    Not only that, it is a force-multplier benefit because our 
own officers, our deportation officers that are right now 
working those jails, are going to be able to redeploy to either 
other facilities, to do additional at-large apprehensions, to 
work on things like the docket, to move that docket along 
faster, and also to take people off the nondetained docket and 
put them back into custody so we can effectuate removal.
    Mr. Albence. So, yes, we expect that this number is going 
to put us right where we need to be for fiscal year 2019.
    Mr. Carter. Thank you.
    Ms. Roybal-Allard.
    Ms. Roybal-Allard. Let me begin by saying that I agree with 
you and my colleague, Dr. Harris, that we should take into 
account the concerns of sworn law enforcement officials and 
respect the dangerous situations that they face every day.
    However, based on the rhetoric of this administration, it 
seems not to appreciate the concerns that many State and local 
government and law enforcement officials have regarding their 
more direct association with Federal immigration enforcement 
efforts and how it undermines their safety and that of the 
public, which becomes increasingly more fearful of reporting 
crimes and cooperating with criminal investigations.

                      SANCTUARY STATES: CALIFORNIA

    As you know, California has declared itself as a sanctuary 
State. And I would like to read the directive from the 
California Department of Justice and ask you to highlight where 
you see there are weaknesses that cause you then to go into the 
interior, as I understand it from Director Homan, to go after 
criminals as a result of the State being a sanctuary State.
    The guidance states that: California law enforcement 
agencies can notify ICE and transfer custody of an individual 
to ICE if the individual has been convicted at any time of a 
serious or violent felony or a felony punishable by 
imprisonment in State prison, has been convicted within the 
past 15 years of certain other types of felonies, or within the 
last 5 years of crimes punishable as either a felony or a 
misdemeanor, is a current registrant on the California sex and 
arson registry, has been convicted of certain Federal 
aggravated felonies under the Immigration and Nationality Act, 
or has been identified by ICE as the subject of an outstanding 
Federal felony arrest warrant for any Federal crime.
    The guidance also makes clear that California law 
enforcement officers must be allowed to communicate with 
Federal immigration authorities about the citizenship or 
immigration status of individuals in their custody, as required 
by Federal law. So, that is the directive.
    So my question to you is: Where are the weaknesses in this 
that cause you or ICE Director Homan to say that, because of 
this directive, California is endangering the lives of ICE 
officials and the community because you are then forced to go 
into the communities, when it clearly states here that felons--
well, I don't want to go through the list again--that law 
enforcement should be notifying ICE under these conditions?
    Mr. Albence. Thank you. First, I think it speaks volumes 
that the California Sheriffs' Association came out strongly 
against the policies and laws that were enacted in the State 
because they felt that it undermined public safety.
    While there are some categories, as you listed, where we 
can get some cooperation, there are a vast number of categories 
where we don't get that cooperation.
    Ms. Roybal-Allard. Can you highlight them? Give me a few, 
because I am running out of time.
    Mr. Albence. I can say when we do our work--again, as I 
mentioned, I don't want to beat a dead horse with regard to 
targeted enforcement--but we don't do random arrests or stops 
of individuals on the street. We are going after a particular 
individual. In order for us to do that and to obtain an arrest 
warrant for somebody, we have to determine two things: alienage 
and removability.
    Part of that determination in many, many cases is going to 
require a personal interview. As was very public in the press 
and the sheriff was very vocal about it, we got turned away 
down 10 days in a row going to the Santa Clara County Jail to 
talk to people that are incarcerated that we need to make a 
determination as to whether or not, one, they are an alien or, 
two, if they are removable. So if we can't even get into there 
to make that----
    Ms. Roybal-Allard. Let me stop you there to say that on 
both sides we can cite circumstances where laws or policies 
haven't been followed. What I am asking is, what are the 
weaknesses in the directive? What should be added in order to 
address your concerns in a way that also addresses the concerns 
of many of our locals like the Los Angeles Police Department 
and others who have concerns about a more expanded association 
with ICE? I am trying to find this out so that I can then talk 
to them and see if maybe we can find some consensus.
    Mr. Albence. Right. And we are not asking any law 
enforcement agency to enforce immigration law. We are asking 
for the same access to information that any other law 
enforcement agency should have access to. For example, we used 
to have access to the California gangs network. We no longer do 
as a result of this law. That is a huge public safety risk. We 
arrested over 5,000 gang members and associates, just in a year 
alone, not to mention close to 5,000 that HSI arrested last 
year. If we don't have access to information as to who is a 
gang member and where they might reside or who they might be 
with, that is certainly a safety risk for our officers, 
clearly, who used to be able to run background checks on an 
individual before they go knock on a door and know that he is a 
gang member. And now they are going there flying blind. That is 
clearly an officer safety risk.
    Ms. Roybal-Allard. Primarily right now you are talking 
about the gang network.
    Mr. Albence. I mean, there are so many loopholes had in 
that law with regard to what we can access and the type of 
cooperation that we receive. I would say that the chilling 
effect has been on the line officers within the law enforcement 
agencies in California that would love to help us get these 
public safety threats out of their community, but are afraid to 
do so for fear of reprisal from their management and their 
agencies. That is the chilling effect.
    Ms. Roybal-Allard. Well there is definitely a differing of 
opinion between different law enforcement agencies in 
California.
    Mr. Carter. Mr. Fleischmann.

                  LICENSE PLATE READERS: MODERNIZATION

    Mr. Fleischmann. Thank you, Mr. Chairman. The CBP uses 
high-accuracy license plate readers, LPRs, at 650 privately 
owned vehicle lanes at land ports. It is my understanding that 
the current models are aging and soon will require replacement. 
This committee has instructed CBP to pursue LPR modernization, 
including in the fiscal 2018 omnibus.
    What is CBP's plan to finally modernize LPRs at the ports 
of entry?
    Mr. McAleenan. Thank you for the question and the 
committee's support for additional funding to modernize our 
LPRs. It is a critical tool not only to identify potential 
security threats that we need to target for greater inspection 
at a port of entry, but also potential risk to our officers. So 
we appreciate that support.
    We received a significant boost in the fiscal year 2018 
enacted that is going to allow us to buy new, modernized 
equipment and also extend the number of lanes we cover both at 
ports of entry and border checkpoints. We have asked for 
continued investment in the fiscal year 2019 budget to continue 
that process.

                     MOBILE SURVEILLANCE CAPABILITY

    Mr. Fleischmann. Thank you, sir. One final question. I have 
been hearing increasing praise for the mobile surveillance 
capability. Most recently, it was brought to my attention that 
the MSC was deployed to an incredible extent in Puerto Rico, 
where it was repurposed for coastline surveillance.
    Have you considered further use of MSCs for U.S. coastline 
or employing them against the relocateable surveillance system 
maritime requirement?
    Mr. McAleenan. Yes, Congressman. You referenced a specific 
successful pilot we had in Puerto Rico with the MSC identifying 
potential small boats out to 13 kilometers and beyond. It 
worked very well for us. We do think it is an important tool as 
part of our surveillance capability overall. We can use it in 
other coastal environments in south Texas and California as 
well.
    We do have investment requests in the fiscal year 2019 
budget for continued MSC truck capability.
    Mr. Fleischmann. Thank you. And I want to thank each and 
every one of you all for your outstanding service to your 
country. You have a difficult job, difficult mission, and you 
have got the support of Congress. Thank you sir.
    Mr. Carter. Mr. Cuellar.

                         BORDER SECURITY: CRIME

    Mr. Cuellar. Thank you, Mr. Chairman. Again, I am at a 
perspective, but I will ask some specific questions.
    As you do your work, I just ask you to put everything in 
perspective in the sense that if we look at the border, it is 
not the way people perceive it to be. I know we have got 
issues, and we are working, and we want to be supportive. But 
if you look at the FBI stats on comparing violent crime rates 
on the Texas border to other cities, the national crime rate is 
386.3 per 100,000. That is the national rate. If you look at 
McAllen, it is 151 per 100,000, which is below the border rate. 
The national rate, Del Rio, is below that. Laredo is below 
that.
    And just to pick a couple of cities, let's say Milwaukee, 
Wisconsin, where one of our leaders is from, the violent crime 
rate there is 1,533, way over the national average; or, if you 
look at Bakersfield, California, it is 480, way over the 
national rate; or--and I don't see my colleague from Maryland, 
but if you look at the Maryland figures also, let's say 
Baltimore, it is 6,619 violent crimes per 100,000, compared to 
my city of Laredo, 362 per 100,000.
    So it is all a matter of perspective. To say that this is 
the fault of immigrants or other issues like that, we have just 
got to make sure we temper that; that we don't fall prey to 
emotion or prejudice that we might have.
    So I just ask you, as you do your work, just keep that in 
perspective.

                       ICE: WORKFORCE COMPLIANCE

    I would ask you a couple of things. Mr. Benner, I really 
appreciate that when you are looking at the I-9, it is more of 
a compliance. Enforcement is important but it is more of a 
compliance. In fact, my office is working with your office in 
San Antonio, Laredo and McAllen, working with the Texas 
Association of Restaurants and the Chambers to bring you 
restaurants. I think we are setting that in a couple of weeks, 
so I want to thank you for that education so we can make sure 
our businesses are in compliance. If they are bad apples, you 
go after them, but I think a lot of them are just trying to 
comply with the law. So I appreciate what we are doing in San 
Antonio, Laredo, and McAllen.

                          ICE: JUDGE WORKFORCE

    Mr. Albence, I appreciate also, yesterday, when we were 
with the Secretary, I asked her, we added 55 immigration judges 
a couple of years ago. We added 10 last year. We added 100 now. 
One of the things I have asked that I asked the Secretary and 
she agreed with me yesterday was that we have got to get those 
judges to the border. Sometimes judges want to be in New York, 
they want to be in Chicago and big cities, but I think if you 
are going to have the activity at the border, you have got to 
have those immigration judges. We ask for judge teams to make 
sure we have them. I agree with you, we have got to have those 
attorneys from the Department of Justice and make sure we have 
everybody there.
    The last time I talked to Mr. Homan and James McHenry, we 
need to get office spaces for the judges. So we are trying to 
get a couples judges in Laredo, a couple in McAllen, and we 
have got to get them to the border and not away from the border 
so we can provide justice.
    Like you said, if a judge says you stay, you stay. If a 
judge says you go, then you deport them. But we have got to 
have those judges, and hopefully we can follow up on that 
conversation.

                           CBP: PORT OF ENTRY

    The last point I would like to bring up, Commissioner, is 
what we talked about in Laredo. As you know, the committee 
added language to make a proof of concept the World Trade 
Bridge port of entry in Laredo, which is the largest land port 
that we have, second in the country, after LA, total trade. LA, 
then it is Laredo. Fourteen thousand trailers a day.
    So we have got to make sure, following the line of what the 
gentleman brought up a few minutes ago, we have got to make 
sure we have the latest technology to do that. But it is not 
only at the port of entry.

                        CBP: BORDER CHECKPOINTS

    This is, Commissioner, where my question will come in, but 
also the Charlie checkpoint which is outside of Laredo. If you 
will look at that Charlie checkpoint, that Border Patrol 
checkpoint, and just look at the number of trucks, it would be 
the fourth largest port of entry, if you would just look at 
trucks.
    My opinion, and I think we talked about this, the Border 
Patrol needs some assistance from CBP, because they are still 
doing things that CBP was doing 25 years ago. They are trying 
to stop every truck. They can't do that every time. They have 
canines.
    We saw what happened when they had an empty truck that took 
100 migrants and some of them died in San Antonio. So we have 
got to make sure that as we do that proof of concept, that we 
also look at Border Patrol checkpoints. And I appreciate your 
thought on that.
    Mr. McAleenan. So, first of all, I agree very strongly with 
the investments and the potential for capability to facilitate 
truck traffic at our World Trade Bridge and also through the C-
29 checkpoint up the road. I think that is one of the promises 
of a unified border security agency that we haven't fully 
realized, is that collaboration and applying the best advanced 
techniques from ports of entry to Border Patrol checkpoints and 
some of the best advanced techniques from border patrol 
operations back to the ports of entry. I know David Higgerson 
and Chief Owens in Laredo are very focused on that 
collaboration. We have some ideas coming forward in modernizing 
the World Trade Bridge that can apply at the checkpoint.
    I thank you for the question.
    Mr. Cuellar. Thank you, sir.
    Mr. Carter. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.

                         CBP: TRADE ENFORCEMENT

    When most people think about customs and border protection, 
they think about border security. But I know we would agree 
that CBP has a tremendous role in the facilitation of trade. 
For years, I have been saying I am all for or free trade, but I 
am also for fair trade.
    Within my district, shrimping and lumber are very important 
industries that are impacted by antidumping and countervailing 
duties. Many companies that engage in unfair trade practices or 
attempt to get around these duties operate as shell companies, 
dumping their goods into the U.S. before disappearing and 
reinventing themselves down the road.
    I am hoping you all are prepared to answer this, but I have 
been told that the CBP's Office of Trade is working on a 
project with a number of industry leaders to evaluate the use 
of third-party data, cognitive computing, and big data 
analytics to address these challenges, as well as others 
identified within the Trade Facilitation and Trade Enforcement 
Act. I know we are in the middle of that pilot now. Is it 
possible anybody can provide me with an update?
    Mr. McAleenan. Sure. I appreciate the question. Managing 4 
trillion in trade crossing our borders and ensuring we address 
trade enforcement issues like antidumping and countervailing 
duties, the two industries you mentioned, are subject to a lot 
of evasive or fraudulent trade practices that we absolutely 
need to address as a team, both identifying at CBP, auditing 
it, and coordinating with investigative partners like HSI to 
take action.
    You mentioned the pilot to use big data. Our position at 
the border requires us to collect a lot of information from a 
regulatory perspective, but we also serve as a single window 
for the other departments and agencies that have enforcement 
responsibilities for trade crossing our border.
    So, with CBP is that single window with the automated 
commercial environment. That presents a great opportunity to 
use advanced techniques, advanced analytics, artificial 
intelligence to look at that vast array of data to train it to 
identify fraudulent practices and address it more aggressively.
    So we are in the very early stages just structuring that 
data so it can be tested appropriately against the algorithms 
in the big data approach. We will come back to you and brief on 
the success of that. It is something that we want to 
collaborate closely with HSI on, as well.

                          COMBATING NARCOTICS

    Mr. Palazzo. Well, please do. And thank you for that 
response. I know one of my colleagues touched on it. You were 
talking about, although we know the seizure of drugs is up, it 
is also more drugs are trying to find its way into America. So 
it is obvious your seizures are going to be up.
    But when we are discussing legal ports of entry, can you 
tell me what are some of your biggest blind spots? With the 
funding that we are providing you, how are we going to address 
trying to--again, my colleague said it well--incorporating 
technology to help identify drug smuggling and other things 
that are coming through our legal ports of entry?
    Mr. McAleenan. For ports of entry and interdicting 
narcotics--I will focus on the land border port of entry--this 
is really four sources for a successful interdiction: good 
intelligence or investigative leads from our partners or our 
own targeting units, nonintrusive inspection technology that 
detects an anomaly in a vehicle, the canines that we have 
deployed in pre-primary that are very effective tools for us, 
and then a good officer inspection asking the right questions, 
looking for something that doesn't make sense. Those are the 
four sources.
    They really find narcotics in roughly equal balance. The 
place that we think we can make a huge impact with further 
investment--and that is why the 18 Enacted is such a big deal 
for us on the NII, given the developments in multi-energy 
portal technology, we can keep a truck driver in the cab in a 
health-safety posture, but then have a really thorough 
interrogation of that trailer. The same thing for passenger 
vehicles: getting a good, clean image of that passenger vehicle 
without slowing it down and removing the driver through portals 
that can scan that traffic with the travelers in it.
    Expanding the percentage of traffic that we can inspect 
through NII is the number one next step that we think we can 
take to enhance our drug interdiction at ports of entry, and 
that is why the support of this committee has been very 
helpful.
    Mr. Palazzo. Well thank you for that response. And again, 
thank you for what you do. And please tell the people that work 
with you and under you that we appreciate what they do day in 
and day out. And their families as well. Thank you.
    Mr. McAleenan. Thank you.
    Mr. Carter. Mr. Ruppersberger, I am sorry, Mr. Price.
    Excuse me Mr. Price.
    Mr. Price. Nice try Dutch.

                     BORDER SECURITY: APPREHENSIONS

    Thank you, Mr. Chairman. Let me first clarify this earlier 
discussion we had about the case I cited and other cases like 
it. This was not a case of someone not showing up for a 
scheduled procedure or a required hearing or anything else. 
This is someone who did show up.
    This is increasingly what I am seeing in cases that come to 
my attention. These are people who do show up. They check in 
faithfully with ICE, under an order of supervision, and they 
are picked up at that point.
    This seems to be something new. That is why I ask about it. 
It doesn't follow any plan or prioritization of danger to the 
community, that I can see. That is why I would appreciate any 
further clarification anyone can offer on this.
    The case I cited is a very dramatic case, just a totally 
inexcusable case, I think, but I am afraid there are others 
like it. Let me turn to the question of border crossings and 
asylum.
    Mr. McAleenan, I heard it said earlier that border 
crossings have begun to rise somewhat in the past 2 months, but 
it is true, isn't it, that they reached historic lows in 2017, 
and are still well under the peaks experienced in previous 
decades. So that needs to be put in perspective.
    And anyway I think we need also to ask: Who are these 
people who are arriving at the borders? Large numbers of them, 
I know, are seeking refuge from poverty and physical danger in 
their home countries, especially the triangle countries of 
Central America. And isn't it true that a number of these 
people are seeking out CBP agents, not trying to evade them? 
They are turning themselves in. They are trying to claim 
asylum.
    So it does raise the question about whether this is a 
question of border security at all.
    What does the National Guard have to do with this? What, 
for that matter, does a fence have to do with this? Shouldn't 
we be asking ourselves how to best deal with this issue of 
rising asylum claims also? Before he was in this 
administration, General Kelly used to argue that we needed to 
pay attention to the conditions in these home countries and 
what is driving people out of these countries in the first 
place.
    But let's just concentrate on what happens when they get 
here. They are looking for an asylum hearing. And I wonder if 
we are dealing with that adequately. We are hearing troubling 
reports that asylum-seekers are being turned away under the 
laws. Under the law, CBP agents are supposed to register asylum 
requests, take the individual into custody, and then direct 
them to an asylum officer to assess the validity of their 
claim.
    So here is my question or series of questions. Of the 
increased border crossings that DHS reported in March, how many 
of them are, people of the sort I have described? People who 
voluntarily are turning themselves in to seek humanitarian 
relief?
    Are you confident that CBP agents have been properly 
trained to comply with our laws to ensure the timely and humane 
processing of all asylum-seekers? And, can you clarify what you 
think is actually happening? Can you offer assurances, for 
example, that people aren't being turned away or turned back 
without or before they receive a credible, fair screening that 
establishes whether they have a legitimate claim to seek 
asylum?
    Mr. McAleenan. Thank you, Congressman. I will address each 
of those questions.
    How many? In March, we had 50,000 either apprehensions 
between ports of entry or inadmissibles at ports of entry. 
About two-thirds between, one-third at ports of entry. Of 
those, about 18,500 were either family units or children. The 
bulk of those crossers were from the northern triangle of 
Central America, as you noted.
    So it is important to note that the posture of people that 
we are apprehending or encountering at ports of entry has 
changed dramatically in the last several years versus the first 
13 years of this century.

                        BORDER SECURITY: ASYLUM

    We received asylum claims or fear claims from fewer than 1 
percent of people we apprehended between 2000 and 2013. Now 
that number is averaging 15 to 20 percent. And then it goes 
into ICE custody, where additional asylum claims or fear claims 
are made. So it is a different population, as you note.
    Am I assured that our officers and agents are approaching 
their responsibilities and following the law to assess fear 
claims when people present them at the border? Yes, I am, and 
it is something that we are focused on ensuring, going forward. 
This is something that we review very carefully. We have strong 
policies, strong training. We have accepted over 50,000 asylum 
claims in the last 2 years at our ports of entry.
    We do hear, as you are alluding to, reports where it has 
not been handled appropriately. Those reports are immediately 
referred to our Office of Professional Responsibility, also our 
Inspector General, and they are followed up on and we have 
exacted discipline in cases where it has been substantiated 
that a case was not handled appropriately.
    That is very important to us. That is something we need to 
review. People that are entitled to protections need to be able 
to claim them appropriately. But it is not a widespread issue. 
It is not even remotely compared to the numbers that are being 
processed appropriately for fear.
    So what is actually happening? You raise some very 
important points. I heard the chairman note that we have to 
solve this problem. The current structure of our statute and 
policy is not encouraging good results. It is inviting asylum-
seekers to come make a dangerous journey to pay hundreds of 
millions of dollars to transnational criminal organizations to 
put themselves and their children at risk of assault, or worse, 
and really draining the youth and energy of the northern 
triangle countries that you know--that General Kelly and myself 
and Secretary Neilsen are committed to supporting to enhance 
their governance, security, and prosperity.
    So this posture is not achieving good policy results either 
for these individuals who are seeking help, nor for their 
countries that need a different approach to governance and 
security. And that is something that DHS is committed to.
    So, I want to work with you and Congress in my role, 
supporting the Secretary in her role, to highlight these 
statutory changes we need and to also continue to invest with 
partners in the region.
    Mr. Price. Thank you. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Ruppersberger.

                        CBP: WORKFORCE STAFFING

    Mr. Ruppersberger. Thank you, Mr. Chairman. First, the 
administration has made it a point to secure the Southern 
border. The President has called for building a thousand-mile 
physical wall and a surge in new Border Patrol agents. However, 
in my opinion, what is missing is more CBP officers. Mr. 
McAleenan, I will be asking you these questions.
    These CBP officers are essential, as there are just as many 
drugs moving through our official ports of entry as between 
them. CBP understands this. In their own workload staff model 
your agency stated it is in need of 2,516 additional officers.
    I have witnessed this firsthand. I represent the Port of 
Baltimore, which is consistently short CBP officers and 
shippers are being asked to compensate CBP for the cost of 
additional overtime shifts.
    Furthermore, these officers stationed at Baltimore are 
already working excessive overtime. And this is sincerely 
impacting the flow of commerce and compromising security 
throughout the whole country and our ports.
    The Port of Baltimore is not the outlier here. I have a 
chart here in front of me which paints a really sad picture. In 
March 2017, there were 200-plus vacancies in Laredo, 250 
vacancies in Tucson, and 350-plus in San Diego.
    I know the committee understands the gravity of the 
situation. We funded 328 new CBP officers in our omnibus. 
However, this still leaves a nationwide shortage of 2,200 CBP 
officers.
    The question is: Does the administration recognize that 
drugs are moving into this country through our official ports 
of entry, not just between them? If so, does the President's 
budget proposal request funding for only 60 CBP hires, with 
none assigned to ports?
    And that is why I raised the issue of the National Guard, 
by the way. Managing is a matter of priorities. I guess an 
example, in Maryland, we have 500 of our National Guard in 
Estonia dealing with the Russia issue. So there are a lot of 
priorities.
    And I think if you are going to do anything, you need a 
plan and you need to rely on your experts. But to say one day 
we are going to put in the National Guard in and you have to 
take orders, whatever it is, you have to find a way to make 
sure you do it. That is why I raise the issue of the National 
Guard.
    With the administration's favoring of increased Border 
Patrol agents over customs officers, it indicates the President 
is more concerned with intercepting people instead of drugs. I 
think that is wrong. I would like to know whether or not you 
believe what I just said.
    Also, I understand you are stretched thin. But I need a 
commitment maybe from you, or you whatever you will get back if 
you can, examine this problem of the drugs versus the people. 
It seems we have the people thing under control at the borders. 
It seems that we have more arrests than we have ever had. But 
there are a lot of people there.
    We have to pick priorities and we have to a plan and not 
just decide decisions based on instincts. Those are my 
questions, if you can try to answer them, and I would like you 
to get back to me on how you suggest we deal with this issue of 
the ports.
    Mr. McAleenan. Great. Thank you. Do we recognize that drugs 
are coming through ports of entry? Yes. I think I have 
acknowledged that several times in the testimony and talked 
about some of our strategies to address that.
    Are we not asking for or seeking additional CBP officers? 
No. Quite the contrary. You mentioned the workload staffing 
model. I spearheaded the development of that model when I was 
in the Office of Field Operations. We are submitting it every 
year to Congress, and we are submitting, including in the 
President's budget request, against, a request for fee 
increases to keep up even modestly with inflation for our 
immigration user fee and our customs user fee that would 
address those hiring needs.
    Mr. Ruppersberger. Over 2,000 jobs?
    Mr. McAleenan. Absolutely. Just a small increase in each 
fee of $1 each would have a significant benefit to additional 
hiring. We have asked for that every year. There is no intent 
to not support additional POE hiring. Quite the contrary. The 
Border Patrol agents are not amenable to a fee-based source for 
their hiring, for their work. That we do need the 
appropriations, and that is why you see that emphasis in the 
President's budget.
    I am more than happy to get back in touch with you and 
examine this problem further. I think the committee is right to 
highlight the rouse for drugs, right to highlight the need for 
CBP officers for both security and facilitation. We agree. I 
believe the budget request reflects that agreement.
    Mr. Ruppersberger. I respect you all that there are a lot 
of issues out there. The Commander in Chief has a different 
style, but he is the President, so we have to work through 
that. Whatever your orders are, your orders are. If I disagree 
with him, I am not going, as Andy Harris said, do personal 
attacks. I am going to make a comment. But I am not going to 
try to attack him unless I disagree with his comments or his 
policies. But I do respect you all. You have got a tough job, 
but you have got to follow orders also. Thank you.
    Mr. Carter. Thank you, Mr. Ruppersberger. One thing I want 
to point out, those fees are not under our jurisdiction. They 
fall under Judiciary and Ways and Means, I believe. It is a 
little problem for us.
    Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman. Those fees ought to 
be under this subcommittee's jurisdiction. I believe anything 
that has got a President's portrait on it ought to be under the 
jurisdiction of the people's elected representatives through 
this committee.
    Mr. Ruppersberger. You have two chairmen here. You ought to 
make it happen.
    Mr. Culberson. I am ready.

                   BORDER SECURITY: CATCH AND RELEASE

    Thank you, Mr. Chairman, for your patience. I was chairing 
my Commerce, Justice, Science Subcommittee hearing. And over 
the years that I have had the privilege of representing the 
people of west Houston, I have discovered that if I just make 
an unannounced trip to border, that is always one of the best 
ways of finding out what is really going on. And I can assure 
Mr. Ruppersberger that the human problem is absolutely not 
solved. It is wide open.
    In the McAllen sector in particular, which I visited most 
recently, the Border Patrol agents that I went out into the 
field with--and again, this was an unannounced visit; that is 
always the best way to do it--we encountered a group of people 
immediately within a few minutes.
    The Border Patrol said: We don't catch them, they catch us. 
These were individuals with minor children that had come up as 
far as Guatemala or Central America and paid thousands of 
dollars. Immediately they were all obviously coached on what to 
say. They knew exactly what to say to the Border Patrol agents 
to stake a claim of credible fear of persecution.
    It is difficult for me to believe that some of these were 
actually parents with children. There was one individual about 
25 years that claimed the 17- or 18-year-old with him was his 
son. And the border patrol agents, again said this happens all 
the time.
    The human problem is actually one that is particularly 
heart breaking. The drug problem is catastrophic and 
heartbreaking, but human slavery still exists in this country, 
and trafficking human beings is a terrible problem. 
Unfortunately, Houston, Texas, is one of the hubs of human 
trafficking in the country.
    So I wanted to ask Commissioner McAleenan and to 
congratulate you on your assignment. First of all, what is your 
department doing to restore the integrity of the asylum system 
to ensure that legitimate trafficking victims who need our help 
are assisted, while those who are looking to exploit the system 
by illegally crossing the border and pretending to be in fear 
of persecution are detained swiftly and removed swiftly. What 
is being done to end the practice of catch and release at the 
border?
    Mr. McAleenan. Thank you, Congressman. I appreciate your 
visits to the border and your longstanding knowledge and 
especially your emphasis on the importance of consequences for 
illegal activity on the border.
    Just on that note, we are the front end of this challenge. 
We are the border security element catching people crossing the 
border. You know sometimes with family units and children they 
are not evading capture because they are prepared, coached in 
some cases to request protection and to claim fear of return to 
their home country.
    When that happens, we turn these individuals over to ICE, 
in the family case, for custody. And I will let my colleague 
speak to that. For children, ICE transports them to HHS at the 
start of their proceeding.

                        BORDER SECURITY: ASYLUM

    Mr. Culberson. I found out very quickly as a part of the 
visit, members, that every single one of those families that 
sought out a border agent and caught them, they all reached 
their destination. They were held 48, 72 hours by ICE, but 
every one of them basically made it to Chicago, one was going 
to St. Louis, Atlanta, Miami.
    They all make it to their destination, at U.S. taxpayer 
expense, because of this loophole they found in the system. So 
what are we doing to close this loophole? It is putting their 
lives at risk. These poor kids and these young parents had to 
come from Central America and Guatemala under threat of 
assault, rape, murder in order to get here, because they know 
if they come in and say the right thing, they are going to get 
to Miami at U.S. taxpayer expense. What is being done to stop 
that?
    Mr. McAleenan. We don't have our colleague, Frances Sista 
from CIS here, but I will just speak to the department-wide 
efforts or administration-wide.
    This was one of the key areas emphasized by the 
administration in the immigration discussion in the fall, 
through January, one of the main loopholes that they sought to 
close is to strengthen the asylum process.
    What we see at that front end are a very high percentage of 
people reaching that initial credible fear bar and then waiting 
for a long time for a judge to eventually resolve that case, 
where there is a much lower result in terms of getting relief 
and getting found to have asylum. So that can be years in the 
U.S.
    Mr. Culberson. Ninety-six percent of them never show up for 
their hearing. They are just gone. They enter the United States 
illegally.
    Mr. McAleenan. The chairman made that point earlier. That 
is a significant challenge in the system as well.
    Mr. Culberson. So what are you doing to address that, close 
that loophole?
    Mr. McAleenan. Number one, the administration is trying to 
work with Congress to modify the statute. Also, with the 
Trafficking Victims Protection Reauthorization Act, if you are 
a Mexican child or a Canadian child and you come across 
unaccompanied, you can be returned to your country. That is not 
true for countries further away, including the northern 
triangle in Central America. So that is a key change the 
administration sought as well.
    Mr. Culberson. That is exactly the right answer. Thank you.

                     BORDER SECURITY: APPREHENSIONS

    Mr. Albence. If I can just add one thing, please. 
Unfortunately, we are bound by decisions, whether it is a 
legislative decision or a court decision, with regard to our 
detention of the family unit.
    Based on the Flores settlement agreement, we are required 
to release a family unit within 20 days of them coming into 
custody. That is why those individuals that you reference and 
the border patrol apprehends is probably the wrong time to use, 
because they are turning themselves in on a frequent basis. We 
have no lawful authorization to hold them longer than that 20 
days because of this Flores settlement agreement. As 
Commissioner McAleenan had mentioned, with the UACs, we have no 
detention authority for a UAC under the TVPRA. That authority 
lies with HHS. So our role is merely a conduit to get that 
person from CBP or the Border Patrol over to HHS, at which 
point we are no longer involved in that process.
    Mr. Culberson. The key is fixing the statute. I think we 
can even overturn a settlement, couldn't we, Judge, with a 
statute?
    Mr. Carter. Well, in the bill we tried to bring to the 
floor just recently, I have three provisions dealing with all 
three of these issues, to fix all three of those issues, as my 
part of the contribution. This is the number one thing that 
needs to be fixed, in my opinion. We are never going to stop 
the flow if we don't plug this hole.
    Mr. Culberson. It is a magnet that is bringing these people 
in and endangering their lives.
    Mr. Carter. Believe me, a lot of attractive children are 
not making it to the border.
    Mr. Culberson. That is heartbreaking.
    Mr. Carter. Does Ms. Roybal-Allard have some more 
questions? I think I probably should just yield the floor to 
her for the rest of the day. I will recognize you for one more 
question, at least.

                        BORDER SECURITY: ASYLUM

    Ms. Roybal-Allard. We were just trying to figure out some 
clarification in terms of the asylum claims and the statistics. 
There is a lower threshold with the initial review for an 
asylum claim.
    My understanding is it is lower because we want to make 
sure that we are making it possible for those who have valid 
claims to be able to go through the process and be protected. 
And then when it goes through the final determination, which is 
a higher threshold, that it makes sense then that there would 
be fewer people who would actually get asylum.
    I guess I would disagree that that is a loophole. I think 
there is a real reason for the lower threshold initially and 
then the higher one when they get that second review.
    And so if you have any actual statistics or information on 
that, I would appreciate if you would share it. Not at this 
time, because I know that we are running against the clock 
here, but I would appreciate if we could get some more 
information on that.
    I also want to clarify with Mr. Albence for the record that 
my question regarding the directive of California's Justice 
Department was really an attempt to find common ground in 
protecting our communities. Because my constituents and 
Californians as a whole also want to make sure that dangerous 
criminals are removed.
    And I just believe that it would make a lot of sense and 
benefit everyone, instead of fighting with each other, fighting 
with the State of California, that we work cooperatively to 
remove individuals who are truly threats to public safety and 
to our country. So I just wanted to clarify the intent of those 
questions.

                        BORDER SECURITY: MEXICO

    Mr. McAleenan, at the end of March you traveled with 
Secretary Neilsen to Mexico to meet with your counterparts in 
that country and with President Pena Nieto. Can you briefly 
describe what you accomplished during that trip, the challenges 
that Mexico faces with regards to the influx of refugees and 
migrants from the northern triangle and South America, and can 
you also comment on areas where you think we are working well 
with our neighbors to the south and areas where we still need 
improvement?
    Mr. McAleenan. Thank you for the question. I was honored to 
travel and to meet President Pena Nieto, but it is actually my 
sixth trip in the last 12 months to Mexico to collaborate with 
partners.
    With CBP's breadth of our mission, we have stakeholders on 
the customs side in a department called Hacienda, with their 
tax authority; with their Gobernacion, which is their Federal 
police, their intelligence agencies, as well as given the 
security role, their military, SEDENA and SEMAR. And we 
collaborate really across--and not to mention their agriculture 
department, SENASICA. So we collaborate across the interagency 
in Mexico.
    In March, I got to sign three agreements that we had been 
working on for some period of time. This is an area that is 
working very well in our collaboration with Mexican customs. We 
are doing unified cargo processing at the border now. So 
instead of a situation where a truck would have to stop three 
times on its way through Nogales--outbound Mexican customs, 
outbound Mexican agriculture, and then inbound CBP, we are 
doing it once together.
    One of the agreements I signed was with their agriculture 
department, SENASICA, to allow this unified cargo processing to 
be formulized from a pilot to a program because it is really 
reducing wait times, in some cases, 3 hours and beyond, down to 
40 minutes or less, for that entire process. So it is 
benefiting trade between our countries and something that we 
want to continue to emphasize.
    We also signed an agreement, both CBP and HSI, on trade 
enforcement. One of your colleagues mentioned the need to 
address dumping issues. Well, we have shared manufacturing 
capabilities, things like steel, in North America. We know that 
countries are trying to evade our trade enforcement. Seeing 
data and sharing it, partnering on enforcement activities and 
investigations with Mexico is just going to make us more 
effective in that area.
    I want to highlight one piece that you closed on: the 
partnership with SEDENA on Mexican immigration, in particular. 
They have taken great strides in the last 5 years to enhance 
the security of their southern border, going from a very small 
effort to apprehend or return people crossing between ports of 
entry on their border to upwards of 200,000 in the last couple 
of years. That is a big change that has enhanced the security 
of the region.
    The more that we can align our migration policies and 
collaborate in North America, the more effective we are going 
to be, because these people are paying, unfortunately, 
thousands of dollars to transnational criminal organizations 
that are threatening the security of Mexican citizens as they 
cross through their country. We want to shut that down. And the 
only way to do it is collaboratively.

                       ICE: WORKFORCE COMPLIANCE

    Ms. Roybal-Allard. Mr. Benner, ICE, as you mentioned 
earlier, has stepped up its I-9 audit of businesses to 
determine whether employees are authorized to work. I know this 
because a number of the businesses in my district, including 
one just a few blocks from my district office, were visited 
recently by ICE officials.
    And in at least one case, the officials were accompanied by 
members of the press, which I don't see as an appropriate thing 
for ICE to do. And it also concerns me because, based on the 
reactions from the community, I believe that it also serves to 
unnecessarily scare the public and it is often misinterpreted 
as a raid. Our office needed to clarify that in fact it was not 
a raid; that you were doing what legally you were authorized to 
do. And part of it is also of course the way sometimes it is 
reported.
    So my question is: Does ICE policy permit inviting the 
press to accompany ICE as it carries out its law enforcement 
responsibilities; and also, how does ICE determine which States 
and places of employment to target?
    Mr. Benner. Thank you for the question. Again, as Mr. 
Albence pointed out, HSI and all of ICE in particular, we 
certainly do not conduct raids that are indiscriminate or 
otherwise. In HSI we execute criminal investigation activity 
pursuant to law and they are well thought out and well planned.
    I am aware that there are instances where our public 
affairs departments will authorize ride-alongs for members of 
the public or the media. I would like to take that particular 
instance back and then come brief you more in-depth on that 
particular instance and which case it was and look into it in 
that way.
    Ms. Roybal-Allard. OK. One of the reasons that I was given 
was that it was an effort to show the public that there weren't 
abuses taking place as a result of that.
    Let me just suggest there may be a better way of doing 
that, and I would like to work with you and with ICE on that.
    Mr. Benner. Absolutely. I think it is important to tell the 
story many times. I do know that in the course of our I-9 work, 
in one particular case it was well-documented in the media, and 
his agents were actually congratulated by the business owner 
for being professional. It was a very low key process to serve 
that I-9 inspection.
    And we are incredibly proud of the men and women of his who 
execute their mission with great care, concern, respect, and 
with great caution to as many cases that, even in the worksite 
realm where we have that victim-centered approach. Like I said 
earlier, the exploitation of unauthorized workers is a top 
priority for us. Those cases go to the top of the pile every 
time because those are the most egregious.
    Ms. Roybal-Allard. The second part, how is that determined? 
How do you decide either what State or what community is going 
to be targeted?
    Mr. Benner. We don't pick communities or States. We pick a 
broad cross-section of businesses operating in a particular 
area. Each part of the country has targets, based on the size 
of their AOR and the number of personnel located there.
    And we let the field, who know their areas of 
responsibility the best, work through what targets they are 
going to look at for I-9 inspections. But we also rely on the 
tip line. We get thousands and thousands of tips coming in 
from, as you would be surprised, competitors who feel that they 
have an unfair advantage because of their company next door 
that maintains an illicit business model doesn't pay the same 
taxes, they don't pay the same wages, they don't pay overtime. 
And it is hard to compete. Those two companies can't compete 
with each other. The company that follows the law will lose 
every time. So we get a lot of complaints from the public.
    And so we have a national lead development center where we 
take a look at those tips. We try to use our intel assets to 
actually make them good leads before we send them to the field. 
That typically would be the start of the I-9 process, would be 
to take a look at those leads.
    Ms. Roybal-Allard. In the interest of time, I will submit 
the rest of my questions for the record and let Mr. Culberson 
ask his questions.
    Mr. Carter. Mr. Culberson.
    Mr. Culberson. Thank you. And thanks for you all's 
patience. I had to get through that CJS hearing.

                 BORDER SECURITY: OPERATION STREAMLINE

    I wanted to ask Mr. McAleenan about the criminal 
consequence initiative, otherwise known as Operation 
Streamline, which is designed to fast-track aliens apprehended 
at the border to the Department of Justice to be prosecuted for 
the criminal offense of illegal entry or illegal reentry.
    I made certain that the Department of Justice has an 
increase in funding to hire additional prosecutors, additional 
staff, additional personnel at the southern border, because it 
is the magnet. I don't really see it as a loophole. It is a 
magnet that draws these people in and they are being assaulted 
and murdered as they come to the United States through Mexico. 
If they are from Mexico, the Border Patrol agents have the 
authority to simply return them immediately back to the border, 
back to Mexico, put them back across the river.
    I hope you will be able to start doing that for those that 
are coming up from Central America and elsewhere.

                   BORDER SECURITY: HUMAN TRAFFICKING

    As I said, I like to make unannounced trips to the border. 
One of the trips I did that I learned the most from is I 
volunteered to work as a law clerk in the courtroom of Judge 
Alia Moses in the Del Rio sector under an assumed name. So no 
one knew who I was. I worked for several days as a law clerk. 
And it was fascinating. I learned a great deal. The DOJ guys 
didn't find out who I was for about 48 hours. It was right when 
I became chairman of the subcommittee.
    I learned, for example, that one other statutory change we 
need to make is human traffickers, if you are smuggling drugs, 
your assets can be seized. If you are smuggling human beings, 
you cannot seize their assets. That is a change that has to be 
made in the statute.

                      BORDER SECURITY: PROSECUTION

    Venue needs to be changed so that when you pick somebody up 
25 miles or 50 miles from the border, you can prosecute in the 
zone in which they are apprehended. If they are in the United 
States illegally, you can't prosecute them under the venue 
statute. We need to fix that as well, Judge.
    I discovered that Judge Moses--by the way, I hope the Trump 
administration will consider appointing her to the fifth 
circuit. She does a superb job. She enforces the law, 1325 and 
1326. She gives some consequence to everybody that comes in. 
Whether it be a week, a few days, they have got a conviction, 
and is able to do so in a way that protects everybody's 
constitutional rights. And it works.
    The illegal crossings in the Del Rio sector are the lowest 
they have ever seen because of Operation Streamline and Judge 
Moses' enforcement of the law.
    So I wanted to ask, Commissioner, about Operation 
Streamline and, if you could, update me on records that I have 
from a couple of years out-of-date on these, but on the number 
of people of those that are apprehended in each sector, what 
percentage of those who are apprehended are actually referred 
to the Department of Justice for criminal prosecution?
    I remember it being a standard, when I first started 
looking about a decade ago, when the Judge and I first got on 
this subcommittee that in the Tucson sector only about 4 
percent of those apprehended were being prosecuted. In the 
McAllen sector, about 11 percent. But in Judge Moses' sector, 
she prosecutes 70 percent. Anybody that is caught in the Del 
Rio sector is going to get prosecuted. There is going to be a 
consequence. As a result, illegal crossings have plummeted.
    I also learned by sitting there and asking questions that 
the magistrate was asking questions for me, and I was typing 
for him as a law clerk, that these poor people were paying 
$5,000 to $6,000 apiece to get here from Guatemala; that the 
drug cartels were charging $500 to $1,000 to get them across 
the river and then just dumping them in the desert with no food 
or water. They had no idea where they were. You couldn't touch 
the smugglers.

                 BORDER SECURITY: OPERATION STREAMLINE

    So what can you tell me about what you are doing to expand 
Operation Streamline to duplicate what Judge Moses is doing in 
the Del Rio sector up and down the entire border and what can I 
do as chairman of the Commerce, Justice, Science Subcommittee 
to help ensure the Department of Justice is deploying resources 
to support your work and referring these folks for prosecution?
    Mr. McAleenan. Let me just first thank you, Congressman, 
for your longstanding support for our consequence delivery 
system and the criminal consequence initiative Streamline. I 
didn't know you actually had helped Judge Moses out with some 
of those cases.
    You noted that Del Rio is an area where we have a very high 
percentage of acceptance of referrals for immigration 
violations for prosecution.
    I don't know if you saw yet a letter issued by the Attorney 
General directing his U.S. Attorneys to increase acceptance of 
immigration violations; zero tolerance memo. We will be meeting 
with him this afternoon on opportunities for increased 
consequences for immigration violations that can create a 
sufficient deterrent.
    We have seen a direct correlation between the consequence 
delivery system and reductions in recidivism and repeated 
attempts at crossing our border illegally. We know it works. We 
want to apply it in smart ways appropriate for the individual 
that we have encountered or apprehended, but I would be happy 
to get back to you with in-depth data on this initiative and 
especially as we continue to engage the Department of Justice 
in improving our efforts.

                      BORDER SECURITY: PROSECUTION

    Mr. Culberson. The prosecution rates by sector of those you 
apprehend. And please ask the Department of Justice what if any 
additional resources they need. Because fundamentally, this is 
a law enforcement issue, Judge. It is just a matter of letting 
the officers enforce the law with a compassionate heart and 
good commonsense to distinguish between the MS-13 member or 
someone smuggling guns or drugs, smuggling humans versus the 
economic migrant versus a young woman. You want the officers to 
use their good heart and their good sense.
    Law enforcement works. And this is a law enforcement issue. 
Respect for the law. That is one thing this President is doing. 
Restoring respect for the law, respect for our military, and 
respect for the United States around the world is one of the 
most important things this President was doing. That is why he 
was elected. And we look forward to helping you, as I know you 
know Judge Carter and this subcommittee is committed to helping 
you to restore respect for the rule of law at the border.
    Thank you very much.
    Mr. McAleenan. Thank you.
    Mr. Carter. If you see a guy that looks like Culberson 
camouflaged out in the bushes, it probably is.
    Mr. McAleenan. New intern.
    Mr. Culberson. You won't know I am coming.
    Mr. Carter. We are going to conclude the hearing now. Thank 
you very much. Well done. Good answers. Remember, we are part 
of a team. Keep us informed. If you have needs, don't hesitate. 
Call me. Call Lucille.
    We are recessed.

                                            Friday, April 13, 2018.

               FEDERAL EMERGENCY MANAGEMENT AGENCY (FEMA)

                                WITNESS

HON. BROCK LONG, ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY
    Mr. Carter. Good morning, we are going to call this meeting 
to order, this hearing to order. We are very pleased this 
morning to welcome the Administrator of the Federal Emergency 
Management Agency, Brock Long, to discuss FEMA's fiscal year 
2019 budget request.
    Administrator, welcome, we are glad to have you here. I 
want to start by thanking you for your leadership in 
overseeing, not just FEMA, but the entire Federal response to 
the record level of disaster activity this past year. Congress 
has now passed three supplementals, providing nearly $50 
billion for the Disaster Relief Fund. This is for response and 
recovery from three catastrophic events.
    I would like to hear from you today on how recovery efforts 
are going and what additional resources you think FEMA will 
need in the coming months to continue to support the long-term 
recovery. Fiscal year 2019 budget for FEMA is $11 billion. The 
request proposes reductions to existing FEMA grant programs 
while at the same time requesting $522 million for a new grant 
program that hasn't been authorized--at least not as yet. I 
would like to hear from you why you propose these cuts, 
particularly in the current threat environment, and what are 
the new grant program's intended to achieve. And I understand 
FEMA has also recently released a new strategic plan which 
outlines--give us an outline of your vision for the agency. I 
hope you will discuss how you plan to implement this strategy 
and how fiscal year 2019 requests support these efforts.
    At this time, I would like to recognize my distinguished 
ranking member, Ms. Roybal-Allard, for any remarks she may 
make.
    Ms. Roybal-Allard. Good morning, Administrator Long, and 
welcome to your second appearance before this subcommittee. The 
last time you appeared was on the heels of the damaging 
hurricanes and fires which prompted emergency supplemental 
spending bills. We are now eager to spend some time with you to 
get your perspective on FEMA's budget request, your ongoing 
response and recovery activities and the challenges that lie 
ahead.
    I know this has been a difficult time for your agency. You 
had only been at FEMA for a few months when we not only 
experienced of the most damaging hurricanes season in history 
but the wildfires that devastated large swaths of my home State 
of California.
    Mr. Administrator, we want to help support the efforts of 
FEMA's personnel, and we want to make sure that FEMA's programs 
are working well to support recovery efforts. This is 
particularly true for Puerto Rico because of the level of 
devastation on the island and the fiscal challenges it was 
already facing. We must not forget the families and other 
survivors who, months after the disaster, are still struggling 
to rebuild. And we must remember that this disaster occurred on 
American soil and that the people that it affected are 
Americans.
    Again, we appreciate your joining us this morning, and I 
look forward to a productive discussion. I yield back.
    Mr. Carter. Thank you, Ms. Roybal-Allard. We are joined by 
Mrs. Lowey, the ranking member of the full committee. Mrs. 
Lowey, I will yield to you for any comments you wish to make.
    Mrs. Lowey. Thank you very much, Mr. Chairman. And I 
appreciate your having this hearing.
    And thank you, Ranking Member Roybal-Allard, for holding 
this hearing.
    And, Administrator Long, thank you for joining us this 
morning.
    You last testified before the subcommittee last November on 
the hurricane supplemental request. Thank you for your hard 
work assisting the States and U.S. territories, many of which 
are still recovering months later.
    This morning, we will hear your justification for the 
fiscal year 2019 FEMA budget request, which I find lackluster 
at best. You propose to eliminate several programs and to 
severely cut others with devastating implications, particularly 
to New York. For example, your budget request would eliminate 
the National Domestic Preparedness Consortium, which has 
trained approximately 2 million first responders; the Emergency 
Food and Shelter Grant Program, which provides shelter, food, 
and water for families and communities in crisis.
    Your budget request would also notably reduce the National 
Pre-Disaster Mitigation Fund by $61 million. As we saw in the 
wake of Superstorm Sandy and Hurricanes Harvey and Maria, 
responding to and recovering from a natural disaster often 
costs a lot more than investments in mitigation measures.
    In 2017 alone, there were 50 major disaster declarations, 
20 of which occurred after you were confirmed. We can all agree 
that communities need to be proactive in mitigating their own 
vulnerabilities, but this request in my judgment sends the 
wrong signal by cutting an essential program so deeply and 
could result in higher recovery costs to the Federal Government 
and communities hit by disasters.
    Your budget would also threaten the safety of our 
communities by significantly decreasing emergency management 
performance grants by $70.7 million, port security grants by 
$63.6 million, public transportation security assistance by 
$63.6 million, the State Homeland Security Grant Program by 
$117.6 million, the Urban Area Security Initiative Grant 
Program by $117.6 million. With threats of violence and 
terrorism on the rise, these programs are essential for terror 
targets like New York to help State and local law enforcement 
protect our communities. Simply put, our communities cannot 
strengthen their preparedness programs when support from their 
Federal partner is inconsistent or so inadequate.
    Administrator Long, I look forward to a productive 
discussion this morning about how we can best build resiliency, 
mitigate the impacts of future disasters, and keep our 
communities safe from violence and terrorism.
    Thank you again for being here today.
    Mr. Long. Thank you.
    Mr. Carter. All right, we are waiting to hear what you have 
to say. We do have your written report in the file, but we 
would like for you to give us a summation and give us what you 
think we need to hear.

                     Opening Statement of Mr. Long

    Mr. Long. Thank you, Mr. Chairman.
    Madam Ranking Member, thank you.
    And, members of the committee, it is great to be here again 
today.
    We are all here in the spirit of improvement and trying to 
find ways to make the Nation more resilient and prepared. I 
work towards it every day, and as I look this budget request, I 
realize it was not informed by the 2017 season because of the 
budget process. I do look at this budget as an opportunity to 
serve as an initial down payment on a strategic plan that I 
feel strongly about and the way forward that I want to talk to 
you about to obtain your support going forward.
    Obviously, it was the biggest disaster year that we have 
seen in our history: 47 million Americans, 15 percent we now 
estimate of the population was impacted in some way shape or 
form. To date, I want to thank you guys for the three 
supplementals. It has been a tremendous help. But, more 
importantly, it is not that I need more money in some cases as 
much I need new authorities. For example, disaster recovery 
housing is not a well-designed program. I need more granting 
authorities to be able to provide Governors an opportunity to 
be able to control their own destiny, and I am asking for your 
help on that.
    What we have put forward so far as a result of 2017: We 
have obligated close to $22 billion from California to the 
Virgin Islands; $11 billion of that has gone directly to the 
Commonwealth of Puerto Rico already. These recoveries are not 
going to be done over night. We are going to be in these 
communities for years as we progress through.
    So we learned a lot of major lessons. As I said, I need 
granting authority to fix housing. We have got to continue to 
find ways to streamline fragmented recovery. Funding comes from 
17 different agencies, not just us. And it is confusing to a 
Governor. HUD made an announcement the other day; it is one of 
the largest grants that the agency has proactively put down. 
But it is confusing to a Governor on how they utilize FEMA 
funding, HUD funding, and funding that comes from these others 
to do the greatest good. And I think we have got a lot of work 
to do to streamline our efforts to do the greatest good and 
ultimately build more mitigation into our recovery efforts as 
well.
    I am also asking for authorities to increase State 
management costs. It is not just the grants that we need to 
provide to State and local governments to kick-start programs, 
but the management costs is probably the most beneficial tool 
that they can have. Right now, for example, on a disaster, we 
provide them 3.34 percent in management costs based on the 
total of public assistance dollars that we obligated. That 
number needs to rise to 12 percent. That gives a State the 
ability to hire their own force account labor or hire 
consulting firms to help them with staff augmentation or 
technical expertise that they don't currently have, because I 
believe that preparedness is everybody's responsibility from 
the citizen all the way to the Governors to the States.
    And as disasters change and threats change, we cannot do it 
all at FEMA. We cannot continue to fund and supplement programs 
in their entirety. We have to have an honest conversation 
about, is there too much of a gap between the Federal 
Government and what State and local governments are doing. I'm 
here to have that conversation, but based on the major lessons 
learned that we had, based on comments of reaching out to our 
stakeholders--we took 2,300 comments from internal staff 
members and stakeholders, and I am asking the questions: What 
do you want FEMA to be good at? Where are we? Where do we need 
to be going forward in the future?
    We did a trend analysis based on what we got back, and we 
came up with three primary goals: One, as I said before, goal 
one, build a culture of preparedness. We don't have it in this 
country. Our citizens are our true first responders. How do we 
open up more low to no-cost options of preparedness to our 
citizens? How do we provide them more training to do things 
like CPR? The Red Cross has a statistic that one in four of us 
is going to do CPR in our lifetime. Are you trained? Are you 
ready to go? You are the true first responder after an active 
shooter or a tornado.
    The second thing is that I am aligning the budget and my 
assets to begin tackling the robust strategic plan. So, for 
example, under building a culture of preparedness, the $522 
million grant, competitive grant that is listed in the budget 
would help me to start addressing evolving issues, because so 
much of the grant funding is tied to the PKEMRA, to older style 
9/11 traditional attacks which could happen today, obviously, 
but it doesn't give you much freedom to be able to tackle new 
evolving threats, such as soft-target active-shooter events or 
cybersecurity. So this would help me build more of a culture of 
preparedness.
    The other thing about culture of preparedness is we have 
got to invest but also incentivize State and local governments 
to step up and do land-use planning and pass building codes and 
do more predisaster mitigation. So the cuts in predisaster 
mitigation, with all due respect, the amount of funding that 
has always been traditionally in there is not enough. It is a 
drop in the bucket. I am asking for a holistic fix to do 
mitigation upfront in a much larger amount rather than on the 
back end. So I am not even sure that 40, 50, or 60 million in 
predisaster mitigation really makes a difference when you look 
at the grand scheme of things of how we need to harden our 
capabilities going forward.
    I am the biggest believer in insurance as well when it 
comes to staff--when it comes to people and when it comes to 
self-insured cities. We have got to close the gap on insurance 
under that building a culture of preparedness. And I want to 
work with you to do so.
    The second goal is ready the Nation for catastrophic 
disasters. I don't believe this Nation is ready to go from low- 
to no-notice events, like New Madrid earthquakes or earthquakes 
in California, Wasatch, or Cascadia. And in many cases, we have 
got a lot of work to do and that we have to bolster State and 
local capabilities to do their own commodities when it comes to 
emergency life-sustaining commodities and not just depend on 
FEMA to be providing everything.
    I am not so sure we are that good that we can get there 
right after a no-notice event, and we have to build baseline 
capabilities at all levels of government because that is the 
best way a response can work as a unified whole community 
effort. So, underneath that, there are things that we are 
looking for.
    I am worried about the wall of work that is coming to my 
agency as a result of what we just went through. If you look 
back at 2017, my agency picked up a new event every 3 days. I 
need staff members, and we are asking for that in this budget. 
Underneath goal 2, we are asking for 41 staff internally 
because I can reimburse everybody else, but I can't reimburse 
my own agency. And as we pick up more disasters, I am worried 
about the operational capacity to respond to anything from 
congressional inquiries to processing paperwork to ultimately 
getting money out down the road. So I am asking for a down 
payment, in this budget to help me bolster my staff internally 
as well, and then maybe the next year I will continue to see 
the ramification of what we have seen.
    And then, finally, reduce the complexity of FEMA is goal 
three. I am the biggest critic of the agency. I know that there 
are things that we can do. There are policies I want to strike 
down. There are things I want to clear up. And within this 
goal, there are specific budget requests for grants management 
modernization. I inherited an agency that has 10 different IT 
systems to manage 10 different grants. Why do we not just have 
one? But it takes money and understanding to how to consolidate 
those efforts. And I want to streamline it and make it simple, 
as well as streamline the disaster survivor and grantee 
experience.
    So, Mr. Chairman, the one thing I would like to also 
explain is there has been a lot of misunderstanding about 
Puerto Rico and the recovery. Recovery has been ongoing since 
day one. A lot of emergency response and recovery projects are 
in place. I was in Puerto Rico last week, met with the 
Governor, and we finalized the dialogue on 428 to move forward 
on how to build a more resilient Puerto Rico. 428 is the best 
way to move forward, not just for Puerto Rico but for 
communities in the future, because we are giving you a budget; 
it is outcome-driven recovery, which FEMA has never really had. 
It says: How does the State of California want their recovery 
team to go as a result of this wildfire so that we are not back 
again? Governor, you know best. Local communities, you know 
best. So let's design that outcome-driven recovery now, 
upfront. Let's put the money towards it, and let's work toward 
that. And if you manage that budget, Governor Rossello, very 
aggressively, whatever is left over, you can keep and put in 
and incentivize in predisaster projects that you would like to 
see that were not factored into the original project 
worksheets. Because, right now, if we attack Puerto Rico the 
old traditional way of attacking recovery, we would be writing 
thousands and thousands of project worksheets that would get 
reversioned year over year over year. And I am not sure that we 
would be working toward a common recovery outcome. So we were 
able to put that into place. It is not something you want to 
rush. It is something that you want to be very calculated and 
deliberate about.
    And the Federal Emergency Management Agency has no 
incentive to see anybody fail in recovery. I do not want to be 
back in these communities fixing infrastructure again. We can't 
afford to rebuild the way the infrastructure was before the 
event knocks them out. We have to do better and factor in 
predisaster mitigation before and after all of these events.
    I am here in the spirit of improvement. Thank you, Mr. 
Chairman. That concludes my comments.
    [The information follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Carter. Well, thank you. We are going to go 5 minute--
time 5 minutes, for everybody to know. And, by the way, I want 
to thank everybody for being here. It speaks well of you 
because this is a go-home day, and we have got a full house. I 
am really proud of everybody being here.
    I will start off and then go to Ms. Roybal-Allard.
    Congress has provided more than $49.5 billion for the 
Disaster Relief Fund in emergency supplemental funding to 
address the requirements from last year's unprecedented 
disaster activity. Can you give us an update on recovery 
efforts for Harvey, Irma, and Maria? I have other questions.
    Mr. Long. You can't compare disasters. You are not looking 
at apples to apples; it is apples to oranges based on how these 
communities were impacted, where they are geographically 
located, how strong was the infrastructure before the storm, as 
well as the liquidity issues in the budgets and how they were 
managed. And so each one is dramatically different. As I said 
earlier, out of the $22 billion that we have obligated to this 
point, and that number changes every day, up to this point, $11 
billion has been placed toward Puerto Rico and roughly I 
believe $5 billion has been put forward toward Harvey. And that 
is largely because of the types of damages that we see and the 
types of infrastructure that we are trying to fix. But these 
recoveries are ongoing.
    In Puerto Rico, specifically, I am about to become the 
largest employer. We have already done close to 1,500 local 
hires. And what we are trying to do there is not only set 
forward an outcome-driven recovery for what it is going to look 
like next. But I am having to rebuild an entire arm of 
emergency management at the Commonwealth level as well as the 
local level, which is why we are taking the initiative to do 
local hires. We are training them. We are qualifying them in 
the FEMA qualification system so that we ultimately leave a 
very strong and robust capability in emergency management there 
for years to come.
    When it comes to Texas we have major challenges. We are 
going to go have challenges in housing in Puerto Rico, which is 
the most frustrating aspect of recovery where I need your help 
to change. We need granting authority. If I could give Governor 
Abbott, for example, granting authority, he could take funding 
from me and do housing the way he sees best. He could buy tent 
cities. He could do direct construction. He could buy a travel 
trailer. He could do a manufactured house, and he doesn't have 
to adhere to my bulky laws but his State laws. And he could do 
it much quicker and efficiently than I could. But, right now, 
the way it has to work is I have got to do an Intergovernmental 
service agreement with the Governor, and he has got to follow 
my bureaucratic process, which slows things down. We have got 
to fix it because I have never heard of a recovery housing 
mission that has ever sought praise from anybody, which is a 
real problem. There is a lot that is going on, but I have 
thousands of people in the field right now. 65 percent of my 
agency is still deployed, and it is not these four events that 
we are working. I am working disasters, and 35 States and local 
territories have been impacted this year. I couldn't be more 
proud of my staff and what they are going through and the 
sacrifices that they put forward, and they continue to serve 
others.
    Mr. Carter. I agree. The staff has done a really fantastic 
job.
    But estimates for hurricanes Maria beyond fiscal year 2018 
and the California wildfires were not available when the last 
supplemental came out.
    Mr. Long. Right.
    Mr. Carter. Do we have a better estimate for those 
disasters now? Will another supplemental be needed to address 
those needs? If so, can we expect to receive another 
supplemental request for funding to support these disasters? 
Will that request cover the entire life of the disaster for 
Hurricane Maria, or should we expect multiple supplemental 
requests?
    Mr. Long. So, right now, it is hard to project how much it 
is going to cost. For Puerto Rico, some of the initial damage 
estimates range anywhere between 40 billion and 50 billion as 
we start to look at the levels of damage and the 
infrastructure. Here, again, that number could change. As we 
dig deeper into the damage assessments and understand what 
really needs to be done to make it resilient, those numbers 
could change.
    As far as requesting another supplemental, we are just not 
there yet. But I am not going to allow my agency to get too 
close before we have to ask for your support. So we will 
maintain and double down on communication to the Congress, as 
well as OMB, when it comes it a critical point of when we think 
we are going to run out of funding. And I can get you the other 
numbers on the other.
    Mr. Carter. If you have got other supplementals coming, 
which I would assume you do, but maybe you don't assume that. 
In that last supplemental, we had requests, and we didn't have 
information to give us the information we needed to see the 
picture.
    Mr. Long. Right.
    Mr. Carter. So, if you are going to do other supplementals, 
that is why I asked that question, on the wildfires and Maria, 
we didn't have estimates. I know that you flooded the place 
with people making estimates. You should have a better picture 
now than before.
    Mr. Long. Sure.
    Mr. Carter. I can tell you that, when I was in Houston, I 
was with some building contractors, and they said it is 186,000 
of remodels estimated to be in Houston right now in a market 
that builds 50,000 to 100,000 homes a year. They can't even 
build the homes for lack of labor. They can't even meet goals 
in the home building but for lack of labor. And how are we ever 
going to have enough labor to do these lesser jobs? Because a 
framing contractor looking at a remodel and looking at a new 
home, there is no choice there; he is going to build a new 
home.
    Mr. Long. Sure.
    Mr. Carter. Makes more money off of it. It is easier 
because he doesn't have walls and things he has to tear out. So 
it is going to be a real challenge. I know it may not even be 
FEMA's job to direct, but ultimately those are things we have 
to fix. This new plan----
    Mr. Long. Yes, sir.
    Mr. Carter. And this new plan by putting it in the hands of 
the Governor, which--in at least my Governor, I would like to 
see that--it may be a good idea. It sounds like a good idea. 
But, you know, turning the ship of state is a slow, tedious 
process.
    Mr. Long. And, Mr. Chairman, you know, when it comes to 
reducing disaster costs, I think we need to look at the 
categories of damage that FEMA pays for through the Stafford 
Act. In some cases, I scratch my head as to why FEMA reimburses 
State and local governments for building and contents that 
could be picked up by private insurance companies. Why are we 
paying to fix facilities that could be insured? And that right 
there would save billions of taxpaying dollars and would help 
FEMA to further work with solid public-private sector 
partnerships in the insurance arena, which would reduce the 
need for supplemental requests down the road.
    When you get to these big, big disasters, our data would 
suggest that paying for public buildings and contents that are 
uninsured or self-insured is one of the greatest expenses we 
have as taxpayers. And I question, why are we doing that?
    Mr. Carter. I think that is a good question to ask. And 
that may require some legislation at this level, and if it--as 
you view it, have conversations with Members of Congress about 
it.
    Mr. Long. Yes, sir.
    Mr. Carter. If we are going have it to write legislation to 
redirect things, I think that is what we do for a living.
    Mr. Long. Yes, sir.
    Mr. Carter. Well, I will yield now to Ms. Roybal-Allard.
    Ms. Roybal-Allard. Administrator Long, I think, in your 
open statement and in some of the comments you have made, to 
some degree, you have already answered some of the questions 
that I have, but I would like to ask them anyway and give you 
an opportunity to either add or to elaborate on what your 
efforts and your needs are.
    Last fall, the President issued major disaster declarations 
for areas of California that were ravaged by wildfires. This 
came on the heels of several fire management assistance 
declarations for California in the preceding days. I understand 
that FEMA has already obligated $230 million in fire management 
assistant grants for fiscal year 2018, and these grants are 
funded out of the Disaster Relief Fund base account. Is there 
sufficient funding in the Disaster Relief Fund base account to 
provide fire management grants for all eligible recipients? And 
with regard to the DRF base, is the budget request enough if we 
have a fire and hurricane season similar to last year's?
    Mr. Long. So excellent question. One, Mother Nature 
dictates how many fire management assistance grants we are 
going to have it to put out. And this past year was an 
unbelievable year. Two, the DRF as you guys know, is dictated 
by the BCA and the formula that is put forward. My concern with 
wildfires and what he we saw this year was the volume of 
wildfires can deplete the DRF toward the end of the fiscal year 
as we head into major hurricane season, which requires us to 
come to you for supplemental requests. Now the omnibus bill, as 
I understand it, did fix some of the problems that many of 
Governors were having problems with when there were fires 
occurring on Federal lands, which is not FEMA's responsibility. 
Our role is to make sure that a fire doesn't get out of hand 
and become a major disaster declaration similar to what 
California was impacted by.
    And I think that the insurance industry looks at California 
as probably the worse wildfire on the globe that we have ever 
seen. It is one of the most disturbing events I have ever been 
a part of.
    Ms. Roybal-Allard. The supplemental appropriations bill for 
the hurricanes provided up to $4.9 billion for disaster loans. 
These loans would help local and territorial governments with 
the costs associated with operating their governments given 
that they are facing lost revenues. In addition, $300 million 
was provided for making loans to Puerto Rico and the U.S. 
Virgin Islands to pay for the non-Federal cost share of 
projects. My understanding is that the progress on making these 
loans has been disappointingly slow. I understand that, to 
date, only $54 million in loans have been made to 
municipalities in Puerto Rico. I have three questions here. Can 
you update us on the progress of these loans and why the 
application process takes so long? And for Puerto Rico, are 
FEMA and Treasury working on a long-term estimate for the need 
of these loans? And going forward, will FEMA and the Department 
of Treasury be able to ensure these loans more rapidly--issue 
these loans more rapidly.
    Mr. Long. Yes, ma'am. Thank for the question because there 
is a lot of confusion around this. Yes, FEMA does administer 
the community disaster loan program. And not to belabor this 
point, but because of the liquidity issues that we were facing 
in the Commonwealth, Treasury proactively and rightfully has 
stepped in to help us understand the situation including how 
much liquidity Puerto Rico government actually has. It is my 
understanding that when Puerto Rico's budget reaches a critical 
low point of $800 million, then the loans can begin to be 
placed and Puerto Rico can draw down against them. So that was 
basically what the deal between Treasury and the Governor was 
worked out in Puerto Rico. But I can come back in writing for 
specifics.
    Ms. Roybal-Allard. OK. I would appreciate it.
    Mr. Chairman, will we have time for a second round?
    Mr. Carter. I don't know yet. We have several----
    Ms. Roybal-Allard. OK. Then I will anticipate we do and 
yield back.
    Mr. Carter. Mrs. Lowey.
    Mrs. Lowey. Thank you very much.
    And thank you for your presentation.
    Administrator Long, I understand that FEMA and the 
Department of Homeland Security are looking to change the way 
risk is calculated for metropolitan areas. This could impact 
the allocation of grant funding in both the State Homeland 
Security Grant Program and the Urban Areas Security Initiative. 
I am aware that the threat is changing, and we need to take 
that into account. My concern is that, rather than relying on a 
robust analysis of threat, vulnerability and consequences, the 
risk analysis will be tweaked to fit what is only a perception 
of the evolving threat. That would defeat the purpose of having 
a rigorous risk methodology at all.
    So has any independent third party, outside of FEMA or 
Department of Homeland Security, looked at the proposed changes 
to the risk methodology? And do you think it might be valuable 
to have an independent review from the GAO or some other source 
of expertise before you change the method for calculating risk?
    Mr. Long. Sure, and, ma'am, I really appreciate the 
question as well because I don't want FEMA doing anything in a 
vacuum that becomes detrimental to anybody. I am a believer in 
doubling down on communication. When it comes to third-party 
review, we typically rely on reaching out to the National 
Emergency Management Association and the International 
Association of Emergency Managers. I don't have a problem with 
engaging GAO because we want to do this right.
    The problem with the grant system is that I don't think the 
Federal Government has ever done a good job of measuring return 
on investment and I don't believe that the old risk formula was 
actually a formula at all. And so we have to be able to build a 
defensible formula that allows numerous communities access to 
funding to help them kick-start recovery.
    When it comes to cost share and grants, I don't believe 
that it is FEMA's place to fully supplement a program through 
its cradle-to-grave lifecycle. I believe that State and local 
governments need to have skin in the game. And I believe that 
these programs should be designed to kick-start initiatives and 
help communities to graduate their budgets to be able to 
continue going down the road of a robust program in the future.
    Mrs. Lowey. Well, I think that is an issue that is really 
critical that we work together on.
    Mr. Long. Yes, ma'am.
    Mrs. Lowey. I understand your point of view. And in some 
instances, I would agree; and some, I probably would not.
    I just want to mention one other program, the nonprofit 
security grants in the State Homeland Security Grant Program. 
When Secretary Nielsen testified before this subcommittee, I 
asked her about a new grant program I fought to include in the 
most recent omnibus. Funding to nonprofits located outside of 
areas designated for the Urban Areas Security Initiative really 
help those organizations improve security at a time when hate 
groups are on the rise across the country in communications 
large and small.
    According to recent reports by the Southern Poverty Law 
Center and the ADL, neo-Nazi groups grew by more than 20 
percent in the past year. Anti-Semitic incidents rose by more 
than 90 percent in New York in 2017 alone. And that is why I 
was so pleased to hear Secretary Nielsen state her intention to 
focus DHS' efforts on hate groups widely, including white 
supremacy groups. This $10 million in funding will really help 
organizations like some of those in my district proactively 
combat the changing face of hate, threat, and violence.
    Can you tell us when you expect the grant notice to be 
released? And when do you think the funding will go out?
    Mr. Long. I don't have an answer on the timing. We will 
definitely follow back up with you. But I would agree that this 
money, the nongovernmental organizations that are active in 
disasters, are incredibly important. They are one the most 
important pillars in the whole community, and we depend on 
them. We specifically depend on them to do things that we are 
bound by regulation that keep us from being nimble in some 
cases. So we look forward to putting this money to work, and we 
will get back to you on the timeframes.
    Mrs. Lowey. Thank you very much.
    Thank you, Mr. Chairman.
    And I want to thank you for your presentation. You seem so 
well informed, and we are very honored to have a person of your 
caliber take on this responsibility. The chances--the 
challenges are just incredible. And I know we discussed Puerto 
Rico, so I won't bring that up today. But I hope you really 
stay on it because the tragedy was overwhelming. When you are 
up in that helicopter and you see all the homes without roofs 
and the electric grid and the water and the food and the jobs. 
So thank you for your leadership, and I hope you really stay on 
it. And don't forget St. John's as well.
    Mr. Long. Thank you.
    Mrs. Lowey. Thank you very much.
    Mr. Carter. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And, Administrator Brock, we appreciate you and your 
service. And please give our best to everybody that is under 
you. I know that they have a very challenging environment to 
work with, as you do you, lots of challenges. I am very happy 
to hear some of your comments about streamlining the agency and 
also I do want to touch on Puerto Rico just briefly. I was just 
down there last weekend in Orocovis and understanding that, as 
we talked about just a little earlier, about deterred 
maintenance and some issues with Puerto Rico themselves have 
had that were not prepared, if you will. But, obviously, we 
still have to go down there and help out to make sure that we 
are doing everything we can to make them more resilient and 
have a more robust system.
    So one of questions that I have: I was speaking with the 
mayor down there in Orocovis, and he was--it is my 
understanding that the municipalities will spend their money, 
of course, to fix infrastructure and then get reimbursed. 
However, they don't have a lot of money, right? So they sort of 
then run out, and it is not fixed or finished, and we have 
another upcoming hurricane season. I am curious: What is 
happening to make things more efficient? Is there a way to do 
so to make sure the infrastructure is fixed before the next 
hurricane season?
    Mr. Long. So, Congressman, great question. Just be honest, 
there is no way we fix the infrastructure before the next 
hurricane season. I can tell you that we are proactive when it 
comes to the money management and kick-starting the projects 
and making sure that project worksheets are being estimated and 
the work being done. We are embedding staff with the 78 mayors. 
We have embedded staff a long time ago to be able to work with 
them directly to navigate.
    But we are in the train-the-trainer process as well, as I 
said earlier, with the 1,500 local hires, or approximately 
1,500 local hires, that we have done. And that is my army going 
out and basically helping these jurisdictions navigate.
    When it comes to the infrastructure, we have to remember, 
for example, a lot of the power grid wasn't functioning before 
the storm. You guys gave me the authorities to fix that. We are 
putting temporary roadway systems in until roads can be 
rebuilt. So we just have a long way to go. We are going to be 
there for years.
    Now what we are doing to get ready for hurricane season: We 
are rewriting emergency operation plans for all 78 
jurisdictions. We are also rewriting plans for the 
Commonwealth. On June 14, all of our efforts to write the 
plans, train upon the plans, is going to be exercised on June 
14 with a full-scale exercise. I am exponentially increasing 
the amount of food, water, and supplies that we have on the 
island. And then we are going to run through plans of 
distribution for commodities, and the commodities that we were 
allowed during the exercise, we are going to allow the 78 
municipalities to keep the commodities so they can build their 
own levels of preparedness on a daily basis.
    Mr. Taylor. One quick thing on the efficiency of 
reimbursements for the locality so they get money back to be 
able to do what they need to do locally. Is that being looked 
at I guess?
    Mr. Long. Yeah.
    Mr. Taylor. To make sure they get reimbursed faster.
    Mr. Long. Right. And in some cases, we may be entering into 
what are call expedited processes to be able to get funding to 
them if there is liquidity issues or the lack of funding. We 
did that in Texas. We did it in numerous locations across the 
country, but I would be happy to respond to you in writing on 
how we are actually managing the money processes at the local 
level.
    Mr. Taylor. One quick question, is FEMA looking at new 
technologies to help with disaster relief to get things, 
products faster? For example, you mentioned housing, things 
like 3D printing housing and things like that?
    Mr. Long. Excellent question. So, under the third goal of 
reduce the complexity of FEMA, there is $124.6 million ask in 
the fiscal year 2019 budget for specifically critical 
infrastructure and analytics investment because we have got to 
do a better job of understanding the interdependencies with our 
own agency but how we interact with the 16 critical 
infrastructure sectors to make sure that we are making the 
right decisions and putting money down in the best way we can.
    Mr. Taylor. I appreciate it. One more last thing, under the 
administration, politically there has been some hits, of 
course, about reducing programs that have been helping with 
things like sea level rise. So, in coastal Virginia, Hampton 
Roads, that is an issue. Regardless of what you think 
politically how it gets there, we have soundings, and so there 
is sea level rise. So, in terms of resilience and helping 
communities, is that something--let me also say there are a lot 
of programs in the government that need to go away that are 
well-intended but may not work well. In your mention of a 
culture of preparedness, are we also working with resiliency in 
areas like Miami and Hampton Roads and Louisiana for sea level 
rise?
    Mr. Long. Sure, so I had a conversation the other day with 
a very talented forecaster from NOAA by the name of Chris 
Landsea, and we were discussing that the ocean seems to be 
rising 1 inch every 10 years. Obviously, we have to start 
accounting for that. And our strategic plan embodies this. So 
that is why I am asking for predisaster mitigation, a real 
mechanism to do predisaster mitigation upfront that we are not 
having to negotiate or it doesn't get zeroed out every year by 
every President that goes forward or whatever, that there is a 
mechanism to help communities start to elevate roadway systems 
and infrastructure in anticipation of sea level rise.
    The other thing is that FEMA can't stop sea level rise; 
that would be the equivalent of us saying we are going to stop 
plate tectonics as well and halt all the earthquakes. What we 
can do is we can ready the Nation for catastrophic disasters as 
well. We anticipate that over 30 percent of the flooding that 
we see across the country is because of the built environment, 
the newly built environment and the way we are expanding 
without proper land-use planning and building code.
    So there are a multitude of things that we have got to 
start putting forward. And I believe disaster resilience is in 
the hands of the State and local governments to pass those 
land-use planning laws and building codes. My agency gets to 
deal with the consequences or the lack thereof.
    Mr. Taylor. Thank you, Administrator Brock, I appreciate 
it.
    Thank you, Mr. Chairman.
    Mr. Carter. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Welcome, Administrator Long. Happy to see you back here at 
the subcommittee to congratulate you on your good work and also 
acknowledge a fellow North Carolinian. I hope you still claim 
that.
    Mr. Long. Heading there today. Maybe I can ride with you.
    Mr. Price. All right. Maybe so.
    Well, speaking of that, I have only one shot here, but I do 
want to ask a couple of questions, and hopefully we can deal 
with both of them because they have to do with part of your 
broader support system: the national service volunteers who are 
playing an increasing role in disaster relief and recovery, and 
then the work at the center at UNC Chapel Hill, the Coastal 
Resilience Center, which I understand you are going to be 
addressing on Monday, which we are very glad to know.
    Mr. Long. Yes.
    Mr. Price. Both of these are problematic in the President's 
budget, which is a nice word for being zeroed out so that is 
why I bring them up. And I want to ask you about the value of 
these aspects of your support system.
    First, national service. You know very well that all hands 
on deck are required as a North Carolinian and now in your 
national role. Volunteers are often a crucial part of the 
response and recovery. We did form a new national service unit, 
the FEMA Corps, in 2012. I understand that something like 4,000 
national service volunteers were involved in 2017 alone in 
relief and recovery efforts. They act as force multipliers. I 
am going to ask you actually to describe what they do. What do 
these volunteers do to extend the reach of emergency relief and 
help ensure the long-term recovery of communities? Why on Earth 
would the administration zero out national service? Are there 
any other barriers that exist to volunteers that Congress 
should address? But I am co-chair of the National Service 
Caucus. I have seen this firsthand in North Carolina, and so I 
am baffled by the budget, but I am also, of course, encouraged 
by the support that they have increasingly--volunteers have 
increasingly offered in our national recovery capacity.
    Mr. Long. Sure. Obviously, taking this job, I became 
Administrator in a very tough budget environment. And, 
unfortunately, cuts have to be made here and there. And I have 
got multiple training facilities. Like when it comes to 
universities, I would love to be able to fund a ton of 
programs, but I also have EMI; I also have the Center for 
Domestic Preparedness, which are very expensive institutions 
dedicated to training. I need to concentrate somewhat on my own 
shop within FEMA.
    And then, when it comes to FEMA Corps, FEMA Corps is a 
great program. The bottom line is that it provides a jumping on 
point for people to get involved in emergency management. And 
we make a concerted effort to hire those who have gone through 
FEMA Corps into the disaster corps positions or PFT positions 
as they come available where we can. We try to do that. But, 
Congressman, tough calls have to be made. It is not just 
providing money to State and local governments. I think 2017 
should be a reflection point for State legislatures and local 
elected officials to reevaluate how much their staffing and 
funding their emergency management programs. I cannot continue 
to supplant them in their entirety.
    And I will go back to my experience as director of Alabama 
Emergency Management Agency. My general fund budget was 
somewhere between $5 million and $7 million to run a State 
emergency management agency. During the height of the 2017 
season this year, FEMA was spending that in a matter of an 
hour. So I am spending $300 million a day at the Federal 
Government level, and literally, that is a general fund budget 
of a State agency is spent in less than 2 hours. There is too 
much of a gap.
    And I am also trying to combat the fact that there is a 
reduction in grants, which makes up most of the budget cuts, by 
introducing what we call FEMA integration teams. I am ready to 
take the staff that I have out of my regional offices and out 
of headquarters and move them into the State agencies which we 
are embarking on this week. We are beginning to phase this out 
to where we are putting full-time staff in State agencies to be 
a part of the discussion every day but to also to help them 
overcome the planning gaps that they may have when it comes to 
staffing as well.
    So it is not just funding. It is getting my people out, but 
also, as I said earlier, the greatest thing that Congress can 
do to help the States is increase the management costs from 
3.34 percent to 12 percent. And we can use disaster relief 
funding to help them augment their staff and capabilities. We 
can't just singularly look at grants. What are the multiple 
tools in the tool box that we can collectively provide to 
States? And that is the way I approach this job.
    Mr. Price. Mr. Chairman, I know my time has expired, so I 
am going to ask the Administrator to submit for the record a 
direct answer to my question about the role of national service 
volunteers in 2017 and otherwise and also to answer the 
question I was going to ask had there been sufficient time 
about the role of the Coastal Resilience Center.
    Mr. Carter. I will yield you that time.
    Mr. Long. OK.
    Mr. Price. Thank you. Let me just ask directly about that, 
if you have--submit whatever you want to about the national 
service.
    Mr. Long. Yes, sir.
    Mr. Price. You really didn't address that.
    And then this Coastal Resilience Center, as I said, you are 
going to be there on Monday. I am sure you will be thanking 
them for what they have done. It is my understanding their 
storm surge modeling played a large role in FEMA and the Coast 
Guard's decisions about where to place people and assets during 
Hurricanes Harvey and Irma. I wonder if you could elaborate on 
that. And any of this, of course, you could elaborate for the 
record. Tell us more about the importance of the center's work, 
and what are your thoughts about eliminating all of the funding 
for this?
    Mr. Long. So Gavin Smith, who runs the program, is a good 
friend of mine. He is a very smart mitigation-minded subject-
matter expert. The bottom line is it boils down to, here again, 
it is a tough budget environment. Should FEMA be funding 
universities? And how many of these programs should we fund 
nationwide? Or do I need to concentrate on working with our 
partners? NOAA also does storm surge modeling that we depend 
on.
    Mr. Price. If that is the case, let me--my time is 
limited--if that is the case, if this is duplicative, if the 
work of the Coastal Resilience Center really is not needed, 
then you need to document that.
    Mr. Long. I am not saying it is not needed. I am just 
saying, for me, I can't fund it all.
    Mr. Price. Is it redundant?
    Mr. Long. I don't know enough about the program.
    Mr. Price. Well, I think somebody should look at this. I 
mean, this is siloed. It looks to me like it is siloed, and you 
are talking about budgets that aren't directly in your purview, 
but it is certainly budgets you should care about. And it seems 
to me, if you care about it, if it is important to your work, 
you should say so. We need some assurance that, within the 
administration, these conversations are going on and that 
functions that are critical to something as important as the 
work of FEMA, that those are highlighted and that, if there is 
something that we can safely eliminate, then we need to have 
the rationale for it.
    Mr. Long. Right. I am not at a point to tell you what 
should be eliminated against at this point. I am going there to 
learn, to be honest. And I appreciate everybody that is trying 
to put forward better information to FEMA, and we have to be 
able to utilize it. But, here again, I only have so much 
funding, and I have to make hard decisions, and we have to make 
hard decisions. So I would be happy to respond to you in 
writing once I learn more about the Coastal Resilience Center, 
I would be happy to respond in writing about what we found.
    Mr. Price. Good. I will appreciate that. And also a 
response in terms of more specifics about the national service 
input.
    Mr. Long. Sure.
    Mr. Price. Thank you very much, Mr. Chairman.
    Mr. Carter. You are welcome, Mr. Price.
    Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Mr. Brock, thank you for being here today. I have known 
several FEMA Administrators, and you seem to be one of the best 
ones that I have heard explain your agency, so thank you for 
your honest and clear answers.
    Real quick, I am from Gulfport, Mississippi, Mississippi's 
Fourth Congressional District. One thing you can relate to that 
is Hurricane Katrina. We were ground zero, and we took it right 
on the chin. And it took almost a decade for us to be 
comfortable in our recovery. The one thing the Gulf Coast, and 
not just in Mississippi but coastal areas, any place that lives 
on or near the water, which is practically the majority of the 
population in America, relies on insurance, the NFIP program. 
In Mississippi alone, it is 64,000 NFIP policies.
    Mr. Long. Right.
    Mr. Palazzo. In 2013, Congress tried to improve the NFIP 
program only to basically cause a lot of unforeseen problems, 
and with that was the drastic rate increases on homeowners who, 
at no fault of their own, were in NFIP program because it was a 
government program, and it was the only insurance available. 
Overnight, they were going to see their rates go up double, 
triple, quadruple, and that was a big concern. And Congress 
acted swiftly. I think the term was ``unintended consequences'' 
is what many of us used on the floor. The bill was tied to some 
other things, like the RESTORE Act, which was the delivery of 
the penalties from the BP oil spill, and a 2-year surface 
transportation extension. And so the fact that we were going to 
find a longer term solution to NFIP, the reauthorization, 
because prior to, there were 16 or more short-term 
reauthorizations, and, obviously, those reauthorizations and 
the fear of it expiring, and you can't get a mortgage if you 
are required to have flood insurance. So it was affecting 
homeownership, home building, economic development, just 
uncertainty and instability of the market.
    Now guess what? Fast forward, you know, the House has 
passed a bill which is impassable. It has some good reforms. 
There is no way it will ever pass the Senate because it is 
going to increase rates on homeowners, and it is going to 
cause, again, market disruption. But, you know, we are for 
moving as much of this to the private sector as possible, but 
there is not a private sector market right now in many areas.
    And so I guess the thing is, can you kind of tell me, has 
the fact that we haven't reauthorized the program--it looks 
like we are constantly searching for must-pass legislation to 
attach even the short-term reauthorization to--is that having 
any effect on your agency right now?
    Mr. Long. Well, thanks to Congress, those supplementals 
helped us in debt forgiveness right off the bat. Every time we 
have a massive event, it gets to a point where FEMA can't even 
pay the interest bill anymore on the NFIP program. And so we 
need to make the NFIP program financially solvent. I don't have 
all the answers on that, but sometimes I think we may be 
attacking it in the wrong manner.
    For example, any house the United States can flood. Why are 
we solely focused on these flood zones? And what we learned 
from Harvey is thousands of homes can flood outside of those 
zones that were not depicted in there, particularly if street 
drains are not well maintained or the built environment changes 
the flood zone quicker than the mapping changes. And so every 
house can flood.
    Until there is a legislative fix, I am working and my 
mitigation guys are working with the private industry through 
reinsurance, and I believe that we have offset some of that 
cost and saved taxpayers over $700 million most recently with 
getting them to back us up through reinsurance.
    The thing about NFIP and what runs through my mind, and we 
would have to talk to the private sector to start dialogue, but 
why is flood insurance not connected to every insurance policy 
in America? Why is there not an all-hazards insurance policy 
every time you buy a house, and so you reduce the cost? You 
spread it out, and it becomes more affordable. I don't know why 
we have to have this a la carte system of you have got to have 
fire insurance that you can let lapse if you paid off your 
House; you can choose or not to choose to buy NFIP flood 
insurance if you are outside a special flood hazard zone. Why 
are we not working with the private industry on a more 
innovative solution of saying, can we get to an all-hazards-
based insurance package for a homeowner?
    Mr. Palazzo. All-hazards, sounds good to me.
    I want to be very sensitive with my time. It is a fly-out 
day. Thank you, Mr. Brock.
    I have several questions related to mapping on the 
Mississippi Gulf Coast compared to my neighbors in Louisiana 
and Alabama, and I will submit those for the record.
    Mr. Long. Thank you. All right.
    Mr. Carter. Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you. Thanks for being here. We 
have a lot of people who we ask questions, but it seems to me 
you are pretty well respected, and it is based on your actions. 
You know, a good manager is only as good as his team too, so I 
am sure you have a good team.
    You know, you are one of the most important agencies, I 
think, in the government because you protect the American 
people and our critical infrastructure from a host of evolving 
threats. It is one of the only agencies which the public hopes 
they never have to deal with. When you see a FEMA van or tent, 
you know something tough or terrible has happened. However, 
your lifetime, facing tragedy--and, in fact, we basically saw 
that severe tragedy. As you said, last year was probably the 
worst year you think FEMA has had. Is that correct?
    Mr. Long. I would argue yes.
    Mr. Ruppersberger. OK. During this time, FEMA--I think you 
delivered 138 million meals, 194 million liters of water, and 
1,310 generators to power critical facilities supporting 
survivors impacted by the four major hurricanes. And while 
improvements can always be made, I think your agency should be 
impressed with this good work.
    Now, I want to just focus on one issue today, and that is 
port security grants.
    Mr. Long. OK.
    Mr. Ruppersberger. I represent the Port of Baltimore, and I 
have been involved in a lot of port security issues and reports 
on that issue. I am discouraged by the administration's 
deficient funding request for the Port Security Grant Program. 
This program was included in the original Department of 
Homeland Security authorization. And in my eyes, this is clear 
evidence that Congress recognized the urgent need to secure our 
ports.
    Each year, America's ports generate 4.6 trillion in revenue 
and employ 23 million people throughout the country. And now, 
with the expansion of the Panama Canal, we can only expect to 
see even more of an increase in that area.
    The bottom line is that the economic impact of sea ports 
cannot be understated. According to the Brookings Center for 
the 21st Century security and intelligence, it would take a 
small attack on our ports to grind U.S. commerce to a halt 
within days. Thus, the need for port security cannot be 
understated.
    For this reason, we need to protect our maritime 
infrastructure. The Port Security Grant Program assists both 
large and small ports with chemical, biological, nuclear, and 
explosive detection. And funding can also go towards bolstering 
cybersecurity capabilities and implementing transportation 
worker identification credential card systems.
    My question is--I have three. First, in your opinion, do 
you believe that the Port Security Grant Program has been a 
valuable tool in combatting terrorism? To me, a cut to this 
program implies that our ports have shored up all of their 
vulnerabilities. I assume you don't believe that is the case. 
And, three, do you believe our ports are being built for 
resilience against rising sea levels and severe storms which 
are increasing in intensity and frequency?
    Mr. Long. Right.
    So, when it comes to port security, it is my understanding 
that we spent quite a bit of money through grants to build a 
baseline capability. And what we don't do a good job of in the 
Federal Government when it comes to the return on investment 
is, what point do we build that baseline and have a handoff to 
the port authorities and to the State and the local 
governments, and should grants start to graduate and reduce 
overtime as we build a baseline capability? Or do we just keep 
continuing to grow this budget and I become the person that 
supplements these grants in entirety. And then what happens to 
tomorrow, as the threat changes, I have got to find new money 
to address this problem or that problem. And I think that this 
is one of those grants where we build a tremendous capability. 
But where is the handoff to? You know, and I am fairly asking 
the question. Where is the handoff to the port authorities, to 
the State and local governments? And as well as the private 
sector that uses those ports as well?
    Mr. Ruppersberger. Well, in my opinion, it is based on 
which port, the management of the different ports. But that is 
why, in the beginning, I talked about how important port are. 
Trillions of dollars, I mean, just a shutdown, when we had, I 
think, a strike at the port in California. I mean, this is a 
tremendous industry with a lot of vulnerability, a lot of drugs 
coming in.
    We had, yesterday, we talked about how we--I don't think 
any port has the manpower to deal with the drugs that are 
coming in, especially Fentanyl. So I would suggest that you 
look at it, and you need to manage where the money is going. 
But I think the Federal Government has to step in when it 
relates to ports.
    Mr. Long. Sure.
    Thank you, sir.
    Mr. Carter. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    Administrator Long, we really appreciate your work, 
especially appreciate your clearly earnest and sincere desire 
to get the money out the door as soon as you can, to front-load 
the funding for disaster victims, to put it in the hands of 
property owners who are going to take the best possible care of 
their own property. Get it out in the hands of Governors and 
local authorities is the right way to do it.
    I am convinced that your approach and your attitude lies at 
the heart of the reason that Donald Trump was elected President 
because people feel the government is so badly broken that they 
elected this guy from outside of the entire process as a 
businessman to just get 'er done, get things fixed and done. 
They just want action and decisive action.
    And I would encourage you, as someone who served--I started 
in the Texas house, and I served here in Congress and know that 
if a law is maybe a little ambiguous or seems to leave you an 
opening, just do it. I mean, get to yes. I have heard you say 
that before. We had a very good meeting. Governor Abbott and I 
came in to see you. And I know that you have instructed your 
staff on repeated occasions: Don't tell you the reasons you 
can't do something; tell you the reasons you can do it. And I 
encourage you to just be bold and assertive and to get to yes. 
And if the law looks like it is ambiguous or gives you an 
opening, just do it.
    You have been terrific when it comes to requests that we, 
as Texans, have submitted to you. When I have asked you to 
extend hotel stays for disaster victims, you have done so; 
increase the Federal share for debris removal, you have done 
so; concur that extreme circumstances existed so contracting 
could be expedited, you did so.
    But there are a couple other really small fixes that you 
have got authority right now to do that would make a dramatic 
difference for homeowners who--thousands of whom are living on 
the second floor of their homes in my district with all the 
sheetrock torn out on the first floor. And they have over 
their--because there have been times they were denied rental 
assistance. And if you go to the FEMA website and log on--to 
the fema.gov website and ask what specific items are covered by 
housing assistance, it tells you that this housing assistance 
includes reimbursement for short-term hotel expenses, money to 
rent a place to live for up to 18 months while your home is 
being repaired. And an immediate question a homeowner has, 
Administrator, is, does my income matter?
    Well, the law says, no, it doesn't matter. And, in fact, 
your website says that. Question: Does my income need to be 
under a certain dollar amount to qualify? Answer: No. FEMA's 
housing assistance program is available regardless of income to 
anybody who suffered damage or losses.
    But that is not the way the bureaucrats and FEMA are 
administering the program. They are denying rental assistance 
to thousands of my constituents who have sunk all their money 
in their home. They are not wealthy. They have got kids in 
college, a mortgage that they are still paying on a home that 
is flooded out, and having to pay rent in a lot of cases to 
stay in the school district, and a lot of expenses, and they 
are being denied rental assistance. But you have got the 
authority, literally, to just change that and comply with what 
is on your website.
    Would you please do that? And how quickly can you could 
that?
    Mr. Long. So, Congressman, as we spoke the other day----
    Mr. Culberson. I have been on you about this.
    Mr. Long. No, no, no. And I appreciate it because I wasn't 
aware of the issue until you raised it. And so, you known, the 
bottom line is, is it spawned very deliberate conversations. 
And we are actually going to be entering into the rulemaking 
process to look at a whole host of, why do we put these 
ramifications on assistance to begin with, right?
    Mr. Culberson. But you could do this.
    Mr. Long. Some of it, yeah.
    Mr. Culberson. Don't get lawyers arguing with each other; 
just do it. Just get 'er done. That is what this election was 
about. The American people voted to get 'er done, right? 
Please.
    Mr. Long. And I will continue to work with you. And I 
appreciate you raising the issue.
    As you know, I am always in a rock and a hard place when it 
comes to being deliberate and understanding. That policy that 
was put into place, as a result of the 2001 terrorism events in 
New York. And I am trying to understand why, and I am trying to 
understand what the ramifications are by moving it. But we are 
trying to move it as quickly as we can. And I will stay in 
contact with you.
    Mr. Culberson. Now, you are a bold, decisive person. I can 
tell you are letting the lawyers discourage you and slow you 
up. Don't do that. It is clear as a bell. Just go for it.
    This Hazard Mitigation Grant Program is another one that I 
am concerned about. As I understand it, the State of Texas will 
receive 1.1 billion in FEMA Hazard Mitigation Grant Program 
funding this year. But as you know, this funding is awarded to 
the States on a formula basis after a presidentially declared 
disaster impacts an area.
    Administrator Long, could you describe, please, how these 
programs--what types of projects these funds can be used for 
and how quickly this money will flow to the State of Texas? And 
what role does FEMA play in approving the projects recommended 
by the States? And what kind of projects have been proposed so 
far? And what have we done to speed it up?
    Mr. Long. I don't know what they proposed so far. But the 
HMGP postdisaster mitigation program is based on a percentage 
of public assistance dollars, I will get you the exact formula. 
I think it is like 15 percent of the public assistance dollars 
that we put forward in a disaster becomes available in 
postdisaster mitigation. The cost share on that is set by the 
Stafford Act at 75/25. So I don't have any authority that I am 
aware to be able to waive that 25 percent.
    But, going back to States' rights, the Governor is in 
control of that response and recovery. And so what my job is, 
is to make sure that we are helping Govenor Abbott to meet his 
mitigation recovery goals.
    Mr. Culberson. That is what we want to hear, because Texas 
can move a lot more quickly.
    And, Mr. Chairman, if you will permit me, since we just got 
this one round and we got so many folks out there hurting, can 
I ask very quickly about the DALHR Program?
    Thank you, sir.
    The Direct Assistance for Limited Home Repair Program is 
administered by the General Land Office in unincorporated areas 
in the city of Houston inside the city limits. And I have heard 
from constituents there has been a lot of confusion and delay 
regarding this DALHR Program. And I understand the GLO plans to 
end the program--the General Land Office--to end the program 
for the unincorporated parts of the city of Houston in Harris 
County and that the city of Houston only recently got underway 
with administration of the program within the city limits. It 
has been really spotty.
    Are you aware--what is the current status of the program? 
And what can you do to help, once again, take a blow torch to 
whatever----
    Mr. Long [continuing]. Right.
    So, here again, what would fix this problem is granting 
authority on housing. If you can give me the granting authority 
to provide funding to a Governor, down through a Governor, to 
allow that Governor to control housing and do housing way he or 
she would like to, a Governor will out-manage us. They will do 
it more efficiently.
    The problem with the inter-service government agreement, 
and the reason we went this way is I don't have enough 
manufactured homes to handle the flooding in Houston. I mean, 
the population of Harris County alone is more than Puerto Rico.
    Mr. Culberson. Sure. Well, as the judge said, there are 
186,000 homes being remodeled.
    Mr. Long. Right.
    And so we had to put numerous options on the table. And I 
put travel trailers back on the table that--they were taken off 
the table for some reason, because I knew that there was going 
to be a shortage in housing.
    We tried to be innovative in this inter-service 
governmental agreement, and Governor Abbott boldly and 
courageously stepped up to lead it. He has one of the only 
Governors that has ever done this. And I commend him for it.
    But the problem is that the mechanism is not right. And I 
will admit it now: I think it would be better for the Governor 
to purchase housing or provide funding to the homeowner then 
under my bulky code of Federal regulations.
    Mr. Culberson. Going through the State.
    And I thank the chairman for the extra time. It is 
appropriate as we, Mr. Chairman, very quickly celebrate Thomas 
Jefferson's 275th birthday today, that we remember that the 
Founders intended, and Mr. Jefferson in particular, that the 
States administer things that affected only the States. And 
Jefferson liked to say regularity that if we would just follow 
the Constitution and apply that standard to any problem, no 
matter how complicated, he said the Gordian knot will always 
untie itself.
    So you are on the right track. Governor Abbott. Let Texans 
run Texans. We will take care of it.
    Mr. Long. Thank you.
    Mr. Culbertson. Thank you.
    Thank you, Judge.
    Mr. Carter. Ms. Roybal-Allard would like to have another 
round. And so there is just three of us left, so we are going 
to have another round.
    Ms. Roybal-Allard. OK.
    Mr. Carter. I am going to start off.
    Once again, a program it looks like you are about to 
eliminate, which I have a lot of interest in, the National 
Domestic Preparedness Consortium. My State is a State with a 
lot of big cities, but it is a great big place. And it has got 
more little towns than we got big cities. And the training 
center at Texas A&M University trains our first responders. 
Literally every small town in Texas is blessed by that being 
able to train.
    To say that we no longer are going to have that available 
is to say that two-thirds of my State is going to have both 
medical and firefighting at a minimal level. And I don't 
understand--I would like you to explain why that is necessary.
    Now, if it is because it is administered by a university--
and, you know, I can understand prejudice against big 
universities. Not unlike big government, they don't look at 
where the digits are as desperately as they should. But that is 
a management issue if that is the case.
    But to cut off all funding to things like what we are doing 
in Texas is to cut off fire protection and EMS protection to 
two-thirds of our State. Not that we won't have it, but they 
just won't have it effective.
    Now, I have got Fort Hood in my district. We got the best 
training ranges in the entire United States Army at Fort Hood 
with the exception of the National Training Center. OK? That is 
where you learn the best. You train, and we train--we are great 
trainers. We have got great soldiers, and they are well 
trained. But they all go through the National Training Center 
before they go to war, if it is available to us in the war 
situation. Because, therefore, you save lives, you are more 
effective, you win battles. That is what this consortium is 
doing for the small towns and midsize towns of my State and of 
every State in this Union.
    If it is the fact that universities are attached to it, 
then let's figure out a way to make it better. But explain to 
me why basically you are saying--I know I have heard we got to 
make bad cuts and all that stuff. But I will tell you, you will 
harm--but in my district, it is basically suburban, but you are 
still going to harm about 25 towns in my district.
    Mr. Long. Yeah. And by no means do we want to harm anybody. 
I am just in a rock and a hard place when it comes to where I 
can prioritize our funding in a tough environment.
    When it comes to Texas A&M and the Texas system, look, it 
is a phenomenal system. We are working with them. If I remember 
correctly, we actually hired their engineering students to do 
home inspections. We had to perform over 2.4 million home 
inspections this year, which is, one, we have got to get the 
better technology and stop doing the manual process to begin 
with. But we are trying to find ways to engage universities. 
And universities do great work. I am in a rock and hard place 
when it comes to what we can fund and what we can't.
    I would love to be able to fund them all, but it is just 
not reality.
    Mr. Carter. Well, that seems to be your answer. I am all 
for going in and doing surgery on the Federal Government. I 
think it is a great idea.
    Mr. Long. I would be happy to work with you, sir.
    Mr. Carter. But I don't understand how I explain to some 
little town that has one fire truck--and the only people they 
get to train them is: Go to A&M. And I have graduated kids from 
high school. I taught Sunday school for 25 years. I have got at 
least five firefighters that I know of that I have taught. And 
nirvana for a firefighter in a small town is to go to A&M to 
that training center, because they come back with confidence. 
They know how to fight the chemical fires. They know how to 
fight vehicle fires. They don't just know how to squirt water 
on a grass fire.
    Mr. Long. Right.
    Mr. Carter. And they are better in every State for the 
people that live in their town for going there. And all I say 
is, if it is wasteful, let's figure out a way to not be as 
wasteful. If you need a share from the State, let's do a 
cooperative with the States or the locals, or whatever it 
needs. Add a fee, whatever it needs. But to kill it is pretty 
disastrous.
    Mr. Long. Sure.
    Mr. Carter. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Administrator Long, as you can imagine, 
I get a lot of questions about Puerto Rico and what is 
happening in Puerto Rico. So my last two questions are related 
to Puerto Rico.
    Six months after Maria devastated Puerto Rico, the island 
still has a long way to go, as we have discussed. According to 
press reports, FEMA has received claims for assistance to 
repair over 1 million homes on the island, but fewer than 40 
percent of those have been paid. And one reason for this delay 
is apparently a difficulty for residents to prove they own 
their homes. And it has been reported that some transactions 
are based on verbal agreements and handshakes and never 
officially recorded. Other survivors may have lost official 
documents during the storm. FEMA needs to find a way and a 
long-term solution, or some residents may never be able to 
return home.
    So what is the current plan to help these homeowners? Do 
you need additional authority from Congress to help solve this 
problem? And, finally, will you commit--if you need help from 
us, will you commit to providing us with technical assistance 
on what authority is needed to fix the problem including the 
authority to reimburse individuals who have made repairs at 
their own expense?
    Mr. Long. Excellent question, and you hit the nail on the 
head. This is a unique situation about home ownership that the 
agency has never run into before. And I don't know if it is a 
legislative fix or a policy fix. But what the concerning factor 
is, is that, you know, to protect the taxpaying dollars, I have 
to make sure that if I am providing funding to fix a house, 
that it actually gets done.
    And it is not that we don't trust anybody to do that. We 
are a very trusting organization. But if I do it and it turns 
into waste, fraud, and abuse, then I will be called back before 
this committee again saying that I leaned too far forward.
    So let me get back to you on whether or not it is a 
legislative fix, because I may need, once again, to ask you for 
special authority similar to looking the other way on the 
deferred maintenance piece, because we don't fix things that 
were not well maintained typically in disasters--or I am called 
before OIG again, and you are asking questions of why I am 
doing that.
    So let me get back to you on whether or not it is a special 
authority or not.
    Ms. Roybal-Allard. OK. And then my final question is, and I 
know that you have said that conditions on the island make 
recovery very difficult, which, again, we have talked about.
    A recent AP news story reported that, in the village of 
Corozal, Puerto Rico--detailed their struggles with getting 
running water. And speaking about this one area of the town, a 
resident said: Practically no one has shown up here.
    The story is dated March 16, 2018, and reports that they 
still didn't have running water or electricity and had not 
received the generator that they had requested.
    I had my staff share the article with your staff so that 
the subcommittee can get more detail about what is going on 
there and to have a better understanding of an area where the 
recovery seems to be struggling.
    Can you share what you found out? Are there any areas where 
we can be helpful? And is Corozal a good example of other areas 
in Puerto Rico that are also struggling to recover?
    Mr. Long. So excellent question too, and there is a lot of 
misunderstanding on the water. So PRASA, a majority of the 
PRASA system it services, an overwhelming number of the 
population in Puerto Rico is back up and running. Some of it is 
running on emergency power.
    I have not read the article, but what I would probably 
assume is if it is a private well that is not operational or is 
no longer useable, we first have to understand whether or not 
you can actually put a generator on that well to pump the water 
out. And if so, what type of generator?
    And if I remember correctly, we are working a mission 
assigned to EPA to be able to go in and do that. And then, if 
not, we are still mobilizing water to communities like that 
through water trucks or buffalos or bottled water. And we are 
working with NGOs to make sure they are getting out. But we can 
follow up on any specific area. I would be happy to do that 
and, you know, make sure that we are not leaving any stones 
unturned.
    Ms. Roybal-Allard. OK. Thank you.
    Mr. Long. Yeah.
    Mr. Carter. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    Administrator Long, this rental assistance thing is really 
a problem. It just--it really bothers me a lot, because we have 
got people that has now been--it is on the brink of being 8 
months since the storm made landfall. And the Stafford Act says 
you can't discriminate on the basis of race, religion, national 
origin, creed, or income.
    Your rule online says you will not discriminate against 
people on the basis of income. And this is really a desperate 
problem for people. The law is clear. Your rule is clear. There 
is no reason for there to be any delay with this. You have got 
the authority. I know your heart is in the right place. I 
guarantee it is lawyers arguing with each other that has got 
you worried. And I am a pretty good lawyer myself, as the judge 
will tell you. The other thing is I am relentless. I don't turn 
loose once I get ahold of something, do I, Judge?
    Mr. Carter. No, you don't.
    Mr. Culberson. I am not turning loose on this. You have got 
the authority to do this. And I tell you: I am going to use 
every tool that this committee has got to help the lawyers--not 
you; it is the lawyers underneath you that are the problem.
    I figured out a way to get to the Department of Justice to 
change a sanctuary city policy without ever passing a bill, 
with no language in my CJS bill, just using good common sense, 
good lawyering, and existing law.
    I am telling you: The law supports you on this. I am really 
counting on you to get this done. I am not turning loose of it. 
You can do this immediately. Just go tell those lawyers: Get 
out of the way. Get 'er done.
    Mr. Long. OK.
    Mr. Culberson. I am coming. Culberson is after us.
    Mr. Long. Thank you.
    Mr. Culberson. I really appreciate that. That is very 
important. These people are really hurting.
    Mr. Long. I understand.
    Mr. Culberson. That is something you can do right away to 
help them. I deeply appreciate it.
    Mr. Long. Thank you.
    Mr. Culberson. You could also--one other thing you have got 
authority to do is let people use the mitigation grants. When a 
property is purchased, the law is ambiguous. I believe it gives 
you a little daylight where you could give the homeowner the 
flexibility to use that grant to lift a new structure. Right 
now, they are limited to lifting an existing structure, which 
makes no sense, because, as you said many times, nobody is 
going to take better care of a piece of property than the 
property owner.
    Mr. Long. Right.
    Mr. Culberson. Or no one is going to do a better job than 
the Governor. That is the genius of what Mr. Jefferson and the 
Founders left us, is to let local authorities and State 
authorities handle things and individual Americans handle 
things that affected themselves and their own families.
    So are you familiar with this, and can you take----
    Mr. Long. I am not familiar with the exact issue, but I 
will go back to my region 6 staff to make sure I fully 
understand it.
    Mr. Culberson. Thank you. Because I think this is one you 
do have the discretion to let the grant--because today they are 
just--a grant, again, is only being used to lift an old 
existing structure.
    Mr. Long. OK. We will take a look at that.
    Mr. Culberson. Thank you very much.
    Mr. Long. We appreciate it.
    Mr. Culberson. I look forward to working with you and the 
chairman to help resolve those rental assistance problems and 
others. Anything else you need to get 'er done.
    Thank you. 
    Mr. Carter. We thank you for coming here today. I commend 
you for trying to fix a broken system. The issue that it always 
effects is when you fix a broken system and you don't mine down 
into it to see what the consequences are going to be, and I 
think we heard a lot about that today. Don't give up on trying. 
But mine down in there and see if there are alternatives.
    Mr. Long. Yes, sir.
    Mr. Carter. That is really what we need to look to do.
    I am no fan of the Federal Government running everything. 
Then when you think about it, there is an X number of States in 
the Union that historically have disasters. If all the burden 
is all put on those States, those States are going to be 
overburdened as we try to make sure that the economy of the 
entire Nation functions effectively. For one thing, the Gulf 
Coast is where--I would argue 90--but it is probably 80 percent 
of all the petroleum we produce in this country is refined. 
Therefore, a major sector of our energy economy could be lost 
if we didn't do a lot of work down there on the coast. It is 
not refined in other places, so, therefore, you got to--that 
becomes a Federal nexus, in my opinion. I would just encourage 
you to keep trying but think about asking and learning about 
the consequences, especially to the little guy.
    Mr. Long. Yeah.
    Mr. Carter. Because the little guys, they don't have the 
resources of the big boys.
    Mr. Long. Sure.
    Mr. Carter. You got anything further?
    All right. Then we will recess, and thank you for being 
here.

                                           Tuesday, April 17, 2018.

                       UNITED STATES COAST GUARD

                                WITNESS

ADMIRAL PAUL F. ZUKUNFT, COMMANDANT, UNITED STATES COAST GUARD
    Mr. Carter. The subcommittee will come to order. Good 
morning, Admiral. Welcome. Thank you for being here this 
morning. Today we look forward to your perspective on the Coast 
Guard's priorities and requirements.
    The Coast Guard's mission is both wide-ranging and unique. 
It is a military force that protects us, not only in the waters 
of the Continental United States, but also in the Arctic and 
Southwest Asia. It is a federal law enforcement agency fighting 
transnational crime here and abroad. It is a regulatory agency 
ensuring the safety and security of our Nation's ports and 
waterways, facilitating over $4 trillion in trade and commerce. 
And it is a first responder, saving over 12,000 lives during 
the historic hurricane season last year.
    The challenges of this diverse mission requires a force 
that is robust, agile, and well-equipped. Congress provided 
substantial funding for the Coast Guard in the last hurricane 
supplemental and in our fiscal year 2018 omnibus appropriations 
bill. The committee is eager to hear from you on how you will 
execute these resources and how you intend to sustain these 
efforts, as well as your priorities and concerns.
    In fiscal year 2018, the Coast Guard added a fifth vessel 
to its modernization program, the Waterways Commerce Cutter. 
Sustaining five major acquisition programs will be a challenge. 
I am especially interested in hearing your plans to continue to 
recapitalize the Coast Guard's icebreaker fleet, the inland 
waterways cutter, and the long-range reconnaissance aircraft.
    The fiscal year 2019 budget addresses many important Coast 
Guard requirements. The physical reality is that every agency 
must operate in a constrained resource environment. But if you 
can match the Coast Guard's consistently excellent performance, 
maintaining a quality force, sustaining operations with aging 
assets, and recapitalizing for the future, taking care of the--
and taking care of the Coast Guard families. As always, my goal 
is to ensure that we support the most critical programs with 
funds that are needed for the fiscal year. Your testimony today 
will help guide this committee in making some tough decisions.
    Admiral, I am not sure--sure everyone is aware, but this is 
your last hearing before the subcommittee as commandant of the 
Coast Guard. On behalf of my fellow members, I say thank you 
for your leadership over these past 4 years. And even more so, 
thank you for your 4 decades of service to our country.
    Before I turn to the Admiral for his statement, the text of 
which will be included in the record, let me recognize our 
distinguished member, Ms. Roybal-Allard, for any remarks you 
may wish to make.
    Ms. Roybal-Allard. OK, thank you, Mr. Chairman. Admiral 
Zukunft, welcome to what your final hearing in front of the 
subcommittee as commandant of the Coast Guard. Let me begin by 
thanking you for your dedication and service to the Coast Guard 
and to our country. I believe you are departing with the legacy 
of improving and strengthening our Coast Guard, and leaving our 
Nation's Coasties in a better, more sturdy position to continue 
their mission.
    It would be an understatement to say that lately the Coast 
Guard has been busy. As a unique force with both military and 
civil authorities, the Coast Guard and its missions touch 
nearly every facet of our Nation's expansive maritime domain. 
This also includes its role as a critical responder during 
natural disasters.
    Last year, during our Nation's worst hurricane season, 
while still performing all of its statutory missions, the Coast 
Guard saved close to 12,000 lives and was hard at work at other 
aspects of the disaster response, such as delivering food and 
supplies, reopening the ports, and repairing communications.
    The Coast Guard's critical set of missions make it 
essential that we properly support it. That is why I was 
pleased that in the 2018 omnibus we were able to provide 
funding above the fiscal year 2017 level, including $1.4 
billion above the enacted level for the acquisition, 
construction, and improvements account, which funds the 
recapitalization of Coast Guard air and marine assets and $294 
million above the fiscal year 2017 level for operating 
expenses.
    With the 2019 request in mind, this hearing will help keep 
us informed on how the Coast Guard is operating and what 
resources are needed to continue supporting its important 
missions.
    In closing, I would be remiss if I did not recognize a very 
special person who is with us today, Mrs. Fran DeNinno, the 
wife of the Admiral. Fran, thank you so much for all you have 
done in support of the men and women of the Coast Guard and 
their families. Due to your efforts to improve their quality of 
life, this subcommittee and the 2018 omnibus increased the 
childcare subsidy for Coast Guardsmen stationed in high cost of 
living areas.
    In many of these locations, childcare costs often far 
exceed the current subsidy caps for our servicemembers. Quality 
childcare is not just a family issue; it is a readiness and 
retention issue. It is an issue we must continue to address, 
and I think I can speak for all of my colleagues in expressing 
our heartfelt thanks to you for bringing this issue to our 
attention.
    As the Coast Guard's first lady, your work on behalf of the 
men and women of the Coast Guard has been extraordinary, and I 
truly wish you and the Admiral all the best as you begin your 
next chapter of life.
    Admiral, again, thank you for joining us and for your 
service to our country, and I look forward to our discussion.
    Mr. Carter. Thank you, Ms. Roybal-Allard, and I join you in 
congratulations and telling you that we will miss the whole 
family in our Coast Guard. Admiral, we are ready for you to 
proceed.

                  Opening Statement of Admiral Zukunft

    Admiral Zukunft. Good morning, Chairman Carter, Ranking 
Member Roybal-Allard, and I would be remiss if I did not 
recognize Chairman Rogers, you honor us here this morning as 
well. And members of this committee, I appreciate the 
opportunity to testify today, and ask that my written statement 
be entered into the record.
    First, let me express my profound thanks to Congress for 
your unwavering support and the funds included in the fiscal 
year 2018 omnibus, the first meaningful annual appropriation 
increase for the Coast Guard since the Budget Control Act was 
passed in 2011.
    Following a series of devastating hurricanes, the Coast 
Guard launched one of the largest responses ever in history, 
culminating in the rescue of nearly 12,000 people. This was an 
all hands on deck campaign, and it did come at a cost. I thank 
Congress, and this committee specifically, for the $835 million 
to refurbish, and yes, renew our shore infrastructure that was 
pummeled by these devastating hurricanes.
    And while so many Americans endured this historic hurricane 
season, transnational criminal organizations continued to raise 
havoc in the Western Hemisphere. Last year, your Coast Guard's 
efforts to protect the United States border far out at sea 
netted $7.2 billion worth of cocaine, and we referred 606 
smugglers to the Department of Justice, and all 606 of them 
were prosecuted here in the United States.
    These transnational criminal organizations spawn violent 
crime, undermine rule of law, and are attributable to failing 
economies, and create the stimulus for illegal migration in 
nations like Honduras, Guatemala, and El Salvador. At the same 
time, our cybersecurity program of record took action to 
safeguard cyberspace and secure our maritime critical 
infrastructure, ports, waterways, and commerce, that translates 
to $4.6 trillion in economic activity each year.
    Your Coast Guard continues to be a sound investment. We 
earned our fifth consecutive clean financial audit opinion, the 
only armed service to do so, and our major acquisition programs 
continue to deliver assets that meet performance, cost, and 
schedule milestones.
    Moving forward to fiscal year 2019, we look to Congress for 
continued support of our future fleets, highlighted by funding 
for the construction of the second Offshore Patrol Cutter. The 
Offshore Patrol Cutter will be the backbone of the Coast Guard 
strategy to protect and maintain offshore presence and exert 
sovereignty for decades to come.
    In the Arctic, we continue to face growing threats to our 
national security. The imperative for polar icebreakers goes 
well beyond simply breaking ice. It is about exerting U.S. 
sovereignty at a time when Russia, and now China, are becoming 
increasingly assertive in the polar regions.
    I am very pleased with the President's budget that includes 
$750 million for polar icebreaker programs. Our request for 
proposals were released in March, almost a month earlier than 
planned, and it has energized the U.S. industrial base and 
keeps us on track for delivery of the first heavy icebreaker in 
2023. We are as close as we have ever been, in over 40 years, 
to recapitalizing our polar icebreaking fleet, and I thank you 
for all you are doing to keep the momentum going for this vital 
national asset.
    The budget also advances the recapitalization of our aged 
fleet of 35 Inland Construction and River Tenders. Some of 
these are over 70 years old, yet still in operation today. 
Replacing these vessels with a modern but modest fleet of 
waterway commerce cutters is a matter of economic and national 
security, as these ships are necessary to sustain our Nation's 
maritime transportation system.
    Going forward, we require 5 percent annualized growth in 
our operations and support account, and maintain a minimum of 
$2 billion in our acquisition account.
    It has been my honor, my privilege, to work alongside each 
of you these past 4 years. You have helped your Coast Guard 
obtain the resources needed to serve our Nation. With your 
continued support, the Coast Guard will always be Semper 
Paratus, always ready.
    Thank you, Mr. Chairman, Ranking Member, and members of 
this committee, and I welcome your questions.
    Mr. Carter. Thank you, Admiral. We are on a tight schedule. 
We have got a drop-dead time around 12 o'clock, so we have got 
to get through with that. So, everybody, watch the clock.
    Admiral, let's talk about recapitalization of--the 
recapitalization plan. Congress has been very generous in 
support of the vessel program. Even so, many of our Coast Guard 
assets are still kind of antiques. I am pleased that--to see 
that you are--you are requesting a new effort on the issue of 
waterways commerce cutter.
    I want to talk to you about the design of this cutter and 
what your vision is for this cutter for the Coast Guard. Will 
it be a single design or a family of cutters designed for 
select missions? I think that is the curiosity. And when will 
the first ship, in your opinion, be fielded and ready to go?
    I would also like to talk about the National Security 
Cutter, which is an outstanding ship. And can you tell us how 
you will fund the operational cost of the new cutters as we 
look down the road towards a 12-cutter--National Security 
Cutter fleet, which is, I believe, the recommendation, and how 
will you balance these operational costs against the other 
mission requirements?
    Finally, the HC-130J aircraft, they are part of your long-
range aero program, and you are still calling for eight more, 
and none are proposed in this particular budget for 2019--what 
would be the impact on--to your modernization plan, if an 
additional aircraft was not included in 2019? Lots of 
questions.
    Admiral Zukunft. I have the answers to them all, Mr. 
Chairman.
    Mr. Carter. Good.
    Admiral Zukunft. So let me first talk about the Waterway 
Commerce Cutter. This is a very modest platform. It plies the 
inland rivers of the United States, the Ohio, the Mississippi, 
the Missouri, and many others. And when you look at our Nation 
from outer space, you can be envious of our natural geography. 
Rivers that connect to deepwater ports that connect to the 
supply chain. And it is these cutters that enable this $4.6 
trillion worth of goods.
    Many of the inland states don't normally equivocate 
themselves with the United States Coast Guard, but if a river 
runs though it, rest assured, the Coast Guard is there as well.
    We have--I have met with a number of shipyards in our 
inland rivers that--that build tugs that can be configured to 
be waterway commerce cutters for a very modest cost. With the 
appropriation we have, we are already standing up our 
acquisition team looking at a parent craft that would meet the 
needs of all 35 of these ships. And with the funding going 
forward, we could actually have a ship launched within 2 years' 
time.
    And so I want to get us on this glide slope. The oldest one 
of these ships right now is 73 years old, can't even 
accommodate--most of these ships cannot accommodate mixed 
gender crews, as we have become a more diverse Coast Guard, and 
yet they are excluded from the service because they were built 
at a time when women were not in our service and going to sea. 
And so very optimistic about that, and we are looking at 
commercial designs that we can bring into the Coast Guard.
    The National Security Cutter, that was a program of record 
of eight. We now have 11 of these on budget. The 11th cost less 
than the fourth and fifth, so there are economies of scale by 
holding steady requirements, keeping a hot product line open, 
but on their maiden voyage, these ships literally pay for 
themselves in the value of cocaine removed in a single patrol.
    On a near monthly basis, we have a National Security Cutter 
pulling into San Diego offloading $1 billion worth of cocaine, 
to include the people moving this, and very few of these 
smugglers make it through their fourth or fifth run before they 
are imprisoned in the United States. We are trying to deter 
legitimate fishermen from taking up trade in the counter drug 
business, and try to deter it, can't do it alone. Today, we 
have an armada of Mexican and Colombian ships and aircraft now 
supporting us in this endeavor, as well, for the first time 
ever in history.
    And so, when you start looking at what are the out year 
sustainment costs of doing this, this year is the first year 
since the Budget Control Act was passed, when our operations 
and maintenance account was funded above the Budget Control Act 
floor by 4 percent. But in the previous years, it has been 
funded below, which adds up to a nearly $1 billion shortfall in 
our operations and maintenance account, which translated to a 
backlog of more than $1.6 billion in delayed infrastructure 
improvements. We kept the ships running, kept the ship--the 
aircraft maintained, but we had to pass the burden cost 
elsewhere.
    So we are finally above the BCA floor dating back to 2011, 
which is why asking for a 5 percent increase in our OE account 
that would allow us to sustain these new platforms as we bring 
them online.
    Now finally, with the C-130J, it makes good sense to have 
good configuration management and not multiple aircraft types, 
and the C-130J is a quantum leap above the Hercules, or H 
model, that we had before.
    I am proud to say that, even though we are operating in the 
most high-risk environments, over a hundred helicopters flying 
in Hurricane Condition 1 conditions for 3 consecutive days 
during Hurricane Harvey, not one mishap. We have not lost a 
Coast Guardsmen in flight for nearly 7 years now, the only 
service that can make that statement, which speaks volumes to 
our readiness, the flight hours, and using those OE cost to 
best advantage, especially when it means putting people in the 
air or on the water in old ships to make sure that we look out 
for the safety of our people, as well.
    Thank you.
    Mr. Carter. Thank you.
    Ms. Roybal-Allard.
    Ms. Roybal-Allard. Admiral, the administration clearly has 
set a priority of funding border security, including more miles 
of physical barriers. One of the concerns that I have is that 
increases to these efforts at the border could possibly divert 
immigration from border areas to the seas.
    As we tighten our security at the border, what concerns, if 
any, do you have on the impact it might have on the illicit 
activity in the maritime domain? And if that were to occur, 
what would the Coast Guard need to address the changes to the 
safety along our coasts?
    Admiral Zukunft. Thank you, Ranking Member, and first of 
all, yes, building a physical barrier is going to stem the flow 
of illegal migrants trying to enter the country. What it will 
not do is get at the drivers of why do people leave their 
country to begin with.
    Over the last 4 years, I have made multiple trips to meet 
with the presidents of the tri-border region, in Honduras, El 
Salvador, and Guatemala. And they will say they are a victim of 
geography. They live just north of the largest drug-producing 
country in the world, Colombia. And then they live just south 
of the largest drug-consuming country in the world, the United 
States.
    The drugs land in Central America, in bulk, via maritime 
means. And when those drugs arrive, violent crime goes up, 
prosperity goes down, and hope goes away for young adults and 
children. If they are going to thrive in the 21st century, they 
can't do it at home.
    So the drivers for illegal migration are going to be with 
us for quite some time to come, and if you can't make it across 
the border, you go around the border. And so we start looking 
at border security, we need to look holistically. You know, the 
fact that there is a maritime stream that goes with this, as 
well. So, long-term, we need to look maritime.
    We are already seeing more numbers looking at Haiti, 
another country in very desperate economic conditions, very 
difficult governance situations in Haiti. There again, people 
are voting with their feet, and they take to the water. So as 
we look long-term, in terms of protecting our border, to 
include our maritime border, there is a very strong maritime 
component to that, for which the United States Coast Guard will 
need to be funded to remain Semper Paratus against what I see 
as at least a generational threat, if not longer to come.
    Ms. Roybal-Allard. A lot of attention is paid to drug 
trafficking on the border. However, 70 percent of cocaine 
consumed in the U.S. passes through the Eastern Pacific. And 
you mentioned, in your written statement, that the Coast Guard 
interdicted, like, 223 metric tons of cocaine in 2017. And just 
for comparison's sake, 32 metric tons was interdicted at the 
border in 2017.
    Also, you mentioned in a recent speech a River Interdiction 
Program in Colombia. Could you tell us more about that, and how 
it might work?
    Admiral Zukunft. Thank you, Ranking Member, and I have had 
multiple engagements with President Santos, and in his 
administration, our country team in Bogota. And first we need 
to look at the--just the proliferation of growth of coca in 
Colombia. In 2015, October of that year, aerial eradication was 
ceased to advance the FARC peace accords, and since that time 
we have seen cultivation increase over threefold. Not just 
cultivation, but now production as well, which is really at an 
all-time worst.
    Eradication needs to be brought back to bear. There is an 
election this year in Colombia. Diplomatically, we need to be 
thinking long-term of, ``How do we get in front of this 
problem?'' because we are behind it.
    And over the weekend, we intercepted several tons of 
cocaine west of the Galapagos Islands, nearly 2,000 miles from 
where it originated. It goes out rivers in the Tumaco region, 
which is an ungoverned territory of Southwest Colombia. I would 
much rather see it stopped in these riverine systems. We are 
providing valuable information to the Colombian government, and 
would like to see them stand up a riverine interdiction program 
to stop it at the source so we don't have to catch it 2,000 
miles downstream.
    They are trying to do a big flanking movement to get around 
the United States Coast Guard so they can land these drugs in 
Central America and Southwest Mexico, where it goes from 80-
pound bales of cocaine down to grams, that is comingled with 
licit commerce to get into the United States for consumption. 
But we really need Colombia to be a true--while they are a 
strong ally, but more work needs to be done at the source.
    Ms. Roybal-Allard. OK, thank you. I see my time is up, Mr. 
Chairman.
    Mr. Carter. Thank you, Ms. Roybal-Allard. We are really 
honored to have Hal Rogers, the former chairman of the full 
committee and of this subcommittee. Yield to him for questions.
    Mr. Rogers. Mr. Chairman, thank you. Thank you for letting 
me sit in on your subcommittee.
    Mr. Carter. You are welcome.
    Mr. Rogers. You and your Ranking Member have done a great 
job. We are especially pleased and honored to see the 
commandant here this morning and his bride. This is a sort of a 
bittersweet time for the Admiral, I am sure, because he is--he 
is being forced by term limits, if you will.
    Mr. Carter. We know about those.
    Mr. Rogers. We know about those things. But you have done a 
wonderful job, Admiral. The Coast Guard is as good as it has 
ever been under your leadership. You have been a great 
spokesman for the cause, great leader for the men and women of 
the guard, and we certainly hate to see you leave this post, 
but we are sure there will be some great new chapter to be 
written in your all's lives, and we wish you well in that 
regard.
    Let me follow up briefly on Ms. Roybal-Allard's questions 
about drugs. We just concluded in Atlanta the 7th annual summit 
on prescription pill abuse and heroin overdoses. It has become 
the national platform for the welding together of all of the 
elements of the fight against drugs. Law enforcement, 
education, treatment, you name it, we had the head of NIH 
there, CDC, DEA, FDA, Surgeon General, the White House, 
President Clinton came and spoke down in Atlanta.
    This is the 7th annual such summit. The pill problem began 
in my district, Oxycontin, 15 years ago, so we started an 
organization called UNITE, Unlawful Narcotics Investigations, 
Treatment and Education, a holistic approach that has proven so 
successful as a model locally we took it national and created 
the summit, now the 7th year. We had 3,300 people there, from 
all the states and nine countries.
    But we are continuing to see the problem grow worse. 
Overdoses and deaths now, on the national level, are 
approaching 60,000 a year. That translates into each of our 
districts an enormous number of people. More than car wrecks. 
More than gun accidents or gun crimes.
    You are the front line. Everyone says that practically all 
of the heroin comes through Mexico, and the cocaine comes 
almost entirely out of Colombia. And you have increased the 
seizures and interdictions by a great amount. It is astounding. 
In 2017, you interdicted 223 metric tons of cocaine, more than 
$6 billion worth, 708 suspected smugglers. It is great work.
    And yet, I am absolutely puzzled why you are not 
requesting--you are requesting less money for fiscal 2019 than 
2018. For fiscal 2019, you are requesting $1.41 billion for 
drug interdiction. That figure is more than the 2017 level, but 
it is actually $64 million less than the President's 2018 
request of $1.48 billion. Why is that?
    Admiral Zukunft. The 2018 budget, there was money added to 
go beyond our program of record for National Security Cutters. 
So that really does account for that. You know, it is perceived 
to be a reduction, and yet, at the same time, there is funding 
in the 2019 budget to buy ahead on the Offshore Patrol Cutter, 
another very capable ship that costs much less than the 
National Security Cutter. But also in the 2019 budget is the 
$750 million for icebreakers.
    But the biggest cause for that drop, which--perceived to be 
a drop--was the funding for 10 and 11--National Security 
Cutters number 10 and 11. And so hence what is perceived to be 
a reduction--and yet we still have fast response cutters, six 
of those being built, the second Offshore Patrol Cutter--so at 
the end of the day, we are still making investments to get 
after this very persistent threat, drugs in the transit zone.
    Mr. Rogers. Let me commend you on your comments about 
Colombia. They are a great friend of the U.S., but they have 
stopped eradicating the poppy, and we are being flooded out of 
Colombia, our friend.
    And I chair the subcommittee that funds foreign aid, and we 
are letting Colombia know that no longer are we willing to say 
we are not going to withhold your money as long as it looks 
like you are doing--you are going to do OK with eradication and 
so forth. We are saying now, you have got to show us proof that 
you are actually reducing the cocaine and heroin coming out of 
Colombia. It is killing our people, by the tens of thousands. 
And it is Colombia.
    So I salute you for that, and congratulate you on the 
seizures that you are making, but it is not quite enough.
    Admiral Zukunft. Yes, sir.
    Mr. Rogers. It is a little bit like that old saying, that a 
pat on the back is only 16 inches above a kick in the rump. 
[Laughter.]
    And the Coast Guard is doing a wonderful job, but you are 
not quite there, perfect, yet. So, thank you very much, and 
congratulations on your great career.
    Admiral Zukunft. Thank you, Chairman.
    Mr. Rogers. I yield back.
    Mr. Carter. Mr. Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman, and ranking leader. I 
want to say thank you for the work that you are doing, and I 
really appreciate it. We just got back--because some of us just 
got back from Colombia, and I think I would been there with 
Chairman Hal Rogers, I think a couple years ago.
    And I agree with your approach, because sometimes there are 
members of--my colleagues that think that if you play defense 
on the one-yard line, called the U.S.-Mexico border, where we 
spent over $18 billion, and if you add the wall construction, 
to be billions of dollars. Using football as an analogy, I 
would rather play defense on their 20-yard line instead of 
playing defense on a one-yard line, but nevertheless, you know, 
we have got to deal with those political realities.
    I appreciate what you are doing, and one of the things, 
when we were in Colombia, we were looking at the ports where 
the--where the--you know, where the cocaine comes from.
    Admiral Zukunft. Yes.
    Mr. Cuellar. And I asked the question, ``Well, why don't we 
try to stop them here, before they get into the blue waters?'' 
And somebody there, one of our officials, said, ``Well, it is a 
lot easier to catch them where they are out there in the seas, 
because it is a submersible here, or might be a fast boat over 
here.''
    But to me, I like your approach, and I wish more people 
would do that, is that we try to stop them there, before they 
get in--into the high seas sit zones, because then you have got 
to have the--you know, the gray hulls, you need to--you know, 
the Navy, Coast Guard, and makes it difficult. So I definitely 
want to thank you for that approach, and I hope that you get 
other folks to think the way you are, doing the work at the 20-
yard line.
    The 20-yard line also includes working with Colombia and 
Mexico, and my question is--again, thank you for engaging them, 
and if you could include some of the other Central American 
countries, but it is a good start with Mexico and Colombia--
what else can we do to help you so we can get those other 
countries to do more?
    Because if you have one of your ships out there, whether 
you multiply it by the number of assets that the Mexicans had, 
or the Colombians can add, then you are talking about 
multiplier effect. What else can we help you--in that type of 
thinking that I wish more of our officials had your type of 
thinking--what can we do to help you?
    Admiral Zukunft. Thank you, Congressman. And I can't 
emphasize enough that the value of relationships, beginning 
with Colombia and Mexico. Colombia is besieged on their other 
coast with nearly a million Venezuelan migrants leaving a 
failed Nation. So they have a number of challenges there.
    But they are going to need support to resume their aerial 
eradication program. They have a presidential election this 
year, that the senior leaders, who are now my personal friends, 
both in Colombia and Mexico, which also has their presidential 
election, we don't get a vote on how that might conclude. But 
we have got to have those relationships with the next 
administrations that come in, that are all in to get after this 
transnational criminal threat.
    We have 25 aircraft supporting our operations today. Six of 
those are Coast Guard. The other 19 are Mexican and Colombian, 
helping us. There is a real value--and we are not paying for 
these services, so we are finally at--what I would say a 
potential tipping point, where we have two of our key allies, 
and the most prosperous nations within Central America say, 
``Hey, United States, we want to work with you. We are sharing 
information.''
    We have two patrol boats just delivered to Costa Rica 
today. They want to play with us as--in Costa Rica, so they are 
in. So we are looking at how do we work with partner nations 
that are looking for United States leadership? Because who else 
is in this region is China. And we do not want to see 
democratically elected nations now become favored nations with 
China.
    And so I think there is a strategic risk here, as well. If 
we don't pay attention to where we can really have U.S. 
influence, and more importantly, the partnerships, Congressman.
    Mr. Cuellar. Yes, and you are absolutely right. I have got 
about 40 seconds, but you are right. I have been in Costa Rica, 
and you know, China has sent a lot of their party members over 
to Costa Rica that--they are in other places, they are in 
Colombia, at some of the ports of entry.
    So I really appreciate it, and again, just to get your type 
of thinking and philosophy, and get other folks to understand 
that it is better to play defense on their 20-yard line, and it 
is better to get more other--those neighbors that want to work 
with us. They want to work with us. So I certainly want to 
commend you on your good work and you are thinking.
    Mr. Rogers. The gentleman yield--before he yields back----
    Mr. Cuellar. Yes, sir.
    Mr. Rogers. Could I ask a question of the witness on your 
time?
    Mr. Cuellar. Yes, sir.
    Mr. Rogers. Admiral, we are seeing now this horrible 
problem on top of a horrible problem, and that is fentanyl, an 
elephant sedative that is being mixed now into the heroin that 
our kids, especially, are dying from, not knowing the danger of 
fentanyl.
    I am told that fentanyl comes to us by way of Mexico from 
China.
    Admiral Zukunft. Yes.
    Mr. Rogers. Is that accurate or not?
    Admiral Zukunft. It is, and now Mexico is producing 
fentanyl, as well.
    Mr. Rogers. Right. Are you seizing fentanyl?
    Admiral Zukunft. This is all moving across the land border. 
We see very low numbers of heroin moved across--you know, via 
maritime means. But as you mentioned earlier, in 2016, 64,000 
Americans died due to drug overdose. Most of this is opioids; 
10,500 of those deaths were cocaine laced with fentanyl. The 
numbers just in from the National Institute of Heath is roughly 
66,000 now, in 2017.
    So 130,000 Americans, from every walk of life, have died in 
the last 2 years. And the numbers are not getting better. You 
know only too well, in Kentucky and in the Ohio Valley, some of 
these communities are grief-stricken. And we need an all-out 
campaign, not just on the interdiction side, we have a 
behavioral health problem here in the United States, as well, 
addiction.
    Mr. Rogers. Thank you.
    Mr. Carter. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. Admiral, I want 
to give you a heartfelt thanks for your service to the great 
Coast Guard, your personal commitment and your family's 
commitment. Thank you so much.
    As you know, I represent the third district of Tennessee. 
Chattanooga is our largest city. And I believe Chattanooga is 
probably the most patriotic city in America. We have had the 
longest running Armed Forces--Armed Service parade in the 
country, and I want my colleagues to know that this year we are 
going to honor the United States Coast Guard. And we have done 
that--we do every branch, and this year it is the Coast Guard.
    I want everyone to know that the Admiral has worked with 
his staff to make sure that this year is going to be special. 
We will honor the men and women who currently serve, as well as 
the great veterans of the Coast Guard. So it is going to be a 
great, great day, and again, thank you personally, and I just 
want to thank the Coast Guard for participating in our Armed 
Forces parade, sir.
    Admiral Zukunft. Thank you, Congressman.
    Mr. Fleischmann. Yes, sir. Admiral, there has been an 
ongoing concern with long-term Coast Guard recapitalization and 
acquisition needs not being matched with budget requests. While 
we all know the challenges with current budgeting, I am 
curious, sir, how well the fiscal 2018 omnibus and fiscal 2019 
budget requests address long-term recapitalization efforts. Are 
we still facing future capability gaps at current procurement 
and construction levels, sir?
    Admiral Zukunft. Congressman, you know, anyone in the Coast 
Guard, if they are looking at the 2018 omnibus, and what is 
teed up for 2019, will say, you know, this is not the Coast 
Guard that they were born into. This takes us into a whole new 
era. If you want to be the world's best Coast Guard, you need 
to be financed as the world's best Coast Guard.
    But at the same time, we want to be responsible stewards of 
these resources, which is why I am especially proud of the fact 
that we have had five consecutive clean financial audit 
opinions. Our financial record stands on its merit. We hold 
steady requirements in our acquisition program, which is why we 
are able to deliver on schedule and on budget, you know, new 
platforms that meet--and quite honestly, they exceed the 
requirements that we had laid into.
    Our Fast Response Cutter is just one example of many. Eight 
consecutive ships, coming off the product line in the last 14 
months, with no discrepancies whatsoever. They are fully 
crewed, and they are ready to go out. It doesn't take them 2 
years from delivery to go out and conduct operations.
    Our National Security Cutters, we could not even envision 
this program of record, the return on investment that we are 
seeing right now. So much so that we have the Department of 
Defense saying, ``We would love to see the National Security 
Cutters serving in the East and South China Sea.'' We have 
China Coast Guard that is now merged into their defense 
structure. Why don't we have U.S. Coast Guard on the front end 
of some of the Nine-Dash Line that we are dealing with?
    So we are seeing an increase in the global demand for Coast 
Guard, and I think a lot of it is, one, the capability of the 
platforms, but to your point, you know, this aspect of 
patriotism--the platform is just the platform. It is when you 
put the right people in it, that have a passion for this 
service, and an all-volunteer service, that is what makes it 
all work. Which is why investments in things like subsidized 
child care and readiness and high retention rates all come 
together to make best use of these new platforms.
    Mr. Fleischmann. Thank you, sir. In your opening statement, 
sir, you speak to the continued successes in the counter-drug 
mission. While it feels that we are getting better and better 
at interdicting and disrupting the illicit narcotics trade, we 
are also sadly aware that a majority of smugglers get past us 
due to a lack of assets.
    As a result of this, national--as a result of this, 
National Security Strategy calls for greater resources and a 
focus on dismantling transnational criminal organizations 
rather than just putting illicit narcotics on the deck. Since 
the Coast Guard plays an integral role in this strategy, sir, I 
was hoping you could give us your thoughts on how well it is 
working and what we need to do to make it as effective as 
possible.
    Admiral Zukunft. Thank you, Congressman. So, I watched 
for--I have been in this business for 41 years now. I have 
watched for a period of time, for nearly 8 years, we went 
through what I would call somewhat benign neglect. We saw 
marijuana legalized, and we saw resources being stripped away 
from this campaign, and funding levels really not addressing 
the threat.
    On Thursday, I will be with the President down in Key West, 
Florida, to look at the bigger picture of what is happening to 
this Nation, and where does this all begin, and ultimately have 
a healthy dialog of how do we resource against this threat.
    One aspect--I mean, we have got the supply side, which we 
can bring all of government to bear. We have got to look at the 
demand side of this, as well, and come up with a comprehensive 
campaign to get at some of the root causes, here at home, of 
why we are the largest drug consuming country, and at the same 
time hold those accountable who want to infect this Nation with 
these toxins.
    Fentanyl is a toxin. It is a weapon of mass destruction. 
And the United States will not be able to do it alone, we are 
going to need an alliance to get after that, but we do have the 
commitment of this administration, of, ``We are going to get 
after this problem.''
    Mr. Fleischmann. Thank you, Admiral, for your answers to 
these questions. And Mr. Chairman, I yield back, sir.
    Mr. Carter. Mr. Ruppersberger.
    Mr. Ruppersberger. Admiral, on this good day for you--and 
first, thank you for--again for your service. I was in local 
government, and I have been here about 15 years. I didn't know 
much about the Coast Guard, but when I came here, I saw an 
organization that worked hard, always did more--more with less, 
and I think--I have a lot of issues with--with how many 
missions the Department of Homeland Security has, but I think 
you are the premier agency that division.
    So, you know, I hope you have got quality and positive 
leadership behind you, which I am sure you do. But I want to 
thank you again for your service.
    I want to talk to you today about polar icebreakers. The 
Russians consider the Arctic to be their next frontier, with 
the environmental changes, ice and permafrost is retreating, 
exposing viable land and navigable waterways, new opportunities 
arising for oil and gas drilling, as well as access to 
untouched fisheries.
    Both Russia and China have both recognized this development 
and are scrambling to establish a foothold in that region. Now 
in this regard, America is coming up short, that is my opinion. 
Russia currently has 44 working icebreakers, seven of which are 
nuclear powered, while the United States, I believe, has two.
    Now, the Coast Guard has stated that it needs three heavy 
and three medium icebreaker to counter Russia and China's 
influence in the Arctic, and I believe this is clearly the 
right move, and I know this is just a high priority for you as 
it is, I think, should be for our country.
    Now, my questions, the first thing: what impact would an 
unchecked Russia and China presence in the Arctic region have 
on our national security and sovereignty? And I am going to--I 
am going to throw out the questions, and then let you answer.
    Also, there is a moratorium on fishing and unexplored, 
untapped oil reserves in the Arctic outside of our exclusive 
economic zones. Do you feel that without the American assets in 
the region we will be able to enforce international law?
    They said--like you said in your testimony, I think 
appropriating a steady supply of funding to icebreaker 
procurement will reduce the price tag and due to the economies 
of scale, keep us where we need to go on this threat of Russia 
and China.
    Secondly, the Coast Guard received $300 million in the 
defense bill to jumpstart the preplanning for icebreaker 
acquisition, which was a good thing, how you--it was able to 
move from defense to you all.
    Now, the President's budget asked for an additional $750 
million. Now, if the committee does not fully meet the $750 
million request that you are asking for, and that is in the 
budget, what impact will it have on delivery dates for these 
icebreakers?
    Admiral Zukunft. Thank you, Congressman, and those are spot 
on questions. You have done your homework, your numbers are 
spot on.
    So we have four coasts in the United States. We have the 
East Coast, the West Coast, the Gulf Coast; well, we now have a 
fourth coast, the Arctic coast. And we have communities up on 
the Arctic coast. So I don't think any of us could ever 
envision that we would have no mechanism to assert U.S. 
sovereignty off the Atlantic coast, the Pacific coast, or in 
the Gulf of Mexico, and that Russia can just willy-nilly, you 
know, show up at our doorstep.
    But we would write lots of reports and say, ``You can't do 
this. You--we will demarche you if you do that.'' So you can't 
exert sovereignty with paper, which is why, you know, investing 
in an icebreaker is absolutely pivotal. It is really an 
instrument of national sovereignty. Vital resources are at 
stake up there.
    We need to look at the long game, not the short game. I 
mean, oil is trading at just over $65 a barrel right now, which 
makes it not profitable to extract the rich resources that are 
in our EEZ and beyond our EEZ.
    As Congressman Cuellar could appreciate, we have an 
extended continental shelf the size of the state of Texas, 
beyond our 200 mile limit and a lot of the 13 percent of the 
world's oil, a third of the world's natural gas, over a 
trillion dollars of rare earth minerals are on or below the 
seabed up there.
    Russia has claimed all the way up to the Arctic Ocean. 
Russia will take delivery of two ice-breaking Corvettes, 
warships, with cruise missiles, plying off our Arctic coast. 
China is building another icebreaker. China routinely does 
scientific studies in our extended continental shelf.
    And then, you look at well, why don't we just claim this 
extended continent else--continental shelf of ours? Well, it 
requires ratification of the Law of the Sea. So we don't have 
the governance model in place, because we have not ratified the 
Law of the Sea convention.
    So all of those are coming together as a confluence. And 
then we look at fish stocks. As they migrate further north we 
claim a moratorium, but if you don't have an enforcement 
mechanism. There again, it is paper, but you don't have the 
ability to back paper up with force if necessary.
    And then finally, when you look at the $750 million, what 
is at stake? This is a great risk for an industry to take on, 
because they are going to have to reengineer their production 
lines to build a heavy icebreaker. They don't want to build 
just one icebreaker. They won't make those front end 
investments if we are only committed to building one.
    The National Defense Authorization Act--and I am pleased to 
say that we have $150 million installments in 2017 and 2018 
from the Department of Defense, but the National Defense 
Authorization Act of 2017, DOD is committed to building an 
icebreaker. Three hundred million dollars does not buy me one 
icebreaker. I need the full funding.
    But what we need to do is demonstrate to industry that we 
are committed, and we want you to take on the risk to do the 
engineering work to build the United States icebreakers, with 
United States steel, with United States workers.
    And so what really is at stake is industry may walk away 
from this, if they don't see a commitment from us that we are 
serious about making this acquisition.
    Mr. Ruppersberger. Just real quick, is your plan--will that 
balance out the issues we are dealing with Russia and China, do 
you believe at this point?
    Admiral Zukunft. It puts us in play. We created, on our 
watch, while I was Commandant, an Arctic Coast Guard Forum. 
That includes seven other Arctic nations besides Russia.
    During Hurricane Harvey, we ran the largest search-and-
rescue Arctic exercise with ships and planes ever in history, 
while at the same time we are doing Hurricane Harvey, while at 
the same time we are intercepting drugs, but we have got 
Norway, Sweden, Finland, the Dutch, Iceland, and others--
Canada, saying, ``United States, we are all in.''
    So there again, can we do it alone? No. Can we do it with 
others, like-minded nations? Absolutely. So we look at where we 
leverage international partnerships as well, sir.
    Mr. Ruppersberger. Thank you. Good answers.
    Mr. Carter. Dr. Harris.
    Mr. Harris. Thank you very much, and congratulations, 
Admiral. You know, I have spent 17 years in the Naval reserve. 
I can't imagine having spent 2\1/2\ times that amount of time, 
but congratulations on a job well done.
    I also want to thank the Coast Guard. Obviously, they are 
very important in the first congressional district of Maryland. 
We have the--you know, the entire Atlantic Coast of Maryland, 
and a lot of the--Chesapeake Bay coast. And two issues, 
specifically, I just want to bring to your attention. One is 
one I think we are working through, which is that the Coast 
Guard recently removed Daybeacon 10 from the Honga River.
    And it is because the channel was not navigable anymore, 
but it was also an important marker for another maritime 
channel, or another maritime route, that boaters used, and the 
issue is--I am not going to ask the Coast Guard put back in, I 
understand why you removed it, but I think you have to approve 
the county and state working together to put a different marker 
there.
    And I understand there may be a little hold up on that. I 
just--as--you know, we are coming up on the boating season, I 
ask you to expedite that. And then we had a meeting with the 
watermen, and I think your staff was there from the Coast 
Guard, and I think that will go all right.
    The other one that I really want to do a shout out on this 
is--you know, it is funny, both of these have to dredging 
channels that are--that aren't deep enough, and the Ocean City 
Inlet has a problem, and a fishing vessel--I think was about 2 
months ago--came in literally with thousands and thousands 
pounds of fish at the wrong time, couldn't land--you know, 
couldn't dock at their own dock, and was able to unload most of 
the--only some of the fish was lost, most of it at the Coast 
Guard--I want to thank the Coast Guard for--for stepping in and 
helping there.
    Because that is very important to our economy, and again, 
you know, in the Navy we would go ``Bravo Zulu,'' job well 
done. Thank you very much for that.
    Now the other the rest of my time I want to spend on an 
issue that is not--not unknown to my chairman. It is windmills 
off the Atlantic coast. And, you know, there is a windmill 
project going to be run--you know, over a billion-dollar 
project by a company in Italy that wants to build windmills off 
the coast, and, you know, bought the leasing--bought the lease 
from--the lease that BOEM issued, over in the Department of the 
Interior, and the more we investigated, the more bizarre it 
appears what happened over at BOEM.
    And the reason why I bring that up is because, you know, 
they are supposed to actually look to other federal agencies to 
provide input on way--when the leasing area is designated, and 
then, of course, when it is developed.
    Now before the designation, there are two specific agencies 
that--that I think are very important to be involved; one, 
because there is a national park there, the National Park 
Service, and under the Organics Act, you are supposed to 
actually preserve the--the scenery, preserve everything, and 
the National Park Service never had input into it.
    But the other important agency is your agency. And your 
agency actually did have input into it. In a letter to the--to 
BOEM in 2013 that you have--you are--the Coast Guard very 
specifically said don't designate this area, because later you 
may have to basically undesignate it, or not be able to develop 
it, because of dangers to maritime traffic.
    And I don't know how familiar you are with the issue, but 
it was apparently completely disregarded by BOEM, which went 
ahead and did that lease area, and now, you know, there is an 
effort to kind of ram this project through without Park Service 
comment--although I think we are going to get Park Service 
comment--and despite the warnings from the Coast Guard that--
that, without proper channel designations, and I think the 
Coast Guard would recommend what they call alternative one, 
which removes a large part of the lease area.
    This is concerning to me, because I would hope that the 
Coast Guard would be very adamant and say, look, we all want--
look, this is not about whether we are going to have offshore 
wind. We are going to have it. It is where you are going to put 
it, and whether it is going to be, in the case of the Park 
Service, visible from shore, in the case of the Coast Guard, 
interfere with shipping channels, and I just want your 
assurance that the Coast Guard is going to--is going to be 
adamant about maintaining maritime safety off the coast--you 
know, off my district.
    Because I don't want a vessel accident, and the spill of 
whatever--we know what is in vessels. We know from the Exxon 
Valdez what is in vessels. I don't want that spill offshore. I 
don't want these--these ships, after going into channels that 
they don't--into routes they don't know about, so, I am--I 
can--I am going to ask, what can the Coast Guard do to make 
certain that we don't create an unsafe condition, under the 
current proposed development plan?
    Admiral Zukunft. Well, Congressman, first of all, I will 
echo your term ``adamant.'' I spent most of my career as a 
mariner, and putting wind farms in a traffic separation scheme 
that interfere with radar propagation, interfere with 
communication propagation, create in fog conditions, a hazard 
to navigation, all of these things combined is not a prudent 
measure.
    I will be more than pleased to back to BOEM, to go back to 
our 2013--we have not deviated from our position when it comes 
to the hazards as you have alluded to.
    And look out into the future--we may have autonomous ships 
out there. And now we have changed the lay of the land with 
these autonomous wind farms. If I was with Park Service, I 
would--what is the interaction with migratory species? A lot of 
these wind farms carry a lot of mortality.
    There are a number of stakeholders in this. This is beyond 
a lease. This is environmental, but, for me, it is all about 
maritime safety. So I stand behind you.
    Mr. Harris. Thank you very much. I yield back to you, Mr. 
Chairman.
    Admiral Zukunft. Actually, next one. And then with regard 
to private aids to navigation, absolutely, we will work with 
the state to make sure--I recreational fish, and if I can't 
find my honey hole because of want of that, then--you know, we 
will work with the stakeholders on that. Private aid is not an 
issue for us.
    Mr. Harris. Thank you very much, and congratulations, 
again. I yield back, Mr. Chairman.
    Mr. Carter. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman, and thank you, 
Admiral, for your service and also the service of your spouse 
and your children. Thank you for all that you have done in 41-
plus years serving in uniform.
    Also, please take back to your Coast Guard team how much we 
appreciate their service and sacrifice, as well. I know it 
takes a full-team concept to be as successful as you have been, 
but also as successful as the Coast Guard has been lately.
    Mississippi really appreciates our Coast Guard presence in 
Pascagoula, as well as Gulfport. You have got a first-class 
team down there. I have visited both stations, and I really 
enjoy going out there.
    I was invited to come floundering. I haven't taken them up 
on that one, but it is over--it is a little honey hole. I won't 
tell you where it is at. You were talking about honey holes, 
so.
    Also, I thought Admiral Kelly did a fantastic job at the 
annual National Guard Reserve Components Breakfast. He did a 
splendid job addressing the Reserves, and hopefully, over the 
months and maybe not the years, but in the months to come, that 
we can address the manning--the shortage of manning that they 
have in the Reserves.
    The Coast Guard has a huge mission in providing for our 
Nation's national security, and I know there has been a lot of 
talk about drug interdiction, and, you know, the demand, the 
supply, and those are things that we have to address as a 
nation.
    We have been soft on drugs. We have been soft on 
prosecution. We are sending all the wrong messages, not just to 
the dealers, but also to the American people, that it is OK to 
use and abuse drugs.
    And so I might ask you a question. You know, I have been 
to--I guess I have heard reports. You have a presence in South 
and Central America. Tell us what we are missing, when it comes 
to--you are seizing over half the cocaine seizures on--that our 
U.S. government seizes every year. I am afraid we are missing a 
lot.
    And, you know, can you kind of put that in perspective? 
Because it is finding its way into America, and what can we do? 
What can we, as a Congress, do to give you the tools to combat 
this more effectively?
    Admiral Zukunft. Yes. This is a very perplexing problem we 
have, Congressman. And so right now we are getting about--
just--you know, about maybe 25 percent of the flow.
    Gone are the days where we sweep the ocean like a 
lawnmower, hoping that we stumble on something. These are all 
intelligence-driven, vectored in aircraft, helicopters that are 
armed, ships, like the National Security Cutter.
    But there are so many, you know, we can't target them all. 
We know that we bring them into custody, and we will ask a 
smuggler, ``How many runs did you make?'' Four, maybe five, and 
then we caught you.
    Well, don't you think, before you are going to do 20 years 
in a U.S. prison and be cut off from the network, you might 
want to stop doing this?
    So we are actually trying to deter people from entering 
into this business line, as well, but what we have come to 
realize is when--to sustain this fleet--we have got 50-year-old 
ships doing some of these interdictions right now.
    We need to maintain momentum that we have right now in our 
acquisition program, and then, at the same time, make sure we 
don't forget about the out-year cost to maintain these 
platforms, as well. We are doing everything we can to identify 
efficiencies of how do we run this fleet in the future.
    I signed off on terminating what would be rotating crews. 
So if you can imagine, you have got four crews assigned to 
three ships, and those three ships are in three different home 
ports, and then when you take that ship out, the crew has to go 
through what is called analyzed training, with helicopters and 
wartime readiness.
    Well, a new crew comes in, they get on that same ship, and 
the same ship has to do the same thing all over again. So maybe 
you are running that ship 35 more days a year, but the fact of 
the matter is, fewer days are spent in the high-threat area 
because you are spending more time training these rotating 
crews.
    So that is why one crew, one ship, and then a ship and crew 
that we can surge, if the threat picks up, to go forward. So we 
want to make sure that we are making smart investments in how 
we operate this fleet in the future, as well.
    But to continue what I would say just predictable funding--
and I recognize, you know, we are going to have a day of 
reckoning just around the corner, as we look at deficit 
spending, as this cannot continue forever. We have an aging 
population.
    And so all of that combined, we want to make sure that we 
can demonstrate to you that we are a good investment with a 
return on investment that is valued by our Nation.
    Mr. Palazzo. Well, thank you for those comments, and, 
lastly, my question--you did such a fantastic job last year 
elaborating on why the Jones Act is so important to our 
national security and our economy, I think this panel would be 
welcome to your remarks, again, this year.
    Admiral Zukunft. So, as we all know, we have the largest 
trade deficit with China right now. China has the most 
aggressive ship-building program in the world right now.
    So if you can envision, 5 years from now, you know, a ship 
pulls into L.A. Long Beach. It is a Chinese flag. And then it 
is going to go from L.A. Long Beach to, maybe, Seattle.
    And so now we have our entire domestic maritime trade is 
being run by China, and Chinese mariners. With the Jones Act, 
the maritime academies go away. The U.S. mariners go away.
    We have three Jones Act shipyards that build deep-draft 
ships in the United States. In the 1950s, we had over 50 of 
them. We are now down to three. Those go away.
    So we will say goodbye to the United States as a maritime 
Nation, because, for cost-considerations only, and not for 
security concerns, our--our sealift, our national sealift to 
carry out a military campaign, would be on the flag of a 
foreign Nation that may, potentially, be an adversary.
    So we really need to look at this from a national security 
lens, and also from an economic security lens, because who 
would fill that void if we decide this law is now obsolete?
    Mr. Palazzo. Well said. Thank you, Admiral. I yield back.
    Mr. Carter. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Admiral, welcome. Congratulations. It is great to see you, 
and of course, I am sure I am not the first one to say this, 
this morning, but I want to congratulate you on your 
retirement. It has been a real pleasure to work with you, and 
to see the Coast Guard thrive and grow under your leadership. 
So it is a heartfelt thank you, and congratulations.
    Just the tenacity and bravery that the Coast Guard, once 
again, showed during Harvey and Irma and Maria storms, that 
challenged us like few have, and as we--we become almost 
accustomed to this, but we should never take it for granted the 
way quick action by your organization saved thousands of lives 
during three historical natural disasters in quick succession.
    For that, and much, much more, we thank you.
    Admiral Zukunft. Thank you, thank you, sir.
    Mr. Price. Let me ask about a couple of aspects of the 
migrant issue, which the Coast Guard is of course quite 
directly involved in, and can enlighten us on perhaps.
    First, the general situation you are facing and then a 
specific question about Cuban migrants. I understand the Coast 
Guard District 7 cutters are regularly ferrying rescued 
migrants and detainees to shore.
    I understand, of course, that this displaces other search 
and rescue activities, as well as other interdictions. Many of 
the cutters aren't particularly designed for this, they are not 
equipped to hold large numbers of people on board during these 
transitions.
    So, first of all, how are you addressing this problem in 
general? What are the dimensions of the challenge? What should 
we know about it? How are you handling it?
    And then secondly about Cuba, let me just get that question 
out there as well, President Obama, as you know, ended the wet 
foot, dry foot policy in January of 2017. And after that, there 
was a dramatic drop in the number of Cuban migrants trying to 
reach the U.S.
    But looking at your budget in brief, it looks like the 
Coast Guard interdicted 2,510 undocumented migrants and had to 
repatriate a 1,532 Cubans. That is puzzling to me anyway.
    Why do you believe the number of Cuban migrants has risen 
again? There has been no change in policy, so I am genuinely 
curious as to why this might have occurred.
    Admiral Zukunft. Yes, so we report those, Congressman, in a 
fiscal year. And when the repeal of the wet foot, dry foot 
policy went into effect, we saw an abrupt halt in Cuban 
migrants.
    And so we went 5 months, 5 consecutive months without one 
Cuban migrant. We have interdicted a handful in the last 
several months off Cay Sal Banks, which is the Bahamas, so they 
are looking at doing an end run to the Bahamas over to Freeport 
and so now we are picking them up with a fairly sophisticated 
human smuggling network leaving Freeport, Bahamas, and 
sprinting across the Florida Strait to land.
    We have seen Cuban, Venezuelan, Brazilian, Sri Lankan, 
Chinese, I mean, we pretty much have seen most of the United 
Nations in terms of illegal migrants with this very 
sophisticated human smuggling network, which I think drives 
home the point that find the path of least resistance.
    If there is a wall, find water, and if there is water, try 
to mingle in with all the other recreational boats off the 
Florida coast as well. So that is what we are seeing right now, 
which has challenged us.
    We have been able to pull--at any given day a year and a 
half ago, we had about 10 Coast Guard cutters dedicated to 
nothing but the Cuban migrant problem. We have been able to 
dial some of that back, but now we are seeing through the 
Bahamas' human smuggling networks, we are working very closely 
with our very close partners in CBP Air and Marine doing these 
interdictions, but more importantly, getting after these human 
smugglers as well.
    So that is where we are seeing the difference. It is not 
the traditional smuggling means, it is going around and then 
paying off human smugglers to gain illegal entry.
    Mr. Price. Well what would you say about the kind of 
priority you are required to give this matter and the trade-
offs in terms of other missions, other search and rescue 
activities, other interdictions?
    Admiral Zukunft. Yes, thank you, Congressman. So we will 
never diminish our search and rescue readiness posture, and in 
fact, as you saw during Hurricane Harvey, we--you know we--we 
pulled over 3,000 people, several hundred aircraft and boats 
from non-effected regions to support the search and rescue 
effort.
    So search and rescue, this administration has made it very 
clear where--where we stand when it comes to illegal migration, 
and so I own the sea component of that. And then, so we look 
at--so where else might you take risk?
    In years past, we have a number of ships, what I would call 
our flagships, doing enforcement of our remote EEZ, thousands 
of miles offshore in the Central Pacific Ocean, where we can 
remotely monitor activity there where we were not seeing 
encroachment, but because it was one of our 11 missions, there 
was a time where we say we need to resource each mission 
equally.
    We have great intelligence, and that intelligence tells you 
two things, where you need to emphasize, where you need to be 
more present, but it also tells you where you might be able to 
go at risk with limited resources so you can double down where 
you have the higher risks, and maybe you accept risk is some of 
the other areas.
    So some of our remote EEZs we have accepted risk. Today 
there is a naval ship in the Central Pacific with a Coast Guard 
law enforcement attachment on it doing fishery enforcement 
operations.
    So we are actually getting help from the Navy in doing 
fisheries enforcement. So we haven't zeroed out the program all 
together, but we are looking at where do our authorities 
resonate, where are the greatest risk, and then where do we 
apply those resources.
    It is working out pretty well for us.
    Mr. Price. Thank you, thank you, Mr. Chairman.
    Mr. Carter. Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman, and Madam Ranking 
Member. Commandant, welcome to the committee.
    Admiral Zukunft. Thank you.
    Mr. Newhouse. Pleasure to get to know you and I want to 
thank you for your very good update and as well as your long 
service. I am experiencing a bit of regret, I am fairly new to 
the committee and you are leaving, and I don't get to enjoy 
working with you as my colleagues have expressed their pleasure 
in working with you.
    But congratulations on your--also say thank you to all the 
Coasties under your command, and for all the hard work that 
they continue to do and work with what they have and always 
exceeding their mission, so appreciate that.
    You talked about the many challenges in protecting our 
coastlines, certainly this last year with all the hurricanes 
was a huge challenge, but you were able to rise to the occasion 
and continue to do the hard work of making sure that all of our 
ports around the country and your work with the DOD remained 
in--in effect, and so you were able to multitask and exceeded 
your mission in that regard as well.
    I should note that I had the pleasure of visiting our 
facility in Seattle and I want to thank the men and women there 
who gave me a fantastic tour and a great briefing on the hard 
work that they are engaged in in the Pacific Northwest, a lot 
of important things.
    And it was, you know, an educational thing for me too. I 
was able to see two of the three icebreakers that we have. One 
of them, I think if I am correct, is sitting there kind of 
being robbed for parts as we speak.
    Admiral Zukunft. It is.
    Mr. Newhouse. But certainly I understand the need and the 
necessity of protecting our northern coastline as well, so I 
appreciate that--your--your focus on that and our ability to 
have been able to fund, at least begin, to fund the necessary 
improvements and being prepared.
    Coincidentally, I had a staff member that was able to visit 
your St. Elizabeth campus right after the hurricane season and 
was very complimentary in the--what was witnessed there, and 
the--the work being done in conjunction with local authorities 
and others. So all around, I would say a good job.
    My question has to do with something that I think was 
engaged with when I was a state legislator actually concerning 
inland waters and vessel discharge laws and regulations. As you 
know, there is the Vessel Incident Discharge Act, which would 
establish a single federal ballast water management standard 
that would specify the Coast Guard's 2012 standards as the 
baseline. It is in both the House and Senate and it would focus 
on establishing a uniform national standard for ballast water 
and other incidental charges and provide the authority to 
regulate these discharges primarily with the Coast Guard, and I 
understand along with the EPA.
    I guess my question has to do with how you see the Coast 
Guard as the enforcing agency if these proposals are enacted. 
Could you discuss that some?
    Admiral Zukunft. Yes, thank you, Congressman. So I really 
put myself in the in the shoes of a mariner. If you feel like 
you have got to cross so many T's and dot so many I's because 
you have competing entities that are doing enforcement 
operations. And we only get maritime governance--in this Nation 
it is the United States Coast Guard for maritime governance 
that understands Mariners, that understands the technology. It 
is the United States Coast Guard that represents the United 
States at the general assembly where I lead the delegation at 
IMO that looks at international standards.
    And so it makes sense to have one entity, one federal 
entity, so you don't have competing states with different 
requirements. So the Mariners want to do everything they can to 
come into compliance, but when they get conflicting signals 
from different entities, from different agencies, it makes 
their compliance all the more difficult. So big advocate that a 
one-stop shop and logically it would fall on the shoulders of 
the United States Coast Guard.
    And on ballast water standards, we have set the bar higher 
than any other Nation in the world. We now have six certified 
ballast water treatment systems that we want the global 
community to embrace. We have foreign flagships coming into 
ports like Seattle where we are already seeing hundreds of 
billions of dollars in damage each year from invasive species, 
we have have got to stop the bleeding.
    And so we are trying to be the model internationally. I met 
with the Greek shipowners yesterday that own 20 percent of the 
world's fleet and they are looking at us, OK, IMO has a lower 
standard but we do a lot of trade with the United States. We 
want to work with the Coast Guard. We want to come into 
compliance as well.
    So I think those two--whether its ballast water treatments 
systems, or whether it is the VIDA regs, look no further than 
the United States Coast Guard, where we have those captain of 
the port authorities, as well, throughout the United States.
    Mr. Newhouse. Appreciate that.
    Admiral Zukunft. Thank you for your support, sir.
    Mr. Newhouse. Certainly, simplicity, having a single 
regulation to follow, I would think would aid in compliance and 
success in protecting our environment.
    Admiral Zukunft. Yes, sir.
    Mr. Newhouse. I appreciate your response. Again, 
congratulations on your career and Mr. Chairman, I yield back 
my time.
    Mr. Carter. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. And admiral, thanks 
for your service. We truly appreciate you and--and 
understanding who the high-ranking admiral is, we appreciate 
your wife's service and thank you for your family----
    Admiral Zukunft. As only a former service member could 
acknowledge. [Laughter.]
    Mr. Taylor. I understand, I understand. And also, we think 
very highly of the Coast Guard in Virginia, in Virginia 02, so 
I think it is a huge part of our national security apparatus. 
So we appreciate all--all that you do. We appreciate all the 
Coasties who are under you and what they do. So please give our 
best to them.
    There was a significant amount of money of course in fiscal 
year 2018 and 2019 for the Coast Guard and my question is for 
the Coast Guard as other services as well as, it is a lot of 
money in a short time. Is the Coast Guard using contract 
vehicles like OTA's and SBIR's so as to use of funds quickly 
and inefficiently but responsibly?
    Admiral Zukunft. So a lot of this money is actually 5-year 
money. And when you start looking at our shore infrastructure--
and we work with the various congressional districts and some 
would really like to see local workers land those positions as 
well. So we work with minority contractors, but at the same 
time, we want to make sure that we are--the requirements are 
being met and on budget. So we are growing our acquisition 
staff slightly to be able to accommodate these opportunities 
that have now arrived on our doorstep.
    I have the highest confidence that we will be able to 
execute on time but also execute responsibly. We look back to 
supplemental funding that received after Hurricane Sandy. So we 
have got great corporate knowledge of when you have an infusion 
of money, some of it driven by contingency, but it also has 
multi-year.
    And so what we will be doing and what the next team coming 
in will be doing is, is doing well looking down at 5-year 
timeline to make sure that we are fully obligating and 
expanding and expanding responsibly the funding that is being 
allocated in the 2018 omnibus that will meet our requirements.
    Great example was out at Great Inagua. We had a hurricane 
number years ago, leveled our hanger out there, so we built it 
to condition three standards that experienced 155 knot winds 
during Hurricane Irma. It didn't remove a shingle. And so the 
next day, we are using that facility to do rescue operations in 
the U.S. Virgin Islands.
    I just use that as one example of many, but we have seen 
this movie before and we know how to be responsible stewards of 
the funding and also the proper contract vehicles that can make 
sure that it will meet our needs, most importantly, meet them 
on time as well.
    Mr. Taylor. Understood, thank you. Switching topics to 
cyber. So, cyber appropriations in fiscal 2017 and of course 
2018 as well, how are we--for the--for the workforce--how is 
the Coast Guard collaborating with other agencies or services 
in the space so as not to be redundant?
    Admiral Zukunft. So, we were first working within our 
flagship, our Department of Homeland Security. We have been 
able to create a cyber protection team that is over 120 people 
strong. The end strike needs to be closer to 200 of that. The 
good news is, we actually have these people on the payroll. We 
are creating a cyber curriculum at are Coast Guard Academy in 
2019. The valedictorian who was a Fulbright scholar graduate 
last year is off at Oxford and has every intention of making 
his career in cyber.
    The J6 at--who serves the chairman of the Joint Chiefs, is 
a Coast Guard three-star admiral. The Coast Guard has a one 
star admiral who is the J8 at U.S. Cyber Command and we have 
over 80 cyber professionals there. In a closed hearing, I could 
actually say what they do, but when I talk to my good friend 
Admiral Rogers, he mentions a first-class petty officer in E6 
by name. He was one of the rock stars over there.
    So that is our contribution not just to the joint services, 
but across the inner agency within the Department of Homeland 
Security. And were doing with a very small footprint, 120 
billets right now, but we do need to grow that in a very 
competitive field right now as only you can appreciate. The 
world, this country is not flush with a lot of cyber 
professionals, demand exceeds supply.
    Mr. Taylor. No question. And this may be more of a 
statement than--than a question because we are in of course an 
open hearing. But obviously with cutters and ships, you have a 
tremendous amount of different vendors and different systems 
and coding, et cetera, and all that. I guess, it could be a 
question, but in a--a general question. Is the--is that cyber 
space looking at that, and sort of hacking, and having the 
ability to understand what all those various systems are with 
different vendors, as well as--so as to be--have the ability to 
respond to a cyber attack, but also, you know, to understand 
their systems better?
    Admiral Zukunft. Thank you, Congressman. So, in 2015 I put 
out a cyber strategy. One, we operate on the Department of 
Defense Information Network. We don't want to be the soft 
underbelly for an adversary to get inside the greater network, 
which is our Department of Defense.
    So, one, we harden our defenses. We have migrated to 
Windows 10. So, you know, we are, you know, we are standing the 
watch from a protective standpoint, but then how do you use 
cyber offensively? Which gets into some of the more classified 
system. When you look at our National Security Cutter, our--all 
the platforms we are building have, what I would call, Navy-
type, Navy-owned, C4ISR systems.
    So we are looking at what is in the supply chain to make 
sure that it doesn't have imbedded malware before we plug it 
in, and then we are using that to interoperate with allies, 
and, more importantly, with our great U.S. Navy.
    Then finally, the last piece of this, we are looking at 
what is the maritime industry doing? We have listened to them. 
We are working with the National Institute of Standards of 
Technology. Looking at what are the state of play in cyber 
protection today, to share that with the maritime industry.
    Maersk shipping, just over--nearly a year ago, was intruded 
with NotPetya malware, and it shut down their screens. In 5 
days, they recovered, because in 5 days they could migrate the 
entire enterprise to Windows 10.
    Through our acquisition--it took us 4 years to do that in 
the United States Coast Guard, and probably most federal 
agencies. We don't have that nimbleness to move money that 
quickly.
    So we are looking at--protect the Department of Defense 
Information Network, on which we reside; use it offensively to 
go after adversaries; and then, third, protect our maritime 
infrastructure, which is very cyber-dependent, from intrusions, 
as well, to provide them as practices.
    Mr. Taylor. Thank you, Mr. Chairman. Thank you, Admiral. We 
wish you and your family all the best in the next chapter.
    Admiral Zukunft. Thank you, Congressman.
    Mr. Carter. We are going to go to a second round.
    Admiral, last year you stated that 1,100 reserve billets 
needed to be restored, that active-duty strength needed to be 
increased by 5,000 over the next 5 years, and you have talked a 
little bit about that today.
    But the Coast Guard has yet to complete the required 
Manpower Requirements Analysis to determine the size of the 
force-based strategy analysis risk management.
    Without a complete manpower analysis, how can you determine 
the right size of the force, and the proper fleet mix of 
vessels and aircraft? What progress has been made in completing 
this analysis, and what remains to be done to achieve force 
structure goals?
    It is now the third quarter of 2018. How is the service 
doing in terms of hiring, recruiting, retaining both civilian 
and military workforce?
    Admiral Zukunft. Yes, thank you, Mr. Chairman. So the 
analytical work was done, and the numbers were backed out. So 
we have also, in parallel, have done a force-planning 
construct, which is internal to the Coast Guard, and it is not 
by coincidence. The numbers in there mirror image what--what 
was on record, in terms of, you know, a 5,000 active duty. In 
fact, the force-planning construct says 5,260, roughly.
    The 1,100 reservists, those were billets that were cut when 
we were going through those funded below the--you know, the BCA 
floor, so we started cutting billets. And we cut 1,100 of our 
reservists.
    Those are the first people we call in time of disaster, and 
so we are just trying to get back to what was status-quo to 
deal with natural disasters.
    And so our forced-planning construct--we will work with our 
department, we will work to get the numbers put back in there, 
but I could say with very high confidence a 5,000 growth in 
active-duty is valid, and restoring our 1,100 reservists is 
valid, and sustaining our current end-strength of civilians is 
valid, as well.
    We have the highest retention rate of any armed service 
right now. Over 90 percent of our first-term enlisted are re-
upping. We have very low numbers, as an early indication, 
entering into what is called the blended retirement system--
those that have the option to opt-in are saying, well, they are 
planning to do a 20 year career? Why would they opt in and 
retire with less pay at 20 years, if they plan to do a 20 year 
service?
    So we have the highest retention of any armed service. Huge 
dividends are paid if you don't have to constantly hire, train, 
and then certify journeymen that are coming into the service. 
That has paid huge dividends.
    We can't bank on that, but the fact of the matter is, we 
are in a very good place right now. Numbers are valid, but we 
do owe you, you know, the force-planning construct, which, as 
you can well-appreciate, you know, we need to get that blessed 
from other levels of government to get that on record.
    But everything I have seen--we are spot-on when it comes 
to, you know, growing the active force by--by 5,000, the 
reserves by 1,100. We fully loaded our training center at Cape 
May right now. We have not lowered the standards for anyone who 
wishes to become part of Team Coast Guard.
    You must have a high school diploma. If you have a GED, 
well, then you better have an associate's degree on top of 
that. This is the best-educated, physically fit Coast Guard 
that I have served with, and I am proud to stand next to them 
in my 40 plus years of service.
    Mr. Carter. And this Manpower Requirement Analysis--when 
will it be completed so we can take a look at it, too?
    Admiral Zukunft. Yes, sir.
    Mr. Carter. When will that be?
    Admiral Zukunft. I will get back to you on that. I wanted 
to have that date for you here, and I never like to show up 
without our homework complete.
    Mr. Carter. OK. We need that. Thank you.
    Admiral Zukunft. Yes, sir.
    Mr. Carter. Ms. Roybal-Allard.
    Ms. Roybal-Allard. Yes, I would like to follow up on the 
Chairman's question, with regards to retention and focus more 
on the retention of women, because you recently mentioned in 
the speech that the Coast Guard is having trouble retaining 
mid-career level women, and that you were looking into this 
whole issue, and--by conducting a study on retention. And I 
mention that--a part that is going to be included, and what the 
Chairman was asking about.
    As I mentioned in my opening statement, I was glad that we 
were able to include additional money for childcare, and I am 
just wondering if the survey, in addition to the childcare 
issue, if there is any indication as to what other issues are 
causing the women to leave the Coast Guard, and if you could 
tell us what the cost is--first the contributions, then the 
cost, of losing these service members, both in terms of funding 
and readiness?
    Admiral Zukunft. Yes, thank you, Ranking Member. So, yes, 
we did embark on a study rather than hypothesize and--and maybe 
we hypothesized wrong of--of why do women leave the service.
    You know, 50 percent of a year-group leaving between years 
10 and 12 of service, at a point where, you know, they have now 
become subject-matter experts in--in their chosen field, and 
every field is open to women in the United States Coast Guard. 
And you can speculate, OK, well, maybe they have approached 
child bearing years. Maybe it was difficult maintaining two 
careers.
    Or maybe there is a subculture in the United States Coast 
Guard. I don't want to be the emperor with no clothes, that we 
have a subculture in the Coast Guard that does not fully 
embrace diversity to include the role that women--the vital 
role that women serve in the United States Coast Guard today. 
Because that is a leadership issue that a commandant of the 
Coast Guard can address and can fix.
    The good news is, a lot of our women, when they do leave 
active duty, they affiliate with the Coast Guard Reserve. And 
so they still want to serve in the United States Coast Guard. 
But before we start a program, we need to understand the 
problem, and then come up with solutions.
    Today, our United States Coast Guard Academy is nearly 40 
percent female. We didn't have women when I went to the Coast 
Guard Academy, back in 1973. And they serve in every field 
across the Coast Guard.
    So, when you take somebody out of service, at 10 to 12 
years of service, well, it took 10 to 12 years to grow that 
competency. And so you don't recover overnight. You can't bring 
somebody new into the Coast Guard and fill that void. So, this 
is--one, it is a diversity issue for me. It is also a readiness 
issue for me. And it may be a leadership issue for me as well.
    So we will provide full disclosure on the findings of this 
report, to include if it points to, you know, we have a 
subculture in our Coast Guard that is not hospitable to women.
    Ms. Roybal-Allard. Yes, well, what is the timeline in 
completing this?
    Admiral Zukunft. I believe it will be done in the next 
year. So we awarded the contract to embark on this early--very 
early this year.
    Ms. Roybal-Allard. OK. And I want to follow up on the 
questioning of Mr. Taylor. The Guard sustained significant 
damage during the last hurricane season. Buildings and 
facilities were damaged, as well as utility systems and 
navigation aids, and aviation assets were used more frequently 
during the response, requiring accelerated maintenance.
    And as was stated in February, Congress provided $835 
million in supplemental funding to address the storm. As we 
said, there--this is a huge amount of--of funding, and it would 
be difficult for any agency to execute. And you were talking 
about a 5-year plan.
    My questioning has to do more with the fact that the 
current hurricane season begins on June 1st. And so I have a 
series of questions here. First, can you update us on the 
status of these projects? Does the Coast Guard have enough 
personnel to manage and execute repairs and maintenance, and is 
there anything that this subcommittee can do to help facilitate 
these activities so that you will in fact be ready for the 
coming hurricane season? Especially if we have something like 
we had last year.
    Admiral Zukunft. Yes, Ma'am--Ranking Member. And so, I 
guess I would begin--if--if--you know, starting where--Port 
Aransas, Texas, where a tornado devastated our--our small boat 
station there. So work is already ongoing to restore that. We 
made it through this hurricane season with a shortage of $77 
million of restoration funding from Hurricane Matthew the year 
before.
    We had small boat stations along the Florida coast 
operating out of temporary facilities, and now those temporary 
facilities are gone, as well. So we have been able to 
prioritize, you know, where we cannot meet mission. And so 
those are the projects that are queued up first. The 
administrative buildings--yes, it does affect operations, but 
we have a very deliberate approach of how we are going to 
reconstitute those.
    Puerto Rico, the U.S. Virgin Islands--the challenges there 
is the workers. But again, this money for shore acquisition 
construction and infrastructure is 5-year money. So, I am not 
concerned about our ability to award, obligate, and expend the 
funding to do that, but I want to make sure we are getting the 
right quality of work.
    So the area right now that we are most vulnerable is going 
to be in the U.S. Virgin Islands. We did a lot of great work in 
building housing in Puerto Rico, so very little of our--our 
Coast Guard-owned housing faced destruction, unlike the 700 
other members of the Coast Guard who went home and found out 
that their home had been destroyed in Florida and in Texas, as 
well.
    Ms. Roybal-Allard. OK. I see my time is up.
    Mr. Culberson [presiding]. Thank you very much. Chairman 
Carter will return in just a moment. Admiral, on behalf of the 
people of Houston, I wanted to first of all address our 
profound gratitude for the extraordinary efforts that the Coast 
Guard engaged in to save lives during the Hurricane Harvey.
    Your team was extraordinary. When the 911 call centers in 
Houston were overwhelmed, your team in Houston, the Coast 
Guard, quickly set up an emergency operations center, which 
triaged all the calls from those who were stranded by the flood 
waters, and dispatched boats and helicopters to rescue those 
who were most in need.
    During the storm, the Coast Guard deployed an additional 
1,400 personnel from units as far away as Alaska and Puerto 
Rico to help the people of Houston. You sent 34 helicopters, 69 
shallow water vehicles, and 7 fixed wing aircraft to help us 
during the height of the storm. Your helicopters flew over 900 
hours, and fixed wing aircraft flew 370 hours in support of 
rescue operations.
    I am told that during one 8.2 hour launch, air station Cape 
Cod MH60 helicopter dodged heavy thunderstorms and massive 
rainfall to--using street addresses and Google Maps to navigate 
to survivors, and conduct 24-hour hoist rescue. It was just an 
extraordinarily agile response that exemplifies the Coast 
Guard's motto of ``always ready.'' We are immensely proud of 
you.
    You saved over 11,000 lives that were either assisted 
directly or indirectly by the United States Coast Guard. Those 
11,000 Houstonians and Texans are alive today because of the 
work of the Coast Guard. We don't know how many lives would 
have been lost had you not been there for us. All the people of 
Texas and Houston are immensely grateful to you.
    It is a remarkable record, and we congratulate you and your 
team on a job well done. And we are especially grateful to the 
Coast Guard Sector Houston and Galveston, and Air Station 
Houston for their role in this historic rescue effort.
    I wanted to ask you, what are some of the lessons that you 
think we have learned? And what could this subcommittee do to 
help the Coast Guard in the future to make sure that you can 
respond just as effectively as you did during Harvey?
    Admiral Zukunft. Thank you, Congressman, and I think my 
good friend and FEMA Administrator, Brock Long, would first 
congratulate the state of Texas. You know, and a very resilient 
state, and a very proactive community, and what I would say, 
``Texans helping Texans.'' It wasn't just the Coast Guard. We 
had the Cajun Navy there, as well.
    It really brought out the best of what this Nation is 
about. Neighbors helping neighbors. But what we did learn in 
the middle of this, when that 911 call center went down, we 
were operating on social media. We had a Twitter account. And 
so there was an 800-number there, which is my Coast Guard 
Headquarters--we have a small command center that notifies 
senior officials of big events.
    We were getting a thousand phone calls an hour. That 5-
person team became an 80-member call center. It looked like a 
March of Dimes telethon. But these are calls--``I am on a 
roof,'' ``Water is up to our necks,'' ``I need dialysis 
treatment.''
    Your emergency management center provided us with an 
application called GeoSuite, and we were able to bring that 
into the Department of Defense information network, with the 
approval of Admiral Rogers, so that we could in real time take 
a call, push that to a helicopter pilot on an iPad, and vector 
them to where we had Texans in distress. The cycle time of that 
was about 10 minutes.
    So what we learned is that people don't necessarily rely on 
911 call centers. This is very much like Uber or Lyft, in some 
other application. The only difference is the streets that you 
were going to use are now navigable waters, and it--you can't 
drive.
    So how do you use social media in a response right now? 
What happens when you lose communications? We were fortunate 
that you--we didn't lose the entire communication grid in the 
state of Texas. But we certainly learned the relief societies, 
providing food, providing meals, and how do you bring all of 
that together? And that response framework worked extremely 
well during this. But at the end of the day, very resilient 
community.
    If I learned anything, if I were to step back and say, 
``Well, what if the sequence of events were reversed, and the 
first hurricane was Maria, and then the second one was Irma, 
and then the last one was Harvey?'' I would have been hard-
pressed, pulling resources out of Puerto Rico to then flow back 
to Florida and Louisiana into Texas.
    And so, we were a little bit fortunate that they happened 
in the sequence and the timing that they did, but if the 
sequence was reversed, I probably would not have had the 
resources that were needed to be there during Hurricane Harvey. 
So when people say, ``Well, obviously, you must have a big 
enough Coast Guard''--many people say they were lucky. We were 
lucky by virtue of the sequence in which these three hurricanes 
occurred.
    Mr. Culberson. An extraordinary job, and we are all 
grateful to you. And every one of us that were there during the 
storm would up doing jobs we didn't expect to do. My wife and I 
were stranded in our home, and I became a dispatcher.
    I was helping to position checkpoints with the Houston 
Police Department, with the sheriff's department, with DPS, and 
then I got a phone call from Garret Graves, who called to say 
he was--he had--the Congressman from Louisiana had a hundred 
in--a hundred trailers and trucks bringing 110 boats full of 
jambalaya, and diapers, and water, and food, and radios, and--
something called the ``Cajun Navy,'' which I had not heard of, 
and he wanted to know where to send them, because he wasn't 
getting a lot of help, he needed to know where to send them.
    So I was able to direct him pretty quickly to where they 
needed to go. So, they--the response was amazing. I met people 
in neighborhoods when I was out in the neighborhoods helping 
folks after the storm, helped get their houses cleaned out, and 
we met people from Michigan, from Florida, from the Carolinas, 
who had just spontaneously seen the disaster, put their boat on 
a trailer, and just come to Texas to help.
    So I could not have been prouder. I have never been prouder 
of the city of Houston than I was during that storm, and 
certainly never been prouder of the United States Coast Guard 
for the spectacular job that you did, sir. And you have always 
had the strong support of this committee, but you have got an 
even stronger ally here among the Texans on board here for what 
you did to help us during Harvey.
    Thank you, Mr. Chairman, and thank you, Admiral.
    Admiral Zukunft. Congressman, I am just going to have make 
you an honorary member of the Coast Guard, then. Thank you for 
your leadership in that time of disaster.
    Mr. Carter [presiding]. Mr. Price?
    Mr. Price. Thank you, Mr. Chairman. Admiral, I have--as we 
wrap up here, I have a couple of very different questions, one 
having to do with transgender military members, the other 
having to do with semisubmersibles. I assume the second is 
simpler, so I will start with that.
    There has been an increasing number of migrant and drug 
smuggling by sending semisubmersible technologies to our 
Nation's coasts. So we are aware of that. And so it does raise 
the question of Coast Guard capacity. Do you have the anti-
submarine warfare capacity to detect semisubmersibles from a 
Coast Guard Cutter? What is it? What kind of equipment and 
other needs does this development pose?
    Admiral Zukunft. Congressman, we do not have the anti-
submarine sensors in any of our Coast Guard Cutters. That is a 
naval capability. The one advantage is these are not fully 
submersible, and we have other means of detecting their 
activity. The most successful means of detection, quite 
honestly, is human beings.
    And these individuals that we bring in to be prosecuted 
here in the United States, they can cut a deal with the U.S. 
attorney, and instead of doing 20 years, they do 12. Now, how 
do they get 8 years taken off their sentence time? They provide 
us--information to include, where are these semisubmersibles, 
where are they loading, and where are they leaving from?
    So then we can do surveillance in those areas and catch 
them as they leave. But that has been the most valuable tool 
that we have right now, where--I want to say success yields 
success. Success in an interdiction, you bring in informants 
that then tip you off to the next event to get after these 
semisubmersibles.
    Mr. Price. So it sounds as though the main strategy for 
dealing with this is not technological.
    Admiral Zukunft. Part of it is human, and then other--what 
I would say, as a member of the National Intelligence 
Community, which the Coast Guard is, using all other sources of 
information--which gets into a classified realm--to be able to 
target these semisubmersibles. They have to communicate, and so 
that is an area where they are also vulnerable.
    Mr. Price. Thank you. Well, let me turn to this fraught 
question of the transgender military members. As you know, in 
July 2017, the President announced via Twitter a complete ban 
on transgender people serving in the Armed Forces. A few months 
later, the Departments of Defense and Justice recommended the 
full implementation of this ban.
    It seems to me this is an invented problem and a waste of 
time and dollars and military resources by targeting these 
dedicated service members who have proved their fitness and 
their ability to serve. It would seem that every American who 
is qualified and willing to risk their life to keep our country 
safe should be able to serve.
    I want to commend you for strongly speaking out against the 
ban last summer in support of the current transgender Coasties. 
But this is an ongoing matter, and that is why I would like you 
to provide us with an update on the Coast Guard's position 
regarding transgender individuals, both current service members 
and future hires, and ask you, if I might, what is your posture 
with respect to the apparent determination of Secretary Mattis 
and Secretary Sessions to implement a ban?
    There are pending judicial procedures. Is the Coast Guard 
contesting this--what can you tell us about the state of play?
    Admiral Zukunft. Well, the--the easiest--I will begin with 
our--the 17 members of--transgender members of the Coast 
Guard--actually, they transitioned, so they are not even 
transgender anymore--that--that are serving in the Coast Guard, 
carrying out the full scope of missions that we execute around 
the world today--17, out of our more than 40,000 active duty 
Coast Guard. One of them happens to serve on my staff, by the 
way.
    So we are certainly committed to their continued service in 
the United States Coast Guard.
    I work with the chairman, I work with the other service 
chiefs as we look at the policy going forward. There--you know, 
risk factors, and whether it is through surgery, whether it is 
through emotional wellbeing and the like, and so we will make 
sure that there is a one policy for all service members, of 
which we are the fifth armed service.
    So the Coast Guard, nor will the Navy, Army, Air Force, and 
Marine Corps go off in a different direction with a different 
approach, but we are all sitting at the table together, and 
then providing the chairman, to provide elected leadership--
what I call, ``best military advice'' going forward.
    But I look no further than the 17 members serving today 
with a passion to serve in an all voluntary service, and they 
are hitting the ball out of the park. Where we go with a policy 
going forward--again, we will work collectively, among the 
Joint Chiefs, provide best military advice, and then we will 
follow what that policy is. But are you are well aware, that--
that has not been reconciled as of today.
    Mr. Price. That best--that good advice, that conscientious 
advice, of course, is extremely important, and I am glad you 
are offering it so straightforwardly.
    Thank you, Mr. Chairman.
    Mr. Carter. Well then--well, Admiral, I think that is going 
to conclude your last hearing. I join all of the--my colleagues 
in congratulating you on doing a very, very good job for our 
Coast Guard. And all of us here are very, very proud of the 
Coast Guard. I got proud of them going all the way back to New 
Orleans, when they were the first ones in and got the job done 
when everybody else messed up.
    So, thank you, good luck, aloha--I know where you are 
going--and enjoy a great retirement, and our doors are always 
open to you and your beautiful wife any time you want to come 
around this city and visit us. We would love to see you. God 
bless.
    Admiral Zukunft. OK. Thank you, Chairman, Ranking Members, 
and members of this committee. Thank you.

                                          Thursday, April 26, 2018.

                              MEMBERS' DAY

    Mr. Carter. The committee will come to order. We are going 
to hear from Members of Congress today, issues that they have 
that they will talk to us about their department and let us 
know what they need. Billy Long, you are recognized.
                              ----------                              --
--------

HON. BILLY LONG, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSOURI
    Mr. Long. Thank you, Mr. Chairman and Ranking Member 
Roybal-Allard, is that how you pronounce it, and members of the 
subcommittee. Thank you for allowing me to come before you 
today to speak on the importance of H-2B seasonal worker Visa 
program. Many of us in this room represent districts with 
various small and seasonal businesses that are struggling to 
find local workers to fill seasonal temporary jobs. Many of 
these businesses depend on seasonal workers through the H-2B 
visa program. Relief for these seasonal businesses is urgently 
needed and cannot wait, and I am here today to ask for your 
support to include key H-2B visa program provisions in the 
Department of Homeland Security Appropriations fiscal year 2019 
proposal.
    H-2B visas, the H-2B--excuse me, the H-2B program is 
essential to employers who cannot find workers to fill 
temporary jobs in seafood processing, horse training, 
hospitality, amusement parks, forestry, landscaping, circuses, 
carnivals and many other seasonal industry. It is important to 
point out that these workers are not immigrants. They provide 
an opportunity for businesses to operate at a greater capacity, 
retain their fulltime workers and contribute to the local 
economies.
    The H-2B program sustain American jobs. In fact the H-2B 
visas issued support 4.6 American jobs on average. 
Unfortunately, the program's annual 66,000 visa cap, 33,000 for 
each half at the fiscal year is not adequate to meet the 
demands of the growing economy. In fact, the cap for seasonal 
half of fiscal year 2018 was reached February 27, 2018, leaving 
many seasonal employers excluded from the program with no 
access to legal, seasonal laborers, leading to potential 
reductions and operating hours and closures. Without action, it 
is inevitable that the H-2B visa cap will be reached early in 
fiscal year 2019. An increase to the H-2B visa allotment from 
the existing 66,000 visas would certainly be a big step in the 
right direction.
    Often the cap is reached literally within days of when work 
petition applications are accepted, the program has essentially 
become a lottery as the demand for visas is far greater than 
what is issued. I understand firsthand the importance of this 
program, Missouri's seventh congressional district which I 
represent is a tourism hot spot, I am proud to represent such 
entertainment centers as Branson, Missouri, a small town in 
just over 11,000 people taking in 8.5 million visitors every 
year.
    I would like to point out that a lot of residents are 
retirees and you have seen the ad on TV, I am 85 and I want to 
go home. People that have to work until they are 85 and there 
is not a log of people retired in Branson that could take these 
jobs that need to be filled.
    The deficiency in finding available employees in Branson 
affects everything from hotels to restaurants to theme parks, 
to landscaping businesses. These are employers that have tried 
for years to fill the need for employees with locals and have 
been unable to do it. The H-2B program provides the Branson 
community and many other destination--destination cities across 
the country the ability to find employees so they can provide 
their services to the public. These seasonal destinations are 
very much--excuse me, the seasonal destinations are very much 
dependent on such a program for the commerce in the to 
effectively function. Simply put, there are just not enough 
able individuals to fill these job openings.
    It doesn't take a PhD from MIT to figure out in a town like 
Jackson, Wyoming at 10,000 people or Branson, Missouri of 
11,000 people, these tourist areas to bring in millions of 
tourists every year, that you are not going to have the local 
population, if everyone there wanted to work three shifts, 
three times, you wouldn't have the number. So I plead with you 
to please look at increasing the 66,000 cap.
    Again, I appreciate the committee's continued willingness 
to listen to the views of members like myself. I know the 
Appropriations Committee will face tough decisions on 
priorities for fiscal year 2019. For this reason, I 
respectfully ask for you to support--for your support to 
include key H-2B visa program provisions in the Department of 
Homeland Security Appropriations fiscal year 2019 proposal.
    [The information follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Carter. Thank you, Mr. Long--Congressman Long. Do you 
have any comments and questions really quick?
    Ms. Roybal-Allard. Not really other than to say thank you.
    Mr. Long. OK, thank you all very much. I appreciate your 
consideration.
    Mr. Carter. Yeah, we understand the dilemma, we hear it 
from everybody, it is a challenging area, but we--I support H-
2Bs and we are going to--we will work, again, try to get some 
expansion. We also will some issues the White House has with H-
2Bs that we have got to overcome.
    Mr. Long. I have been talking to them too and I got--I 
think they are leaning that way.
    Mr. Carter. Keep them--keep at them. And I apologize to Ms. 
Roybal-Allard, I didn't make an opening statement, you? OK, it 
makes it easy.
    All right, we are joined by Brad Schneider. Brad, are you 
ready to go?
                              ----------                              --
--------

HON. BRAD SCHNEIDER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Schneider. I am all set, thank you. Thank you, Chairman 
Carter, Ranking Member Roybal-Allard and the distinguished 
colleagues of the subcommittee, thank you for this opportunity 
to speak before the committee. I am here today to request 
robust funding for the Department of Homeland Security, 
specifically for four programs of particular importance to the 
residents of my district and our country.
    The United States has always been a nation of immigrants, a 
shining beacon of hope for those fleeing oppression and seeking 
a better life. I testified before this subcommittee last year 
and since that time I have participated in a handful of 
naturalization ceremonies in my congressional district. I can't 
begin to explain how meaningful it is to experience these 
ceremonies, especially meeting the individuals now proudly call 
themselves Americans.
    My grandmother, my great grandparents came to the United 
States in the early 1900s fleeing the persecution of--of Jews 
in Tsarist Russia. This country gave her and her family, my 
family boundless opportunities and they were able to make a 
wonderful life for themselves. That is why I am committed to 
both ensuring the safety and security of the American people 
and also ensuring our country remains a beacon for immigrants 
and a land of opportunity for all.
    I vehemently oppose President Trump's travel ban that 
arbitrarily bars entry of people seeking refuge from certain 
countries into this country. His travel ban does nothing to 
target the root causes of terrorism, does not make our country 
safer and undermines the very values that define our nation. 
The Department of Homeland Security's U.S. Citizenship and 
Immigration Services, USCIS, plays an important role in 
processing applications for those seeking entry into the United 
States as asylum seekers or through the U.S.--through other 
U.S. humanitarian programs.
    USCIS faces major backlogs and delays when processing 
applications, so I continue to urge this committee to work with 
them and other agencies involved in refugees screening 
processes to identify whether there are ways to improve and 
ensure the timely processing of refugee and asylum 
applications.
    I also urge the committee to continue funding for the Urban 
Area Security Initiative, UASI program, which assists high 
threat urban areas to build and sustain the necessary 
capabilities to prevent, mitigate, respond to and recover from 
acts of terrorism. I have heard from emergency responders 
across my district about the importance of this program in 
keeping our communities safe. UASI funds are critical to the 
first responders as well as enabling regional coordination 
across districts and states.
    Additionally, I would like to highlight one specific 
program within UASI that is of critical importance. This is the 
Nonprofit Security Grant Program, NSGP. The NSGP was created 
to--so at-risk nonprofit organizations that serve our community 
centers have the resources they need to protect themselves 
against potential threats. These funds may be used for 
important capital improvements to upgrade much needed security 
measures. Underscoring the need for this program is the 
troubling rise of domestic extremism and hate incidents across 
the country.
    According to the Southern Poverty Law Center, the number of 
hate groups increased by four percent from 2016 to 2017, from 
917 to 954 respectively. Additionally the Anti-Defamation 
League found that Anti-Semitic incidents increased 57 percent, 
57 percent from 2016 to 2017. That is 1,267 incidents in 2016 
to 1,986 incidents in 2017. These statistics exemplify the 
threats nonprofit organizations across the country face and the 
need to take these threats seriously.
    Therefore I urge this subcommittee to continue this 
critical funding for NSGP. Finally, I would like to discuss the 
importance of the assistant to firefighter grant AFG and 
staffing for adequate fire and emergency response, SAFER grant 
programs. Fire departments and emergency response personnel in 
my Congressional district have benefited greatly from these 
programs. They provide much needed resources including 
personnel, training and equipment.
    AFG and SAFER have had an enormous impact on public safety, 
but the demand for these resources continue. I urge the 
committee to continue to fund these vital grant programs that 
help keep our communities safe. I realize the tough budgetary 
decisions that lie before this subcommittee and I greatly 
appreciate your consideration of my priorities, your 
willingness to let us come and speak before you and your work 
in addressing the fiscal requirements for fiscal year 2019.
    Thank you.
    [The information follows:]


  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
    Mr. Carter. Thank you, Congressman Schneider and yes, we do 
pay a lot of attention to these comments when people come in 
and we certainly will take them into consideration. We have 
notes of what you just said and we all read them and we will do 
the best we can to accommodate you.
    Mr. Schneider. Thank you very much. Have a wonderful day.
    Mr. Carter. Ms. Roybal-Allard, any comment?
    Ms. Roybal-Allard. Again just thank you for highlighting 
some very critical programs.
    Mr. Schneider. Thank you.
    Mr. Carter. Anyone else on the committee would like to 
comment? Thank you very much.
    Mr. Schneider. Thank you, have a great day.
                              ----------                              --
--------

HON. BILL JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Carter. Congressman Johnson. Welcome.
    Mr. Johnson. Thank you, Mr. Chairman. I assume I am 
recognized.
    Mr. Carter. You are now recognized. Yes, you are.
    Mr. Johnson. OK, well thank you. Well, thank you, Mr. 
Chairman and thanks to the committee for holding this important 
hearing today and providing me with an opportunity to say a few 
words. As some of you might know, I represent eastern and 
southeastern Ohio and I am here today to speak about the 
importance of resolving the current H-2B visa shortage directly 
impacting small businesses, seasonal businesses, particularly 
in my district and around the country.
    Earlier this month, in her testimony before this 
subcommittee, Secretary Nielsen stated that one of the core 
missions of the Department of Homeland Security is to preserve 
and uphold the nation's prosperity and economic security. 
Unfortunately, this critical mission continues to be impeded 
every year as the demand for H-2B visas surpasses the annual 
cap, leaving thousands of small seasonal businesses in jeopardy 
of closing their doors when their labor needs go unfulfilled.
    Our Nation's prosperity and economic security is highly 
dependent upon the quality and quantity of workers and with 
nearly six million unfilled jobs across the United States, it 
should come as no surprise that businesses continue to suffer 
from this nationwide labor shortage when it comes to meeting 
their seasonal needs. Put simply, seasonal businesses need the 
resources to do the jobs that are available and the federal H-
2B visa program provides a solution to the current labor 
shortage by enabling companies that qualify for the H-2B visa 
program to acquire temporary foreign workers to fill non-
agricultural positions.
    The H-2B visa program is a small but necessary part of 
American economic landscape, helping to create and sustain jobs 
in my district and across the country. According to a U.S. 
Chamber of Commerce survey of employers, hiring H-2B visa 
workers allows companies to sustain and expand the volume of 
their business and this in turn enables them to hire more U.S. 
workers.
    This temporary worker program is critical for many seasonal 
businesses, but it is by no means perfect. As the nationwide 
labor shortage continues, the seasonal businesses relying on 
the H-2B visa program are facing yet another challenge this 
year when it comes to obtaining the necessary workforce. The 
current demand for H-2B visas has again surpassed the annual 
cap of 66,000 per fiscal year.
    Now, I fully acknowledge that Congress bears some 
responsibility for this problem, because up until 2016 
employers could get an exemption for returning guest workers, 
thereby not counting against the caps. That exemption expired 
in 2016 and Congress has not been able to reauthorize it. But 
in the recently passed consolidated appropriations act for 
fiscal year 2018, Congress did give DHS the authority to 
increase the caps by another 63,000 and DHS should do that.
    On March 1, 2018, the U.S. Citizenship and Immigration 
Services announced that employers sought several thousand more 
seasonal farm workers this spring than there are visas 
available, resulting in a lottery for the H-2B visas, the first 
time a lottery has ever been conducted for H-2B visas.
    Such a lottery method gives no consideration to the many 
small seasonal businesses that have had returning guest workers 
for years and their business models have made them dependent on 
this workforce for their very survival. We are in uncharted 
waters when it comes to the federal H-2B visa program and in 
order to carry out its mission to preserve and uphold the 
nation's prosperity and economic security, Secretary Nielsen 
must provide these businesses with a sustainable H-2B cap 
relief. Small and seasonal businesses are desperate, as 
participation in the H-2B program is not their first choice. It 
is the last resort after unsuccessfully carrying out extensive 
recruitment efforts to secure American workers.
    My district is home to many amusement and landscaping 
companies that will face irreparable harm if the Department of 
Homeland Security does not provide H-2B visa cap relief 
immediately. In fact, 66 percent of businesses seasonal labor 
needs will go unfulfilled this spring without immediate action 
according to the Ohio Landscape Association.
    In fact, without substantial and immediate cap relief, some 
of the very same small businesses that we work so hard to help 
with the Tax Cuts and Jobs Act are at risk of losing everything 
because they can't get their seasonal workers. One of my 
constituents, Chris Ponzani of the Ponzani Landscaping Company, 
will be unable to meet his business obligations and will be 
forced to default on his contracts, lay off dedicated fulltime 
U.S. workers, cancel orders with U.S. vendors and in the worst 
case scenario, he will have to close his 27-year business if 
additional H-2B visas are not released.
    This is just one of the many seasonal businesses in my 
district that are facing the same uncertain future because they 
can't obtain legal H-2B visa workforce. I know members on this 
committee are no strangers to stories like this, as similar 
stories have emerged in states and districts across America, so 
I am hopeful everyone here can agree when I say we need 
immediately substantial H-2B visa cap relief, and we must do 
everything we can to urge Secretary Nielsen and the Department 
of Homeland Security to make additional H-2B visas available 
just like we told them they could do recently in the 
legislation that passed and was signed into law. And this is 
going to help the small and seasonal businesses that we work so 
hard to protect, the 60 percent of businesses that provide the 
60 percent--or I am sorry, the small businesses that provide 
over 60 percent of the jobs in America.
    And, Mr. Chairman, it is a desperate situation. We saw it 
happen last year as it unfolded and--and this lottery system is 
just totally, totally unfair and inconsiderate of businesses 
that have been out there for years and they are--they are 
victims of inaction by Congress and an agency that for whatever 
reason is moving too slowly to try and remedy the problem in 
the near term. So I urge the committee to do what they can to 
help them with that. I yield back and I will answer any 
questions that you might have.
    [The information follows:]


  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
    Mr. Carter. Thank you. Are there any--Lucille?
    Ms. Roybal-Allard. This is a serious issue and I thank you 
for being here.
    Mr. Johnson. Thank you, ma'am.
    Mr. Carter. Comment?
    Mr. Newhouse. Thank you, Mr. Chairman. I just want to thank 
Mr. Johnson for shedding light on this issue. It is all over 
the country. You are absolutely right even up in the Pacific 
Northwest and you and Mr. Long will bring a very important 
issue forward and hopefully we can do something to remedy the 
situation. Thank you.
    Mr. Johnson. With the committee's indulgence, can I give 
one more example? County fairs, county fairs, rural America, 
that is the heartbeat. I mean that is where life happens in 
rural America. If you can't get merry go rounds and roller 
coasters and vendors set up for county fairs and they have to 
cancel those county fairs, 4H livestock shows, demolition 
derbies, arts and crafts, you name it, the heartbeat of our 
country is at risk here of shutting down because of a glitch 
here in Washington, D.C. Please urge the Department of Homeland 
Security to move immediately to do what Congress has given them 
the power to do and allocate those additional 63,000 H-2B visas 
for this year.
    We will work on a bigger solution next year, but let us get 
the problem solved this year and get it solved now. Waiting 
until July and August, many of those businesses will have 
already been shut down because the contracts will be too late, 
the field will be too wet to plow.
    Mr. Carter. Yes, Mr. Cuellar, go ahead.
    Mr. Cuellar. Thank you, Mr. Chairman. I agree. Congress 
took some action and we are waiting for the administration. Mr. 
Chairman, I don't know if I am missing something, but I thought 
we are the ones that enact the laws. So if we did that, why are 
we waiting? Why can we not--I mean why do we have to wait? 
Because you are right, I mean I see that in different parts of 
my area also, they are waiting for this. And we changed it, so 
why are we waiting?
    Mr. Johnson. I thank my colleague for asking that question. 
Here is my understanding of the problem. It is not a problem--
well, first of all, Congress, as I mentioned, bear some 
responsibility because we allowed that returning guest worker 
exemption to expire back in 2016. That would have solved this 
whole problem because then businesses that have a history of 
getting these workers, they wouldn't even counted toward the 
caps and it would only be new businesses that we are dealing 
with.
    So that is where Congress is culpable. But the problem is 
not so much in the House. We passed legislation out of the 
House that went to the Senate in the consolidated 
appropriations bill that we passed just a few weeks ago. It is 
the language in the Senate that makes this difficult, but the 
Department of Homeland Security can help us and help the 
American people by responding to the temporary fix we gave them 
to go ahead and just approve the caps up to 63,000. Let us 
worry about fixing a permanent fix next year.
    I am trying to give Homeland Security a little bit of the 
benefit of the doubt. This is a problem that we created by 
letting that exemption expire, but they can help us resolve it 
since we haven't been able to get it resolved legislatively.
    Mr. Cuellar. Mr. Chairman, I want to work with you and the 
Ranking Woman and, you know, it looks like it is a very 
bipartisan request and whatever we could do, you know, I want 
to help, Mr. Chairman.
    Mr. Carter. Well, to go on the record, I have raised the 
number every year since I have been chairman. In addition I 
supported the returning worker exemption that we should have 
that. It was a large, during the political season, a large 
uproar from the members of USCA and some other people that 
jammed that issue.
    Mr. Cuellar. Sure.
    Mr. Carter. They are concerned about people staying and all 
that stuff. It is a necessary need of the country everywhere we 
are. And just to give you another example, I have got 168,000 
homes in Houston Texas above our normal 50,000 a year building 
rate that have got to be repaired and we don't have laborers to 
do it. And there is no bigger disaster than that, all those 
people around getting money from the government and living 
outside of their homes.
    Mr. Johnson. In all due respect, Mr. Chairman, you guys are 
probably getting some of the seasonal workers that my folks 
ought to be getting because you have all of that work down 
there to do.
    Mr. Carter. I don't know. We have got them.
    Mr. Johnson. But that is a good thing. That is a good thing 
that we got that much more work to do, but I appreciate the 
concern.
    Mr. Carter. Well, I am very much in favor of increasing 
this and we will be--I will be raising that issue.
    Mr. Johnson. Well I thank the committee very much for 
indulging my time. Thank you very much. I yield back.
    Mr. Carter. Thank you.
    Mr. Cuellar. Mr. Chairman, if you are going to excuse me, I 
know you are a judge also, but I do have a federal judge from 
San Antonio, so I am going to say hello recognize Judge Xavier 
Rodriguez from San Antonio, one of our federal judges.
    Mr. Carter. We try to keep him in line, it is a lot of 
work. But you know him, so you know what we are talking about. 
Welcome, Judge.
                              ----------                              --
--------

HON. FRENCH HILL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ARKANSAS
    Mr. Carter. Congressman French Hill from the great state of 
Arkansas.
    Mr. Hill. Thank you, Judge. I am proud to be with you today 
and ranking member, thanks for having me and members, I 
appreciate the time to be together. Mr. Cuellar, as he departs. 
I appreciate the opportunity to testify in front of you today 
in support of the assistance to fire fighters grant program and 
the staffing for Adequate Fire and Emergency Response Act 
Program.
    Fire departments need adequate staffing, equipment and 
training to keep our communities safe and these programs have a 
significant impact on our fire departments in my home state of 
Arkansas.
    While I have been in office, fire departments in my 
district have received more than $3 million of these grants, 13 
individual fire departments have received over 19 awards, with 
the highest award being $600,000 from North Little Rock 
Arkansas and the smallest being $19,000 to Burnt Ridge 
Arkansas. This shows that even the smallest award changes the 
lives of those living in their communities.
    With the $19,000 received by the Burnt Ridge Fire 
Department, they were able to purchase thermal cameras, cameras 
which is a game changer when responding to serious calls. Burnt 
Ridge was also able to purchase a new brush truck. Before they 
received FEMA funding, they were using a converted 1965 
military truck to transport water. In Arkansas' second 
congressional district, our departments need new self-contained 
breathing apparatus desperately especially in our smallest 
compartments, they are old and out dated and no longer are 
certified for operation.
    Radios are also a big need. For example, the Little Rock 
Fire Department currently needs 90 mobile radios and 202 
portable radios at a total cost of $1.3 million. Finally, 
departments typically need turnout cabinets. Fire fighters are 
putting their lives on the line not just in the immediate risk 
of bodily harm, but in the increased risk of harmful 
contaminants. These units cost $30,000 each which is well over 
the budget for most departments in my district. They need to 
have these units to clean their turnout gear after runs to 
remove harmful contaminants.
    In Central Arkansas, we have a strong community spirit and 
the fire fighters know that if one department is able to 
purchase one of these turnout cabinets, then the area 
departments, especially volunteers, will be able to maintain 
their turnout gear safe and well. Assistance to fire fighter 
grant funding is necessary for fire fighter departments across 
my district.
    Often the needs are too great for them to do it alone and 
we are proud to support them in their applications. These 
grants have changed their communities and make the area 
expeditiously, in my view, and immeasurably safer. Now, with 
your permission, Mr. Chairman, I will attach to my testimony 
the total grant awards in the second congressional district.
    Mr. Carter. Hearing no objection.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hill. I thank the Chairman. This data shows how far 
this grant money can go for our small towns and fire 
departments across our congressional districts, they keep our 
communities safe. Thank you very much and I appreciate your 
consideration of both the SAFER Grants and the work done in our 
Homeland Security Department and by FEMA, and thanks for the 
opportunity to appear.
    Mr. Carter. Thank you for your input and we do take these 
requests seriously. Be sure and get any written request you 
have in. OK, Ms. Roybal-Allard do you have anything else?
    Thank you, sir. And our final person is on her way, so we 
will--we will be ready shortly.
                              ----------                              --
--------

HON. SHEILA JACKSON LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Carter. We welcome Congresswoman Sheila Jackson Lee of 
the great state of Texas. Ms. Jackson Lee, we are ready to hear 
from you.
    Ms. Jackson Lee. Thank you so very much and again, all of 
us appreciate the work of the Appropriations Committee and 
particularly those of you who are here today. I sit on the 
Budget Committee and I know when we do member input, it is 
appreciated by the members and I certainly appreciate you.
    I am going to ask unanimous consent to place my statement 
in the record and just give a few points. This morning I----
    Mr. Carter. Without objection.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jackson Lee. I thank you. And it will give a list of 
pre-disaster mitigation, port security, TSA and others, but I 
do want to and I made mention, but I do want to just comment 
since, Judge, all of us, I know that Congresswoman Roybal-
Allard has been in the midst of disasters as well. But we are 
still dealing with Hurricane Harvey in Texas and I know that 
there are a number, Maria in Puerto Rico we heard this morning 
in the meeting Mr. Chairman that one of the cities in Puerto 
Rico, a good portion of the cities, I think it is Ponce is 
without electricity still.
    In the hearing this morning with the secretary of Homeland 
Security, I want to just emphasize these points and the 
Appropriations Committee, I think it can be very effective in 
some of these concerns. Let me say that I believe that the 
department is less diverse than it has ever been and this is 
not a question of someone's political views, but I know that 
there are competent people of like mind that could be hired 
that are Latino, African-American, Asian and it is just not 
there. In particular, the secretary's office has no diverse 
person in her immediate office.
    That is a question of recruitment, retention. I think we 
are all well aware that the department is lacking in the 
necessary resources. Number, two if you will, we are very 
unclear on how enforcement proceeds with dreamer, status 
dreamer persons, meaning that they are status.
    And what we hear is that the border patrol still drills 
down on dreamer-statused individuals as they cross the border. 
And I didn't get a satisfactory answer as well as the fact that 
I think it is important for appropriators to ask the question. 
I know that we have a difference of opinion, but whether or not 
with the court decisions that are not clear, that it would be 
appropriate for new applications to take in--be taken in as 
well as those who are re-upping. And I just think these are 
questions that we who have oversight responsibility should.
    I used to be the chairwoman of the Transportation Security 
Committee on Homeland Security and so I worked very much with 
the Transportation Security Administration. One of the issues 
that is extremely important and should be considered and 
forgive me, I have not looked to see whether there was an 
increase in compensation for those TSOs, but as I have travel 
the airports, I engaged with a management at every airport to 
find out how many FTEs they have, TSOs and what is the level of 
success that they are having.
    So clearly the question of retention is crucial for the 
Transportation Security Administration. They are losing people. 
It is great to think of this agency as a stair step, but there 
are many who view is as a professional opportunity. And what 
they argue is they need more support on retention and 
professional development, and we should assess, which may have 
been done, but I want to make and put this on the record their 
compensation. What happens is that they go to DEA, they go to 
the FBI if they are able to do so and ATF and other federal 
agencies which certainly is a credit. But I believe that the 
Transportation Security Administration and I know this 
committee has worked very hard on--the ranking member has 
worked very hard on professionalizing TSA which is a first line 
of defense in the nation's airports and I think that that is 
extremely important that we look at that.
    Final off the hand comment I want to make and then I will 
make one or two, I didn't notice, I think maybe I have gone off 
time, so please forgive me. The FEMA structure----
    Mr. Carter. Your time is OK, we are not keeping time.
    Ms. Jackson Lee. All right, and I think we have all worked 
on this, there are good people in the FEMA operation, the 
administrator, I have worked with all of them. And as good 
human beings, I would never question, but I do think that all 
of us need to look at a reconfiguration of FEMA to the rescue 
period which is when you rush in and you bring in the 
generators and people from all over the country and you are 
standing up shelters and you are helping people. I remember not 
my city, not Harris County, but a city that Port Arthur which 
is a neighbor and a neighbor to my colleague. When I say 
neighbor, a neighboring city, another colleague's district, but 
people reached out because I was on Homeland Security.
    And they were so small that they just didn't know what to 
do. They literally had people out on the street. This is in the 
immediate aftermath of hurricane Harvey, and clearly didn't 
know how to reach the state to get permission, to get some kind 
of temporary housing, tents, whatever. They were trying to get 
on barges and they were being rejected. Somebody came up and 
said, I can get you on some barges and frankly they were able 
to get through to the state which helped them with some form of 
housing.
    The point is that there should be the immediate rescue 
period and then the recovery period. So I am dealing with 
people right now who are being put out of hotels and however 
you want to characterize them, they are put in the category of 
not eligible, but you still have people who are without homes. 
And if there was the rescue and then there was a long-term 
recovery, those individuals could at least have a long-term 
response to what they should be doing.
    They don't have that. And I came to say this because I was 
really shocked. We are working on it right now, a constituent 
who we directed to the last remaining DRC said, they are 
laughing at us. And it may be people are exasperated, they are 
overworked, they are from out of town, but that is just 
something no matter what area of disaster you may fall in, it 
is not even a year for these people. It looks like if I might 
say, these are the not doing anything for themselves people. I 
can say that we have a shortage of affordable housing in a big 
city like Houston, we have lost a lot of them. We lost some to 
Hurricane Harvey to be very honest. And so these people need a 
long-term hand holding and it is not even August.
    And as many of you know, we in the Gulf, are coming into 
our hurricane season. And I just think as partners on Homeland 
Security authorizing and working, that we should find some way 
to bolster FEMA's really important two-pronged task, is they 
are, I mean, immediate responders of which you hear people say 
FEMA, FEMA, FEMA up there. The state operator, the emergency 
center, they are there, the shelter standup that they do, but 
then these people, and they are all over in many jurisdictions 
need that extra help.
    So I am trying to or am drafting a reconfiguration of FEMA 
in those two prongs. I certainly hope to listen to FEMA about 
how that would work. We have already talked to them to get 
their input as to how that would work and how that will be 
effective.
    The other point is that in the hearing that Mr. McCall and 
we had as the Homeland Security field hearing, our cities and 
you may be facing the same, have not gotten their reimbursement 
for school reimbursement and other assistance that they have 
sent the invoice if you will, and they have not yet gotten that 
funding. And I don't think it was tied to the recent omnibus 
because I think they have certainly got money in the last go-
round that we gave.
    All of this is to say we have good people working. FEMA 
personnel that come from faraway places who stand up to work as 
contract, whatever the structure is, I know they are good 
people. But again, you can't laugh at my constituents. You 
can't laugh because they come in and whatever they missed 
getting, whatever they didn't do right, they are still 
homeless, they are still short out of this hotel. And they are 
still in a place that has people living in homes that are 
nothing but shells. They don't have any--they haven't put the 
dry wall up, they haven't done anything. I mean they just got 
it out and they are there.
    This is the plight of disasters which we as a country I 
think have always had a big heart for trying to restore people, 
but we have got to have the system to help us restore people as 
well. So the--in this I have this funding for FEMA's hazardous 
engagement assistance, emergency food and shelter which is 
important, staffing for adequate fire and emergency response 
and the U.S. is 750 for that, the transit security.
    But I close on this, the first responders are wonderful and 
as we understand the president's budget, some of those dollars 
for them were cut and I certainly want to speak for them today 
to say that those--that funding dollar should be there. I have 
got things like port security, but I want to submit this into 
the record, $45 million for university programs, Homeland 
Security centers of excellence for HBCUs and expanding serving 
institutions. They have been a wonderful to train Homeland 
Security experts.
    With that, I appreciate your tolerance and as well the 
opportunity to appear before you. Thank you very much.
    Mr. Carter. Thank you, Ms. Jackson Lee and we too do take 
seriously all the requests that come in here, we will look at 
them within the resources that we have got available and we 
will try our very best. As you know I am a native Houston, my 
heart is in Houston. And I am very, very concerned. I speak 
about it almost every day, just had people requesting H-2B 
visas in here, we desperately need them in Houston. We just--
there is a lot of need in Houston and we will do the best we 
can.
    Ms. Roybal-Allard.
    Ms. Roybal-Allard. Just to say thank you and I echo what 
the chairman said, we will do our best.
    Mr. Carter. Any further comments for the committee? All 
right, thank you very much. I appreciate you coming in, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you so very much. We will be working 
together.
    Mr. Carter. That is the end of the hearing. We are 
adjourned.
<DOC>
<HEAD>


 
                           W I T N E S S E S

                              ----------                              
                                                                   Page

Albence, Matthew T...............................................    75
    Prepared statement...........................................    78
Benner, Derek N..................................................    88
    Prepared statement...........................................    78
Hill, Hon. French................................................   219
    Prepared statement...........................................   221
Jackson Lee, Hon. Sheila.........................................   223
    Prepared statement...........................................   224
Johnson, Hon. Bill...............................................   211
    Prepared statement...........................................   214
Long, Hon. Billy.................................................   201
    Prepared statement...........................................   203
Long, Hon. Brock.................................................   137
    Prepared statement...........................................   141
McAleenan, Kevin K...............................................    59
    Prepared statement...........................................    62
Nielsen, Hon. Kirsten............................................     4
    Prepared statement...........................................     8
Schneider, Hon. Brad.............................................   206
    Prepared statement...........................................   208
Zukunft, Admiral Paul F..........................................   171
















                               I N D E X

                              ----------                              

                  U.S. Department of Homeland Security

                                                                   Page

Antiterrorism Grants.............................................    47
Border Wall Detention Beds.......................................    51
Border Security:
    Immigration Judges, Border Patrol Agents.....................    28
    National Guard...............................................    43
Countering Weapons of Mass Destruction...........................    27
Cybersecurity:
    Working With State and Local Governments.....................    33
    Working With the Private Sector..............................    50
Deferred Action for Childhood Arrivals...........................    36
Department of Energy National Laboratories.......................    37
Department of Homeland Security: Vision..........................    14
Detention: Pregnant Women........................................    14
H-2B:
    Number of VISAs, Application Process.........................    31
    Timeline for Certifications..................................    49
Opioid Detection.................................................    27
Refugees.........................................................    38
Sanctuary States: Federal Preemption.............................    31
Temporary Protected Status: Haitians.............................    48
Unaccompanied Children...........................................    52

       Immigration and Customs Enforcement and Border Protection

Border Security:
    Apprehensions..............................................122, 128
    Asylum................................................123, 127, 128
    Barrier Prototype............................................    90
    Catch and Release............................................   126
    Construction.................................................    92
    Crime........................................................   118
    Gates........................................................    93
    Human Trafficking............................................   131
    Mexico.......................................................   129
    National Guard.............................................108, 110
    Operation Streamline.......................................131, 132
    Property Procurement.........................................    93
    Prosecution................................................132, 133
    Wall.........................................................    60
    Wall Replacement.............................................    92
CBP:
    Border Checkpoints...........................................   120
    Border Crossings.............................................    98
    Border Security..............................................    99
    Facilities...................................................    61
    Hiring.......................................................    60
    Port of Entry................................................   119
    Trade Enforcement............................................   120
    Workforce Staffing.........................................111, 124
Child Separation.................................................    95
Combating MS-13 Gang Activity....................................    89
Combating Narcotics..............................................   121
Combating Opioids................................88, 107, 109, 112, 114
ICE:
    Compliance Center............................................   103
    Detention Beds..............................................76, 114
    Enforcement Discretion.......................................   105
    Enforcement and Removal Operations...........................    75
    Homeland Security Investigations.............................    88
    Immigration Enforcement......................................97, 98
    Infrastructure...............................................    90
    Judge Workforce..............................................   119
    Opioids......................................................    99
    Parental Interest............................................    94
    Removal Enforcement Prioritization...........................   105
    Sanctuary Policy.............................................    98
    Targeted Enforcement Operations..............................   114
    Transportation and Removal...................................    77
    Workforce................................................75, 76, 90
    Workforce Compliance Targeting........................102, 119, 130
License Plate Readers: Modernization.............................   118
Mobile Surveillance Capability...................................   118
National Targeting Center........................................    61
Non-intrusive Inspection Technology.............................61, 111
Sanctuary States: California:....................................   114
Trade Facilitation/Enforcement...................................    61
Worksite Enforcement.............................................    89

                                  [all]



</pre></body></html>
